<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2008 

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Commerce, Justice, Science, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2008 budget request for programs 
within the subcommittee's jurisdiction.]
   Prepared Statement of the National Employment Lawyers Association
                           executive summary
    In March of this year, the National Employment Lawyers Association 
\1\ (NELA) prepared and distributed to its membership a brief on-line 
survey to gain a better and more current understanding of (1) the 
frequency with which charging parties and/or their attorneys encounter 
refusals by the U.S. Equal Employment Opportunity Commission (EEOC) to 
accept charges; and (2) the extent to which charging parties and/or 
their attorneys experience other problems with charge filing at the 
EEOC (see Appendix A attached to the full report). NELA spearheaded the 
survey in response to comments it regularly receives from NELA members 
and local NELA affiliate members about the EEOC's charge filing process 
as well as by our discussions with the leadership of the EEOC. Both the 
EEOC and the Congress also have recently expressed concerns about the 
need for charging parties to have effective access to the Commission's 
compliance procedures.
---------------------------------------------------------------------------
    \1\ The National Employment Lawyers Association (NELA) advocates 
for employee rights and workplace fairness while promoting the highest 
standards of professionalism, ethics and judicial integrity. NELA was 
founded in 1985 to provide assistance and support to lawyers in 
protecting the rights of employees against the greater resources of 
their employers and the defense bar. NELA is the country's largest 
professional organization that is comprised exclusively of lawyers who 
represent individual employees in cases involving employment 
discrimination, wrongful termination, employee benefits, and other 
employment-related matters. NELA and its 67 state and local affiliates 
have more than 3,000 members nationwide.
    As a group, NELA members have represented thousands of individuals 
seeking equal employment opportunities. NELA is one of a limited number 
of organizations dedicated to protecting the rights of all employees 
who rely on the U.S. Equal Employment Opportunity Commission (EEOC) and 
the courts for protection against illegal workplace discrimination. 
NELA's members serve the same constituency as the Commission, namely, 
employees who have been and are being subjected to invidious race, 
color, national origin, gender, religious, age, and disability 
discrimination prohibited by Title VII of the Civil Rights Act of 1964, 
the Age Discrimination in Employment Act, and the Americans with 
Disabilities Act. NELA's members interface with the EEOC on a daily 
basis. They are involved with the Commission's compliance procedures, 
its investigation practices, and its disposition of cases. That 
involvement is nationwide and reaches to all of EEOC's regional and 
district offices.
---------------------------------------------------------------------------
    The survey sought to elicit information about what happens when a 
charge is presented to the Commission--whether charging parties 
encounter problems, the types of problems they experience, and the 
frequency and timing of such problems. The survey covers the period 
from January 1, 2005 to April 2, 2007; questions were categorized by 
calendar year. The survey was conducted from March 16, 2007 through 
April 2, 2007. NELA received 343 unique responses to the survey, for a 
total response rate of 14 percent. The responses represent the 
experiences of plaintiff employment lawyers (and their clients) from 30 
states, the District of Columbia and Puerto Rico who practice before 
EEOC offices in every region, including 15 district, 9 field, 12 area 
and 11 local offices. (A list of the EEOC offices referenced by survey 
respondents is contained in Appendix B of the full report.)
    The cumulative responses reveal an agency that is resistant to the 
filing of employment discrimination charges. Of the survey respondents, 
nearly one-quarter (23 percent) indicated that they had drafted charges 
for clients that had not been accepted for filing by the EEOC during 
the twenty-seven month period covered by the survey.\2\ In response to 
the broader question, ``[H]ave you had other problems with the EEOC in 
the processing of charges or intake questionnaires (e.g., resistance by 
EEOC office identified above to accepting filing as prepared by you, 
substantial modification by EEOC of what you prepared, etc.)?''--the 
``yes'' response rate was even higher.\3\ Thirty-six percent (36 
percent) of respondents reported that they had encountered such 
problems at some time since January 1, 2005. Moreover, more than a 
quarter of the respondents who had experienced such problems did so 
more than once in calendar years 2005 (26 percent) and 2006 (28 
percent).\4\ In 2005, 12 percent, and in 2006, 13 percent, of them had 
encountered such problems three or more times in the year.\5\
---------------------------------------------------------------------------
    \2\ See Question 3, Appendix A.
    \3\ See Question 11, Appendix A.
    \4\ See Questions 12 and 13, Appendix A.
    \5\ Supra.
---------------------------------------------------------------------------
    The comments of survey respondents illuminate the pervasiveness of 
the problems that charging parties and plaintiff's attorneys have with 
the EEOC's intake, charge filing and investigation processes. The 
respondents cite several recurrent problems with EEOC charge intake as 
well as with EEOC investigations after charges are filed (see pages 6-
13 of the full report).
    These findings, as alarming as they are, do not come as a surprise 
to anyone who is familiar with the EEOC. They are, in substantial part, 
symptomatic and the consequence of an inadequate budget which has 
resulted in an understaffed agency burdened with a massive flow of 
charges and an ever growing backlog. Indeed, the Commission has 
struggled to meet the mounting pressures of this burden and has tried 
to adjust to the realities of its budget through a major reorganization 
and reallocation of staff.
    When the chaff is separated from the wheat, however, the key fact 
that emerges is that the EEOC has for many years only been able to 
budget a small amount of its funding to enforcement and virtually 
nothing to training personnel. This renders the Commission ill-equipped 
to achieve its mission, produces never-ending delays, prevents even 
minimal training of staff, and breeds inordinate pressures not to add 
to a burgeoning backlog by junking potential and actual cases at every 
step of the administrative process. More specifically, it produces an 
inherent resistance to the filing of charges by compliance staff, 
shortchanges investigations (if and when they take place), and 
increases an administrative ``washing of hands'' of cases through the 
convenience of boilerplate Notices of Right to Sue that include nothing 
but a mere check-off box for ``insubstantial evidence to determine'' 
discrimination.
    In enacting various anti-discrimination laws, Congress has signaled 
that addressing and eliminating invidious discriminatory employment 
practices is one of the nation's highest priorities. Thus, it is 
incumbent upon Congress to ensure that the Commission--the federal 
agency that it has mandated to enforce these laws--receives the 
necessary funding to rectify the untenable morass described in the 
report. If the EEOC is to overcome the dire consequences of past budget 
reductions, then funding well beyond the current levels must be made 
available.
    At the same time, the EEOC also must be held accountable to 
Congress and the public it serves. Thus, oversight and assessment 
mechanisms must be put into place to assure that additional resources 
are directed toward viable and meaningful enforcement of the EEOC's 
mandates (see page 15 of the full report). The findings cited in NELA's 
survey lend credence to the problems faced by the EEOC and those 
Americans the agency is mandated to protect from unlawful employment 
discrimination. For the EEOC to fulfill its mission as the federal 
agency most responsible for the enforcement of the nation's equal 
employment opportunity laws, these problems must, at a minimum, be 
addressed with more resources targeted at improving basic enforcement 
functions.
    For more information, contact Donna R. Lenhoff, Legislative & 
Public Policy Director, National Employment Lawyers Association, 1090 
Vermont Avenue, NW, Suite 500, Washington, DC 20005 (Tel: 202-898-2880; 
E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89ede5ece7e1e6efefc9e7ece5e8e1f8a7e6fbee">[email&#160;protected]</a>).
  workers' rights in jeopardy: eeoc's enforcement of equal employment 
             opportunity laws impeded by inadequate funding
a report by the national employment lawyers association--april 27, 2007
Introduction
    The National Employment Lawyers Association (NELA) advocates for 
employee rights and workplace fairness while promoting the highest 
standards of professionalism, ethics and judicial integrity. NELA was 
founded in 1985 to provide assistance and support to lawyers in 
protecting the rights of employees against the greater resources of 
their employers and the defense bar. NELA is the country's largest 
professional organization that is comprised exclusively of lawyers who 
represent individual employees in cases involving employment 
discrimination, wrongful termination, employee benefits, and other 
employment-related matters. NELA and its 67 state and local affiliates 
have more than 3,000 members nationwide.
    As a group, NELA members have represented thousands of individuals 
seeking equal employment opportunities. NELA is one of a limited number 
of organizations dedicated to protecting the rights of all employees 
who rely on the U.S. Equal Employment Opportunity Commission (EEOC) and 
the courts for protection against illegal workplace discrimination. 
NELA's members serve the same constituency as the Commission, namely, 
employees who have been and are being subjected to invidious race, 
color, national origin, gender, religious, age, and disability 
discrimination prohibited by Title VII of the Civil Rights Act of 1964, 
the Age Discrimination in Employment Act, and the Americans with 
Disabilities Act. NELA's members interface with the EEOC on a daily 
basis. They are involved with the Commission's compliance procedures, 
its investigation practices, and its disposition of cases. That 
involvement is nationwide and reaches to all of EEOC's regional and 
district offices.
    NELA members and the staff of the EEOC share the common goal of 
ensuring that the nation's equal employment opportunity laws are 
enforced as mandated by Congress. Indeed, several current and past EEOC 
staff are or have been members of NELA, including former Commissioners 
as well as senior attorneys in the Office of General Counsel and 
Regional Offices. These EEOC alumnae are passionate about their years 
at EEOC. They remain committed to helping the EEOC to advance its 
mission, to establish and develop a vibrant body of employment law, to 
address discrimination where it has operated and is continuing to be 
practiced, and to secure remedies for unlawful employment practices. In 
short, NELA and its members are uniquely positioned to comment upon 
EEOC's compliance efforts and the extent to which the Commission meets 
its mission, exercises its responsibilities, and provides relief to 
individuals who are discriminated against in the workplace.
    Effective, attentive and responsive enforcement procedures hold out 
the hope for resolution and relief for victims of workplace 
discrimination. By the same token, ineffective, inattentive and 
irresponsible administrative processing by EEOC precludes and/or 
directly impacts the nature and scope of the relief charging parties--
even those represented by attorneys--can obtain during the 
administrative process. Furthermore, because utilization of the 
Commission's administrative procedures is a mandatory gateway to 
private enforcement of Title VII and defines the scope of any ensuing 
litigation, NELA's members and their clients have a vital stake in 
ensuring charging party accessibility to the EEOC and effective 
compliance efforts.
    It is essential to underscore that EEOC leaders, especially its 
current Chair, have recognized this commonality between EEOC's 
responsibilities and the interests and experiences of NELA's members. 
They are acutely aware that working in partnership with NELA, as well 
as other stakeholders, is key to fulfilling the EEOC's mission of 
enforcing the nation's equal employment opportunity laws. The Chair and 
the Commissioners have taken affirmative steps in seeking NELA's input 
and feedback regarding EEOC operations. Indeed, open dialogue with and 
encouragement from Chair Earp, Vice Chair Silverman, and Commissioners 
Griffin and Ishimaru were a catalyst for NELA conducting the survey 
which is the subject of this report. The same is true with respect to a 
planned project that NELA hopes to implement in the near future 
regarding EEOC's National Contact Center.
The Survey and Methodology
    In March of this year, NELA prepared and distributed to its 
membership a brief on-line survey, a copy of which is attached as 
Appendix A. The purpose of the survey was to gain a better and more 
current understanding of: (1) the frequency with which charging parties 
and/or their attorneys encounter refusals by the EEOC to accept 
charges; and (2) the extent to which charging parties and/or their 
attorneys experience other problems with charge filing at the EEOC. 
NELA spearheaded the survey in response to comments it regularly 
receives from NELA members and local affiliate members about the EEOC's 
charge filing process as well as by our discussions with EEOC 
leadership. In addition, both the EEOC and the Congress have recently 
expressed concerns about the need for charging parties to have 
effective access to the Commission's compliance procedures.
    The survey sought to elicit information about what happens when a 
charge is presented to the Commission--whether charging parties 
encounter problems, the types of problems they experience, and the 
frequency and timing of such problems. The survey covers the period 
from January 1, 2005 to April 2, 2007; questions were categorized by 
calendar year.
    Instructions and a link to the on-line survey were sent by 
electronic mail to NELA members. In addition, NELA's sixty-seven state 
and local affiliate leaders were encouraged to forward the survey link 
to their membership (which include members who are not members of the 
national organization). The survey was conducted from March 16, 2007 
(the date it was first distributed) through April 2, 2007 (the date the 
survey was closed). NELA received 343 unique responses to the survey, 
for a total response rate of 14 percent.
    The responses represent the experiences of plaintiff employment 
lawyers (and their clients) from 30 states, the District of Columbia 
and Puerto Rico. The respondents practice before EEOC offices in every 
region, including 15 district, 9 field, 12 area and 11 local offices. 
(A list of the EEOC offices referenced by respondents is contained in 
Appendix B.)
The Findings
    The responses reveal an agency that is resistant to the filing of 
employment discrimination charges. Of the survey respondents, nearly 
one-quarter (23 percent) indicated that they had drafted charges for 
clients that had not been accepted for filing by the EEOC during the 
twenty-seven month period covered by the survey.\6\ In response to the 
broader question, ``[H]ave you had other problems with the EEOC in the 
processing of charges or intake questionnaires (e.g., resistance by 
EEOC office identified above to accepting filing as prepared by you, 
substantial modification by EEOC of what you prepared, etc.)?''--the 
``yes'' response rate was even higher.\7\ Thirty-six percent (36 
percent) of respondents reported that they had encountered some such 
problems at some time since January 1, 2005. Moreover, more than a 
quarter of the respondents who had experienced such problems did so 
more than once in calendar years 2005 (26 percent) and 2006 (28 
percent).\8\ In 2005, 12 percent, and in 2006, 13 percent, of them had 
encountered such problems three or more times in the year.\9\
---------------------------------------------------------------------------
    \6\ See Question 3, Appendix A.
    \7\ See Question 11, Appendix A.
    \8\ See Questions 12 and 13, Appendix A.
    \9\ Supra.
---------------------------------------------------------------------------
    These experiences were not specific to just one or two of EEOC's 
local offices, but involved, as mentioned above, 47 offices nationwide. 
These 47 EEOC offices are not, however, necessarily any worse than EEOC 
offices not reflected in the survey. On the other hand, the offices not 
on the list (Appendix B) are not necessarily any better than those that 
are on the list. Indeed, NELA has no reason to believe that these 47 
EEOC offices are either better or worse than the EEOC offices that were 
not mentioned by survey respondents.
    The comments of those responding to the survey, which are compiled 
in Appendix C, illuminate the pervasiveness of the problems that 
charging parties and plaintiff's attorneys have with the EEOC's intake, 
charge filing and investigation processes. As reflected below, the 
comments indicate several recurrent problems with EEOC charge intake as 
well as with EEOC investigations after charges are filed. This is not 
to suggest, however, that all is bad at the EEOC; in fact, some 
respondents recognized and complimented particular offices or 
personnel.
            Problems with Charge Intake
    While NELA attorneys, more often than not, succeed in filing 
charges for their clients, they report that these same clients in many 
instances were previously turned away by EEOC's intake personnel based 
on the same alleged incidents of discrimination. For example:
  --Our clients who come to [us] after going to the EEOC have numerous 
        horror stories about being told they couldn't file because they 
        still had their job, didn't have a case, etc.----Comment 16 
        (Atlanta)
  --While I have not had problems with the EEOC accepting my charges or 
        questionnaires, I have had many potential clients report that 
        the EEOC would not accept their charges--at least 4 in the past 
        two months. I cannot say how many have reported this since 
        January 2005, but the numbers seem to be increasing of late. In 
        addition, the EEOC does not want any information before the 180 
        day filing period, whether or not this information is relevant 
        to the discrimination claims in the charge.----Comment 118 
        (Atlanta)
  --Because of previous problems with the EEOC I always draft the 
        charges and have them hand delivered and stamped. I stopped 
        sending my clients in to file on their own behalf because the 
        EEOC . . . tell[s] clients they don't have a case even though I 
        have already determined that they do.----Comment 45 (Chicago)
  --[T]he problem seems to be mainly with people who attempt to file 
        charges without an attorney. I get many, many calls from people 
        who say that the EEOC told them that they do not have a case 
        when in fact they do have one, or would have if they had filed 
        the charge when they contacted EEOC. EEOC gave them bad legal 
        advice which caused them not to file when they should have, and 
        their rights were compromised.----Comment 86 (Dallas)
  --I don't have problems . . . It is the unrepresented people who have 
        problems. For instance, I have had people come to see me who 
        have been told by the intake folks that they don't have a case 
        and don't know they can insist on filing a charge. I draft and 
        file the charge and there is no problem. I really worry about 
        the folks who don't have a lawyer, not the ones who do!!----
        Comment 175 (St. Louis)
  --[A]ggrieved individuals go [to the EEOC and] are often told that 
        they have no case and no charges are accepted. How many people 
        with legitimate claims then exit the process, demoralized? If 
        they come to us, we have to fight to get the charges filed, 
        including writing them ourselves (which I have not had rejected 
        but never results in much of an investigation).----Comment 99 
        (Detroit)
    Often, before accepting a charge (even one prepared by an 
attorney), EEOC intake personnel have required that the charge be 
narrowed (for example, to one incident or to one form of 
discrimination, such as gender or race discrimination but not both). 
For example:
  --Refusal to allow charging party to check more than one box; refusal 
        to allow charging party to name employment agency or joint 
        employer; not allowing charging party to mention events outside 
        180 days on the face of the charge; telling charging party she 
        doesn't have a charge and not letting her file.----Comment 173 
        (Atlanta); see also Comment 84 (Dallas)
  --[T]he EEOC often will not include all claims (even when client has 
        been instructed by me as to what claims).----Comment 45 
        (Chicago)
    The EEOC resists accepting charges, primarily due to untrained 
intake personnel. For example:
  --Some investigators are more notorious than others. The intake 
        investigators are not attorneys but are making legal decisions. 
        Of course, this could be critical if the individual does not 
        first see an attorney or delays seeing an attorney until after 
        the charging party's deadline has passed.----Comment 23 
        (Raleigh)
  --Unqualified people tell me what does and does not fall under Title 
        VII.----Comment 170 (San Antonio)
  --The EEOC told one client that they had too many cases to really 
        read his case or deal with it since his did not involve a 
        termination.----Comment 30 (Boston)
  --Intake investigators do not seem to understand the elementary 
        principles of discrimination cases, do not seem to understand 
        the significance of certain facts when those facts are 
        presented to them during the intake interview, and can hardly 
        write an intelligent sentence in either the charge or the 
        affidavit.----Comment 132 (San Antonio)
  --I have been told by investigators that the charge cannot be 
        accepted without more detailed information, particularly 
        comparative information. The detail required appears to exceed 
        the notice pleading standard in federal court.----Comment 24 
        (El Paso)
  --I have seen cases of non-represented complainants in which the 
        intake person at the EEOC drafts a charge and immediately 
        issues a notice of right to sue, telling the complainant he/she 
        ``doesn't have a case'' based on the intake person's inaccurate 
        understanding of the law (e.g., ``If you were the only person 
        it happened to it can't be discrimination. . . .''). I wonder 
        how many persons with legitimate complaints rely on that 
        ``advice'' and decide not to pursue their claim.''----Comment 
        148 (St. Louis)
    Timely claims are jeopardized due to delays in the EEOC's 
procedures. For example:
  --[R]ecently I was contacted by a charging party who had submitted 
        his questionnaire in October, but as of mid-February had heard 
        nothing from EEOC. His 180 days to file was within a month of 
        running. I contacted EEOC on his behalf and was told that they 
        were ``just getting to'' the October questionnaires and that 
        the fact that his time was close to running did not give it any 
        priority over other charges. I ended up filing a charge on his 
        behalf instead of waiting for the EEOC.----Comment 92 (Atlanta)
  --I have a case now where the EEOC told my client that he did not 
        have a case, and that they wouldn't accept his charge. He 
        insisted, so they accepted the charge (that they drafted). 
        Months later (after 300 days post-incident) he got a call from 
        the EEOC telling him that he needed to sign another (identical) 
        charge. He did, sent it back, and it was stamped ``filed'' for 
        that new date. Then, the EEOC dismissed him for filing too 
        late. Luckily, he had a copy of the original stamped charge, 
        and we survived a motion to dismiss on this.----Comment 2 
        (Chicago); see also, Comment 37 (Dallas)
  --The EEOC routinely attempts to re-write the charge, invariably 
        leaves [information] out, and then sends the revised charge to 
        the client for signature. It then tries to substitute the date 
        of the ``new'' charge for the original filing date. I then have 
        to write to the EEOC and demand that they use the original 
        charge and original filing date. The EEOC has backed down after 
        receiving my correspondence, but my intervention should not be 
        necessary. In [another] case in 2006 the EEOC told [my client] 
        that it could not accept his charge unless he came into the 
        EEOC personally and complete[d] an intake with an EEOC 
        employee. The EEOC then sent a letter to the client informing 
        him that his charge was not valid and would not be accepted 
        until he followed through on the personal interview. I wrote to 
        the EEOC, explained the statutory requirements for filing, and 
        it ultimately accepted the charge with the original date. 
        Again, this should not have been necessary, particularly since 
        I had entered my appearance.----Comment 104 (Philadelphia)
    Arbitrary and capricious actions by EEOC personnel jeopardize 
employees' rights. For example:
  --They required a whole new charge to be filed for one typo.----
        Comment 70 (Indianapolis)
  --In the past 30 days . . . a charge [was] returned to me telling me 
        that normally they have staff to make corrections on charges, 
        but because they do not have enough staff currently, they were 
        sending back my charge and giving me 33 days to correct the 
        charge. They said that the charge was deficient because I 
        stated the type of disability on the charge form, I described 
        damages and my charge narrative was too lengthy (it fit on the 
        front of the charge form).----Comment 168 (Philadelphia)
  --[O]n several occasions from 2005 to the present, [the Miami office] 
        tried to reject charges [I'd filed] (the most recent occasion 
        being this month). When I challenged them and asked them to 
        cite the provision of the EEOC regulations that authorized them 
        to reject the charge, they backed off. The most egregious of 
        these instances was a disability discrimination charge in which 
        ``disability'' and ``retaliation'' were checked off and the 
        charge alleged that my client was an individual with a 
        disability who was being denied urgently needed accommodations 
        and whose medical information was not being kept confidential. 
        (My client was literally dying because of the employer's change 
        in his work schedule, which interrupted his regime for taking 
        HIV medication.) Someone from the Miami EEOC office called and 
        said the charge was being rejected because it didn't expressly 
        mention the Americans with Disabilities Act. I hit the roof and 
        told them that the description of the discrimination and 
        checking off of ``disability'' made it patently obvious that 
        this was an ADA charge.----Comment 101 (Miami)
    Inability to contact EEOC personnel. For example:
  --Complete inability to talk to any EEOC personnel about status of 
        charge, investigation, etc.; complete failure of EEOC to 
        conduct any investigation of charges that clearly are 
        meritorious.----Comment 185 (Baltimore)
  --I have had . . . numerous occasions where I have attempted to get 
        in touch with investigators to convey information or inquire 
        into case status and my calls have not been returned.----
        Comment 128 (Cincinnati)
    Other Intake Problems Confronted by Survey Respondents and Their 
Clients:
  --Lack of Spanish-speaking personnel.----Comment 80 (Birmingham)
  --The EEOC charge form is not readily available.----Comment 82 
        (Dallas); see also Comment 32 (Cincinnati)
  --Lack of coordination among EEOC personnel (e.g., different 
        investigators assigned to charges against the same employer 
        involving the same discriminatory practice).----Comment 86 
        (Dallas)
  --Lost charges and files.----Comments 114 (Philadelphia); Comment 65 
        (St. Louis); Comment 128 (Cincinnati); Comment 62 (Baltimore)
  --Failure to provide right-to-sue letter.----Comment 116 (Charlotte)
            Problems with Investigations and Post-charge Processing
    The narrative comments that accompanied the survey responses also 
enumerate repeated concerns about what takes place after charges are 
accepted by the EEOC. These concerns include the following:
  --Cursory investigations by untrained investigators. For example:
    --The problems I have encountered have occurred after the charge is 
            filed. We have had several cases where the EEOC simply 
            decided not to investigate or even [to] require a response 
            from the Respondent because the EEOC decided the charging 
            party could not be discriminated against on the basis of 
            race if the decision maker was the same race. That is not 
            the law, but it is making it hard to prosecute these 
            cases.----Comment 13 (Chicago) [emphasis supplied]
    --My problems have been with the EEOC's lack of investigation and 
            routine acceptance of the respondent's position.----Comment 
            116 (Charlotte)
    --Zero knowledge of pretext. EEOC requires direct evidence or they 
            dismiss the claim. Also, zero knowledge of the single 
            enterprise theory. If the employer says they don't employ 
            15 people or 50 people, etc., EEOC makes no further 
            inquiry.----Comment 52 (New Orleans)
    --The EEOC routinely contacts clients who are represented by 
            counsel and gives them advice which is often incorrect, and 
            causes the clients unnecessary confusion.----Comment 104 
            (Philadelphia)
    --Pregnancy discrimination charge dismissed because client was 
            replaced by a female. Investigator didn't understand that 
            the female that replaced my client was not pregnant. 
            Recently, same investigator would not allow my client to 
            amend charge to include retaliation which occurred after 
            the filing of the first charge. New charge had to be filed 
            after discussion with investigator's supervisor.----Comment 
            113 (Denver)
    --[T]he investigators are overwhelmingly unqualified (can't even 
            identify the prima facie elements to claims, and have no 
            clue how to investigate). There is very little access and 
            transparency, since the District Director . . . is more 
            interested in closing files and denying access to position 
            statements than he is in having his investigators do their 
            job.----Comment 73 (El Paso)
    --Another EEOC problem: they are not investigating a lot of 
            charges. I've had a few potential clients come in with 
            charges that received no substantial evidence findings 
            within 7 days of filing.----Comment 2 (Chicago)
  --Perfunctory acceptance of the employer's written response to the 
        charge, and little or no assessment of the merits or follow-up 
        to test the representations contained in the employer's 
        response (such as contacting witnesses or obtaining relevant 
        comparative data). For example:
    --[The] most frequent and significant problem I have encountered is 
            resistance by some investigators to conduct a meaningful 
            investigation if they have determined that the case has no 
            merit. Investigators will often receive the employer's 
            position statement and reach a premature conclusion that 
            the charge has no merit. The investigators are then 
            resistant to conduct[ing] an investigation (e.g., contact 
            witnesses or obtain documents) that might indicate that the 
            employer's position statement is inaccurate or is not 
            meritorious. In my opinion, this resistance occurs from a 
            need to move and close files at a certain rate.----Comment 
            77 (St. Louis)
    --We get almost no feedback on the [investigation] process. 
            Conciliation ends up undervaluing the claims dramatically. 
            There are a few good investigators, but for the most part 
            there seems to be no will to question, let alone rebut, the 
            proffered explanation of the employers. When we FOIA the 
            records afterward there is almost no discovery conducted. 
            There is almost never a ``for cause'' finding. I think I 
            have seen at most three or four throughout a fifteen year 
            career. Needless to say I have settled many a case in which 
            the EEOC found no cause. The administration at our [EEOC] 
            office seems completely oblivious to the problems. When the 
            issues are raised, the reaction is, ``Well, that is not our 
            policy, so, it must not be happening the way you describe 
            it.'' I was on the verge of FOIAing the Detroit district 
            office annual reports to use to request some sort of 
            Congressional oversight from our senators.----Comment 99 
            (Detroit)
    --The problems I have with the EEOC occur during the supposed 
            ``investigation'' of the charge. The investigators 
            typically receive the employer's position statement, treat 
            it like the gospel, do nothing more, and then issue a 
            terrible letter telling my clients that they were horrible 
            employees and that there was no discrimination. I have 
            repeatedly complained about this to the [EEOC] Cleveland 
            counsel, to no avail.----Comment 98 (Cleveland)
    --They simply notify us of their intent to dismiss based on the 
            employer's position statement without giving the charging 
            party an opportunity to refute what the employer has 
            said.----Comment 29 (Detroit)
  --Perfunctory issuance of boilerplate right-to-sue letters at intake 
        or after a pro forma investigation. For example:
    --I have seen several instances of clients who file charges and 
            receive their notice of right to sue at the same time, with 
            no investigation.----Comment 83 (Dallas)
    --My problems arise after filing and the EEOC does nothing. I draft 
            questions and investigators do not investigate or are just 
            too busy to do anything. I file at least a half dozen 
            charges each year. Inevitably we get back the punt, unable 
            to determine if discrimination took place.''----Comment 57 
            (Philadelphia)
Inadequate Funding: The Source of the Problems
    These findings, as alarming as they are, do not come as a surprise. 
They clearly are, in substantial part, symptomatic and the consequence 
of an inadequate budget which has resulted in an understaffed agency 
burdened with a massive flow of charges and an ever growing backlog. 
The Commission has struggled to meet the mounting pressures of this 
burden and has tried to adjust to the realities of its budget through a 
major reorganization and reallocation of staff. Members of Congress, 
NELA, and other stakeholder organizations were critical of and voiced 
their skepticism about the reorganization, fearing it would, if 
anything, further deplete enforcement and would not result in staffing 
that would achieve the results forecast by EEOC. Whether those 
criticisms were well founded or whether the Commission's blueprints for 
reorganization make sense are appropriate subjects of debate and 
scrutiny. That controversy, however, ignores an overwhelming reality.
    When the chaff is separated from the wheat, the key fact that 
emerges is that the EEOC has for many years only been able to budget a 
small amount of its funding to enforcement and virtually nothing to 
training personnel. This renders the Commission ill-equipped to achieve 
its mission, produces never-ending delays, prevents even minimal 
training of staff, and breeds inordinate pressures not to add to a 
burgeoning backlog by junking potential and actual cases at every step 
of the administrative process. More specifically, it produces an 
inherent resistance to the filing of charges by compliance staff, 
shortchanges investigations (if and when they take place), and 
increases an administrative ``washing of hands'' of cases through the 
convenience of boilerplate Notices of Right to Sue that include nothing 
but a mere check-off box for ``insubstantial evidence to determine'' 
discrimination.
    The inescapable conclusion is that the reductions in the EEOC's 
budget over the past several years have wreaked havoc upon the 
Commission's enforcement efforts. For all intents and purposes, these 
budget levels have imposed upon the EEOC a paralysis that frustrates 
Congressional intent in enacting equal employment opportunity laws, the 
Commission's efforts in achieving its mission and, moreover, the rights 
of American workers to be free from unlawful employment discrimination. 
For those who do succeed in obtaining relief from illegal employer 
conduct, that relief is likely to be only after years of delay.
    In enacting various anti-discrimination laws, Congress has signaled 
that addressing and eliminating invidious discriminatory employment 
practices is one of the nation's highest priorities. Thus, it is 
incumbent upon Congress to ensure that the Commission--the federal 
agency that it has mandated to enforce these laws--receives the 
necessary funding to rectify the untenable morass described in this 
report. If the EEOC is to overcome the dire consequences of past budget 
reductions, then funding well beyond the current levels must be made 
available.
    At the same time, the EEOC also must be held accountable to 
Congress and the public it serves. Thus, oversight and assessment 
mechanisms must be put into place to assure that additional resources 
are directed toward viable and meaningful enforcement of the EEOC's 
mandates. In particular:
  --Immediate attention should be given to how many investigators and 
        attorneys are assigned to each of EEOC's offices as well as to 
        the past and anticipated case flow at each of these offices.
  --A critical examination is needed to determine what, if any, 
        training is provided to EEOC's compliance staff.
  --If EEOC intends to make good on its commitment to revitalize 
        systemic cases, then the agency needs to assess whether it has 
        sufficient staff attorneys and support personnel to fulfill 
        this promise.
  --Mechanisms are required to ensure that individual cases are not 
        short-changed while the Commission pursues systemic cases.
  --Factors relating to employee performance incentives and awards 
        should be based on enforcement of the laws, vindication of 
        civil rights and changing business practices as opposed to 
        speeches and community outreach.
Conclusion
    The findings of NELA's survey lend credence to the problems faced 
by the EEOC and those Americans the agency is mandated to protect from 
unlawful employment discrimination. For the EEOC to fulfill its mission 
as the federal agency most responsible for the enforcement of the 
nation's equal employment opportunity laws, these problems must, at a 
minimum, be addressed with more resources targeted at improving basic 
enforcement functions.
    appendix a.--nela eeoc charge processing survey--numerical data
    Total Responses: 343
    1. Name:
    2. EEOC Office you primarily practice before:
    3. Since January 1, 2005, have you drafted a discrimination charge 
(or charges) for a client (or clients) that was (were) not accepted for 
filing by the EEOC office identified above?

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
Yes...................................................       77    22.60
No....................................................      264    77.40
                                                       -----------------
      Total Respondents...............................      341  .......
------------------------------------------------------------------------

    4. If yes, how many times did it occur in calendar year 2005:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
0.....................................................      155    74.20
1.....................................................       18     8.60
2.....................................................       19     9.10
3-5...................................................       13     6.20
6-10..................................................        1     0.50
11 or more............................................        3     1.40
                                                       -----------------
      Total Respondents...............................      209  .......
------------------------------------------------------------------------

    5. How many times did it occur in calendar year 2006:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
0.....................................................      153    70.50
1.....................................................       37    17.10
2.....................................................       15     6.90
3-5...................................................       10     4.60
6-10..................................................  .......  .......
11 or more............................................        2     0.90
                                                       -----------------
      Total Respondents...............................      217  .......
------------------------------------------------------------------------

    6. How many times did it occur from January 1, 2007 to present:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
0.....................................................      198    92.50
1.....................................................       13     6.10
2.....................................................        1     0.50
3-5...................................................        2     0.90
6-10..................................................  .......  .......
11 or more............................................  .......  .......
                                                       -----------------
      Total Respondents...............................      214  .......
------------------------------------------------------------------------

    7. Since January 1, 2005, have you prepared an EEOC intake 
questionnaire (or questionnaires) that was (were) not accepted by the 
EEOC office identified above:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
Yes...................................................       19     5.70
No....................................................      316    94.30
                                                       -----------------
      Total Respondents...............................      335  .......
------------------------------------------------------------------------

    8. If yes, how many times did it occur in calendar year 2005:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
0.....................................................      156    94.00
1.....................................................        2     1.20
2.....................................................        5     3.00
3-5...................................................        1     0.60
6-10..................................................        2     1.20
11 or more............................................  .......  .......
                                                       -----------------
      Total Respondents...............................      166  .......
------------------------------------------------------------------------

    9. How many times did it occur in calendar year 2006:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
0.....................................................      155    90.60
1.....................................................       10     5.80
2.....................................................        3     1.80
3-5...................................................        2     1.20
6-10..................................................        1     0.60
11 or more............................................  .......  .......
                                                       -----------------
      Total Respondents...............................      171  .......
------------------------------------------------------------------------

    10. How many times did it occur from January 1, 2007 to present:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
0.....................................................      166    96.50
1.....................................................        5     2.90
2.....................................................  .......  .......
3-5...................................................        1     0.60
6-10..................................................  .......  .......
11 or more............................................  .......  .......
                                                       -----------------
      Total Respondents...............................      172  .......
------------------------------------------------------------------------

    11. Since January 1, 2005, have you had other problems with the 
EEOC in the processing of charges or intake questionnaires (e.g., 
resistance by EEOC office identified above to accepting filing as 
prepared by you, substantial modification by EEOC of what you prepared, 
etc.):

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
Yes...................................................      117    35.70
No....................................................      211    64.30
                                                       -----------------
      Total Respondents...............................      328  .......
------------------------------------------------------------------------

    12. If yes, how many times did it occur in calendar year 2005:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
0.....................................................      130    62.20
1.....................................................       24    11.50
2.....................................................       30    14.40
3-5...................................................       21    10.00
6-10..................................................        4     1.90
11 or more............................................  .......  .......
                                                       -----------------
      Total Respondents...............................      209  .......
------------------------------------------------------------------------

    13. How many times did it occur in calendar year 2006:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
0.....................................................      117    55.70
1.....................................................       34    16.20
2.....................................................       32    15.20
3-5...................................................       23    11.00
6-10..................................................        3     1.40
11 or more............................................        1     0.50
                                                       -----------------
      Total Respondents...............................      210  .......
------------------------------------------------------------------------

    14. How many times did it occur from January 1, 2007 to present:

------------------------------------------------------------------------
                                                         Number  Percent
------------------------------------------------------------------------
0.....................................................      164    79.20
1.....................................................       28    13.50
2.....................................................        8     3.90
3-5...................................................        5     2.40
6-10..................................................        2     1.00
11 or more............................................  .......  .......
                                                       -----------------
      Total Respondents...............................      207  .......
------------------------------------------------------------------------

 appendix b.--nela eeoc charge processing survey list of eeoc offices 
                       referenced by respondents
Atlanta District Office
Birmingham District Office
Charlotte District Office
Chicago District Office
Dallas District Office
Houston District Office
Indianapolis District Office
Los Angeles District Office
Memphis District Office
Miami District Office
New York District Office
Philadelphia District Office
Phoenix District Office
San Francisco District Office
St. Louis District Office
Baltimore Field Office
Cleveland Field Office
Denver Field Office
Detroit Field Office
New Orleans Field Office
San Antonio Field Office
Tampa Field Office
Seattle Field Office
Washington Field Office
Albuquerque Area Office
Boston Area Office
Cincinnati Area Office
El Paso Area Office
Kansas City Area Office
Louisville Area Office
Milwaukee Area Office
Minneapolis Area Office
Nashville Area Office
Newark Area Office
Pittsburgh Area Office
Raleigh Area Office
Buffalo Local Office
Greenville Local Office
Honolulu Local Office
Las Vegas Local Office
Norfolk Local Office
Oakland Local Office
Richmond Local Office
San Diego Local Office
San Jose Local Office
San Juan Local Office
Savannah Local Office
 appendix c.--nela eeoc charge processing survey comments organized by 
                                 office
Atlanta District Office
    16. [No problems] in the charges we file except that when we have 
more than one employer the EEOC now insists upon having separate 
charges and they have ended up going to different investigators. Our 
clients who come to us after going to the EEOC, on the other hand, have 
numerous horror stories about being told they couldn't file because 
they still had their job, didn't have a case, etc.
    34. I receive many calls from potential clients that describe being 
turned away from EEOC and not allowed to file a charge of 
discrimination.
    41. The problems with the EEOC usually arise when the charging 
party is NOT represented by an attorney. That's usually when I hear 
about instances of the EEOC refusing charges, or advising charging 
parties that they don't have any claims, etc. When the charge comes 
from a lawyer, it's been my experience that they usually accept the 
charge.
    49. Requests to interview my clients directly without informing me 
of the nature or specific purpose of the interview, other than saying 
that the charge as drafted was insufficient.
    59. One of my clients just had his case, a strong religious 
discrimination case, dismissed due primarily to the EEOC's 
incompetence. The client went to the EEOC, pro se, complaining about 
religious discrimination in the workplace. The investigator said that 
much of the supporting evidence my client had was more than 6 months 
old, and discouraged my client from filing a religious [discrimination] 
claim. The investigator asked my client the race of client's boss, who 
is white. The client is black. The investigator said he'll check off 
the race box. My client said no, it's not a race claim, it's a 
religious discrimination claim. The investigator said that he can only 
check off one box, and since a lot of client's evidence is more than 6 
months old on the religious [discrimination] claim (but his termination 
was within 6 months), he will go with race only. My client was pro se, 
at the EEOC for the first time, and wrongly trusted the investigator to 
get it right. My client subsequently put on the questionnaire that it 
is a religious discrimination as well as race matter. The Court denied 
Defendant's motion to dismiss for failure of notice in the early stages 
of the litigation. We then went through full discovery, costing the 
client over $7,000. Then, a new judge took over the case. He tossed the 
case on summary judgment due primarily to the EEOC mishandling of the 
charge. He also briefly went over the facts of the case and determined 
the underlying facts were not strong enough. That was argued very 
poorly and we would have had a good shot on appeal on that argument. 
Unfortunately though, his primary argument--the EEOC matter--has enough 
case law on both sides. We decided not to appeal.
    92. The primary problems of which I am aware are related to 
unrepresented charging parties who try to file charges. For example, 
recently I was contacted by a charging party who had submitted his 
questionnaire in October, but as of mid-February had heard nothing from 
EEOC. His 180 days to file was within a month of running. I contacted 
EEOC on his behalf and was told that they were ``just getting to'' the 
October questionnaires and that the fact that his time was close to 
running did not give it any priority over other charges. I ended up 
filing a charge on his behalf instead of waiting for the EEOC.
    93. NELA-GA is in communication with the Atlanta EEOC office about 
joint employers. The EEOC wants separate charges filled out for each 
employer (meaning the charges are assigned to different mediators, 
different investigators . . .); NELA-GA wants all employers to be 
listed on the same charge.
    110. EEOC often pigeon holes a complaint into ``race'' or 
``gender'' rather than check multiple boxes to cover discrimination 
based on more than one factor. EEOC also often gives clients 
incompetent and wrong legal advice.
    118. While I have not had problems with the EEOC accepting my 
charges or questionnaires, I have had many potential clients report 
that the EEOC would not accept their charges--at least 4 in the past 
two months. I cannot say how many have reported this since January 
2005, but the numbers seem to be increasing of late. In addition, the 
EEOC does not want any information before the 180 day filing period, 
whether or not this information is relevant to the discrimination 
claims in the charge.
    119. Individuals going to the EEOC alone and having the intake 
office refuse to take their charge or telling them they have no case.
    142. Telling people who come in, even if they have a witness with 
them that they have no case. In one instance it involved touching 
sexual harassment and an eye witness and they were turned away. They 
tell the potential charging party they have no case and never inform 
them that there are other laws that the EEOC does not enforce that may 
apply to their situation. Also have had preemptory dismissals without 
any defect on the face of the charge.
    173. Refusal to allow charging party to check more than one box; 
refusal to allow charging party to name employment agency or joint 
employer; not allowing charging party to mention events outside 180 
days on the face of the charge; telling charging party she doesn't have 
a charge and not letting her file.
    175. One investigator threatened not to accept an amended charge. I 
filed it anyway.
Birmingham District Office
    80. Lack of Spanish-speaking EEOC personnel in the South.
    95. Years ago, in the 1990s, the Birmingham office would not take a 
charge by fax. I haven't tried since then. I think charges should be 
accepted by fax, email, etc.
    151. Most investigators are lazy and rude; one black male hated all 
complaints from females, asking ``Who do you think you are?'' to a 
sexual harassment victim. He was equally threatening to me. Had to go 
to the national director to get him removed. Turned out he was having a 
gay affair with an executive of the employer. With no state employment 
discrimination laws, we must go through EEOC.
Charlotte District Office
    7. I have not really had any problems in connection with the filing 
of a charge. My problems have been with the EEOC's lack of 
investigation and routine acceptance of the respondent's position. 
Also, I have had some incidents where the EEOC has not provided the 
right to sue letter to the complainant.
    116. My clients who go in person to file charges have been turned 
away and told they do not have a charge. They have also encountered 
some rude intake people. I have had to tell clients to go back and 
insist they have a right to file a charge. I have also had EEOC people 
discourage people from retaining an attorney.
    141. I have two problems with the EEOC. One, they will not issue a 
right to sue letter 180 days after the charge is filed. Two, they will 
not keep me informed of the status of the charge.
Chicago District Office
    1. Particular EEOC investigator [deleted] is pre-disposed to 
employer stances/defenses. [Deleted] has completely unreasonable 
demands of clients for specific dates and times of discussions from 
over a year prior. [Deleted.] demands both shorter CODs and more 
details and facts. [Deleted] even accused attorney of coaching witness 
to change testimony and of witness of changing testimony.
    2. The EEOC-Chicago now has a rule that they any charges that come 
in notarized automatically get sent to the Illinois Department of Human 
Rights. The EEOC will take only un-notarized charges. I learned of this 
rule from an investigator. Another EEOC problem: they are not 
investigating a lot of charges. I've had a few potential clients come 
in with charges that received no substantial evidence findings within 7 
days of filing. I have a case now where the EEOC told my client that he 
did not have a case, and that they wouldn't accept his charge. He 
insisted, so they accepted the charge (that they drafted). Months later 
(after 300 days post-incident) he got a call from the EEOC telling him 
that he needed to sign another (identical) charge. He did, sent it 
back, and it was stamped ``filed'' for that new date. Then, the EEOC 
dismissed him for filing too late. Luckily, he had a copy of the 
original stamped charge, and we survived a motion to dismiss on this. 
But the EEOC file had notes saying that he chose not to file the first 
charge--total cover-your-#<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e2c6a2">[email&#160;protected]</a> language. I'm guessing they lost the first 
charge. Another client of mine had his Chicago charge ignored for 8 
months, when he called on it, the Chicago office hadn't heard of him. 
He got a call a few days later from the Cleveland office; they were 
investigating it. He talked to the investigator and she said she'd get 
back to him in 30-45 days. Four hours later she called back, said never 
mind the previous call, she was issuing a right to sue now because she 
determined from reading the charge that he was not a qualified person 
with a disability. (!!!!!) In other words, she was not investigating 
it, period. I have another case at the EEOC that has been there for a 
couple of years. It has class action potential against a major 
retailer, so the legal department is thinking about it. I check in 
periodically, get told they are still thinking about it. I don't want 
to rock the boat because it would be GREAT for the clients if the EEOC 
took this on, but it's been way too long.
    3. EEOC refused to accept charge of my client last September 2006. 
Two weeks before the 300th day, senior investigator sent a letter in 
mid-December saying she would not accept the charge. After I finally 
made a scene on the 300th day, EEOC accepted the charge and pulled the 
investigator off the file. Then when new investigator called to 
interview my client, she refused to give me the name of the attorney 
representing the company so I could discuss settlement with the 
attorney. I was told the EEOC never gives out names of lawyers and if 
we wanted to discuss settlement, we could only do so through EEOC 
(translate: so they can get credit for any settlement amounts). On 
other fronts, we have seen a great deal of foot dragging on issuing 
right to sue letters.
    10. Twice my office was told by an EEOC representative that they 
changed a policy and now any charge that was notarized would not be 
accepted for filing. We had to have the client re-sign the cover sheet 
and filed it unnotarized. However, since mid-2006 when this occurred, 
we have filed several other charges where the charge was accepted 
notarized without incident.
    13. The problems I have encountered have occurred after the charge 
is filed. We have had several cases where the EEOC simply decided not 
to investigate or even require a response from the Respondent because 
the EEOC decided charging party could not be discriminated against on 
the basis of race if the decision maker was the same race. That is not 
the law, but it is making it hard to prosecute these cases.
    14. Re: filing charges--they don't investigate, they won't litigate 
good cases and choose to litigate horrid cases--they've got it all 
backwards here.
    31. Apart from my personal experience, potential clients report 
EEOC turning them away when they attempt to file a charge. EEOC will 
opine they don't have a case. On at least two occasions they misplaced 
written appearance notice and contacted client directly.
    40. I have never had the EEOC reject for filing a charge I have 
drafted, although there was a lot of confusion last year when the EEOC 
suddenly began to refuse to accept charges that had been notarized. In 
my experience, however, problems with charge filing at the EEOC's 
Chicago office are more likely to occur when an individual is not 
represented by an attorney. I have had clients first come to me after 
they filed a charge that they had EEOC drafted for them, and the charge 
often omits important allegations that the client told the EEOC about. 
In addition, charge intake personnel sometimes give individuals 
misinformation about the strengths or weaknesses of their claims.
    45. Because of previous problems with the EEOC I always draft the 
charges and have them hand delivered and stamped. I stopped sending my 
clients in to file on their own behalf because the EEOC often will not 
include all claims (even when client has been instructed by me as to 
what claims, or they tell clients they don't have a case even though I 
have already determined that they do.
    60. EEOC refused to file various charges, but I eventually talked 
them into it. EEOC eventually accepted all charges.
    72. Chicago office refuses to release the respondent's position 
statement ``to the claimant's counsel or to the claimant.''
    75. The triage system for handling charges is not well implemented. 
Some investigations done are haphazard. The office does not timely 
respond to FOIA requests for documents in investigative files, even 
after the right-to-sue is issued.
    143. Although I primarily work with the EEOC in Chicago, the office 
our firm had ``problems'' with was either Tampa or Miami (I'm fairly 
certain Miami). We were forced to significantly reduce the length of a 
charge, which required leaving out certain factual allegations we 
wanted to include. I'm fairly certain this was 2006, but it could have 
been late 2005. It could have been very problematic, given varying 
judicial interpretations of the ``scope of the charge'' doctrine, but 
the matter resolved.
    155. I have not encountered significant problems filing charges; 
however, I have been encountering increasing resistance during the 
investigative phase and even in mediation. Specifically, I have found 
an increasing desire by investigators and mediators to close their 
files at the expense of the charging party. Many times in recent years, 
the investigators have conducted themselves more like an opposing 
counsel would when taking my client's deposition (e.g., very 
adversarial and confrontational). I certainly don't believe that is the 
proper role of the EEOC.
    156. Investigator who rolled her eyes during the intake (my client 
was not represented then) was assigned to the investigation during 
which she ``no caused'' the case in record breaking time based on her 
impressions during intake.
    181. Problem I had was with Miami, Florida office. The EEOC would 
not accept the charge we drafted and instead re-wrote a shorter and 
less complete charge.
    186. The time for a charge to be processed from start until we get 
right to sue is wildly inconsistent. We get right to sues within a few 
months finding no evidence or get a right to sue over 1 year later. 
There is no consistency that I have recognized either in terms of the 
type of charge, merit of the charge, or any other possible pattern.
Dallas District Office
    9. I file many charges with the EEOC. I prepare my clients' 
charges. I have never had a problem with the EEOC in accepting the 
charges.
    26. Failure to investigate, failure to interview witnesses, failure 
to request documents, difficulty in getting in touch with EEOC 
investigators.
    37. I had one disturbing situation with a client who met with me 
after first going to the Dallas EEOC. What he told me about his 
treatment there concerned me, as it may signal a more widespread 
problem in terms of acceptance of charges. In his situation, he was 
told that he did not have a case and that if he insisted on filing a 
charge they would give him a right to sue notice that day and he would 
have only 90 days to file suit. Since he didn't have an attorney at the 
time, he did not file the charge that day. Luckily, he met with me in 
sufficient time to still file a charge, which we did without trouble, 
and the case later resolved during litigation. The fact that he was 
turned away initially, however, bothers me a great deal. How many 
others are told they don't have a case and are turned away?
    58. Telling me what the law is even if they are wrong and therefore 
wanting to dictate dates of discrimination and whether I can mark 
continuing action. Not wanting to accept more explanation, such as a 
letter detailing the charge, as opposed to just limiting the 
information to the small space on the form. I got my way in the end 
each time, but was a hassle. For clients--not processing the intake 
questionnaire in a timely manner, such that questionnaire pre-dates by 
weeks actual charge while deadlines tick.
    82. The EEOC Charge form is not readily available.
    83. I have seen several instances of clients who file charges and 
receive their notice of right to sue at the same time, with no 
investigation. I have also had clients tell me that they were told that 
they did not have a case and were not allowed to file a charge.
    84. A client who filed her charge with the San Antonio, TX office 
in 2005 (prior to my representation of her) was forced to substantially 
modify her claims and description of events supporting her charge. The 
EEOC staff member said that the EEOC would not accept her charge unless 
she made the changes. These changes substantially and negatively 
impacted the client's case.
    85. Client filed initial race discrimination charge. After 
reporting some possible retaliation to me, I instructed her to write a 
letter to EEOC to amend charge to add retaliation. EEOC did not amend 
charge, and her charge received no attention for several months.
    86. Multiple clients filing charges against a single employer for 
the same reason. Charges are assigned out to different investigators. 
If one investigator were to take the charge, then they would have a 
more complete picture of what is going on at the employer. Also, the 
problem seems to be mainly with people who attempt to file charges 
without an attorney. I get many, many calls from people who say that 
the EEOC told them that they do not have a case when in fact they do 
have one, or would have if they had filed the charge when they 
contacted EEOC. EEOC gave them bad legal advice which caused them not 
to file when they should have, and their rights were compromised.
    96. I have had potential clients who tell me the EEOC told them 
there is ``no discrimination'' and refuse to take a charge.
    134. Other than the fact that for at least the last 25 years, the 
EEOC intake staff has demonstrated hostility to working people in 
general and a great capacity for leisure, nothing out of the ordinary--
but then I have come to expect nothing from the EEOC of a positive 
nature, either.
    136. Local offices have been resistant to providing a qualified 
sign language interpreter for interviews so that a person who is deaf 
can fully understand the questions they are being asked. At times, I 
have had to bring my own sign language interpreters to the EEOC office 
in order to ensure that my clients can understand what is going on in 
the interview.
    187. Sometimes I have to submit a legal brief to support the 
charge, but the EEOC office has always accepted the briefing.
    192. I have had clients go to the EEOC to try to file a charge 
before they have retained counsel. They were told by the EEOC that they 
did not have a case and were not allowed to file a charge. Once I was 
hired, I would send the client back to the EEOC, but there were times 
when the claim would be time barred if the EEOC did not use the initial 
date of the client visit. I have run into problems where the EEOC would 
not go back and use that initial first visit date as the date for 
filing the charge even though the EEOC told the client he/she could not 
file a charge because he/she did not have a case.
Houston District Office
    47. EEOC officials routinely tell individuals they cannot file 
charges or their grounds do not constitute violations. They are NOT in 
a position to know and have done no investigation. Usually they are 
wrong anyway for a plethora of reasons, including philosophic reasons. 
All charges should be allowed to be filed. Also, charges filed are 
incomplete and strictly boiler plate and missing essential facts and 
claims, usually discrimination and national origin claims as it relates 
to race and color claims. Also, the EEOC officials fail to identify 42 
USC 1981 claims which have no punitive damages limits as well and 
advise.
    87. I am now having trouble with multiple employers in two areas: 
(1) where we are not sure if the underlying employer is a separate 
company of the parent so we name both and both need to be noticed . . . 
am not sure they are; and, (2) where there are co-employers, I heard by 
the grapevine that they should be two separate charges on the same 
facts, but have not had anything rejected yet.
    103. They do not always confirm they have received a charge and 
return it with a charge number. Also, they often do not send a copy of 
the right to sue or other correspondence to the attorney.
    149. Not precisely relevant, but a couple years ago I represented a 
woman who went to the EEOC and met with an intake person. She was 
scared to death to file a charge and wasn't committed to doing so. She 
went just to get information and discuss her options. The intake person 
prepared a charge and mailed it to her. She wasn't prepared to file a 
charge. The next thing she knew, she received a notice of right to sue, 
copied to the employer, dismissing the charge she never filed on the 
grounds that she'd failed to cooperate. No investigation was done of 
course, and nor had she ever actually filed a charge. This was during 
the time that Houston was headed by [deleted], an incompetent 
management tool who remains in charge of the Dallas and San Antonio 
offices. I contacted him to seek some redress of the situation. He 
agreed to withdraw the notice of right to sue only if my client agreed 
to immediately file a charge with the understanding that it would be 
promptly dismissed without an investigation, thereby giving her an 
untainted right to sue. It was truly an appalling abuse of the 
Commission's authority, all around.
    158. People who file (or try to file) before obtaining our 
assistance have problems--they are refused, or the wrong claims are 
asserted, or joint employers are not named.
    183. Numerous clients over the years, including 2005-2007 have 
reported to me that the Houston District Office of the EEOC refused 
their attempt to file a charge. I also have had some reports of intake 
personnel at the office strongly discouraging individuals from 
contacting an attorney regarding their claims.
Indianapolis District Office
    70. They required a whole new charge to be filed for one typo.
    109. The Indianapolis EEOC office asked plaintiff's attorneys to 
cooperate with them by NOT preparing written filings to them for our 
clients. They want the intake questionnaires and charges to be drafted 
by their trained personnel. Given this request, we have provided our 
clients with contact information and sent them to file directly with 
the EEOC. Many, many of them have called me to complain that the EEOC 
intake officer told them they do not have a case and refuse to file a 
charge for them. Only after my client has become belligerent--because I 
warn them this may happen and they need to insist--then a charge is 
finally prepared and it is usually pretty sloppy. I then rewrite the 
charge for the client to sign and file. At the investigation stage, 
there is no such thing as an investigation anymore. I have not had the 
EEOC actually do an on-site investigation and take witness interviews 
in a case since they started the A,B,C classification system. Instead, 
I get a letter summarizing the respondent's legitimate non-
discriminatory action and a demand that I submit proof to rebut it--
which is ignored if I submit it--followed by issuance of a dismissal 
and notice of rights. I treat the EEOC process as just a time waster 
that allows my client to save up the filing fee so we can file a 
complaint as soon as the right to sue notice is issued. It is a real 
waste of taxpayer dollars.
Los Angeles District Office
    6. Inability of intake officers to distinguish important from 
unimportant information provided by claimant.
    8. The EEOC process is a complete mystery to me. I rarely file with 
the EEOC, so the numbers above represent 100 percent of my filings with 
the EEOC. In one case, there was such a substantial delay in 
communicating with me, I sent a letter asking for a right to sue 
letter. Despite follow-up calls and letters, to date, my client has 
never received a right to sue letter. Over six months has elapsed. I 
really do not understand the procedures.
    23. Most of our charges are initiated by the Nevada Equal Rights 
Commission (NERC) as the deferral agency to the EEOC. The NERC 
frequently to my understanding refuses to take charges from individuals 
acting in proper person.
    78. I personally have not had any situations where the EEOC has 
refused to accept a charge drafted by me. However, it should be noted 
that many years ago I worked at the EEOC as an attorney (and prior 
thereto as a Paralegal and Investigator) and still know some of the 
individuals at the agency. I do know that the Los Angeles office is 
VERY short staffed. The number of investigators is dismal in comparison 
to the number of investigators that were at the agency when I was there 
in the 1980s.
Memphis District Office
    42. Intake person did not want to accept charge which I prepared 
and filed on behalf of a client. After that resistance, I began to file 
the charges by mail and did not meet with any further resistance.
    137. They have tried to rewrite the charge to be very vague and 
non-specific, which leads to all kinds of trouble later. When I 
protested, the EEOC intake worker said that they had been instructed to 
take out specifics and leave vague, bare-bones allegations.
Miami District Office
    4. The EEOC office in Florida is overwhelmed and conducts little or 
no investigation. They do not forward any documents to us and actually 
read the position over the phone as opposed to sending it to the firm. 
Often the investigator is uninformed on the law and has an out-dated 
definition of the law. Honestly, I see little benefit to the process 
and wonder if the budget could not be used in other ways.
    15. We are concerned that the EEOC rarely, if ever, contacts the 
witnesses that we provide before it makes a final determination/
decision. Needless to say, clients are upset if the EEOC does not 
contact the witnesses provided when making decisions. In fact, may 
clients feel that it is the firm's fault that the EEOC doesn't contact 
witnesses.
    17. My charges are frequently rewritten.
    21. Most recent problem was charging party worked at home and 
employer had no Florida address. I file charges with EEOC and FCHR, 
requesting EEOC mediate and investigate. Eliminates problems.
    44. None, but I am utilizing a local OEO office, which acts as an 
intake office for the Miami EEOC.
    53. The biggest issue is getting the investigator to actually do an 
investigation beyond reading the charge, position statement and reply. 
I have rarely seen that they contact witnesses, for example, or demand 
documents relevant to the charge.
    69. I have never experienced a problem with the Tampa office in 
nearly nine years of dealing with them. [Deleted] and [deleted] are 
especially helpful.
    101. The Miami office has accepted all the charges that I've 
drafted but on several occasions from 2005 to the present, they tried 
to reject charges (the most recent occasion being this month). When I 
challenged them and asked them to cite the provision of the EEOC 
regulations that authorized them to reject the charge, they backed off. 
The most egregious of these instances was a disability discrimination 
charge in which ``disability'' and ``retaliation'' were checked off and 
the charge alleged that my client was an individual with a disability 
who was being denied urgently needed accommodations and whose medical 
information was not being kept confidential. (My client was literally 
dying because of the employer's change in his work schedule, which 
interrupted his regime for taking HIV medication.) Someone from the 
Miami EEOC office called and said the charge was being rejected because 
it didn't expressly mention the Americans with Disabilities Act. I hit 
the roof and told them that the description of the discrimination and 
checking off of ``disability'' made it patently obvious that this was 
an ADA charge. The most recent instance concerned a sexual harassment 
and retaliation charge that generally alleged that my client had been 
subjected to sexual and retaliatory harassment by managers. I received 
a phone call from an investigator at the Miami office in which he 
indicated that the charge would not be accepted for filing unless we 
provided specific facts on the face of the charge. In a not-very-
friendly tone, he asked how could I expect the employer to respond to 
the charge without putting it on notice of the instances of harassment.
    111. Would not let me file a single charge against two respondents 
that I was alleging constituted a joint employer.
    145. What I find is that unrepresented individuals are still being 
told ``you don't have a case'' and are turned away. Sometimes their 
time has passed before they decide to hire counsel. Otherwise, I have 
to say that I've had better luck the past couple of years with the EEOC 
process. More ``cause'' findings, although they are still unusual (I 
tell people they are more likely to be struck by lightning). And I had 
the first conciliation that actually resulted in a settlement in 20 
years of practice. Most still result in nothing but additional delay. I 
would definitely like to see more pressure put on parties to resolve in 
conciliation, such as mandatory participation in mediation.
New York District Office
    5. Often inadequate investigation, extremely slow but sometimes the 
investigator is very good.
    18. Investigations seem half hearted, with the outcome pre-
determined. I especially object to the New York office transferring 
matters to Boston, where the investigators seem to almost object to 
having to handle the file.
    36. Filing is usually no problem. It's the lack of meaningful 
action after that's the problem.
    39. I have never had a problem filing a charge with the NYDO. I 
have never had an intake officer refuse a charge or otherwise practice 
law without a license. I don't know if this happens to pro se charging 
parties but I have never had a client make such a complaint to me. I do 
make sure to file the charge in quintuplicate by certified mail return 
receipt requested.
    105. Investigation stage is very slow.
    122. The Boston Area Office waits 180 days and then dismisses the 
charge. The investigators are often deceived by a lengthy and organized 
position statement, regardless of substance.
    131. I sent a charge to the NYDO for filing in November 2006 and it 
was not processed until January 2007. Fortunately the statute of 
limitations had not run, but it caused significant anxiety for my 
client.
    178. Several years ago, maybe before 2005, I had to write letters 
to senior attorneys in Washington, D.C., to get someone to pay 
attention to the fact that I had to make an urgent filing. In general, 
I have found that the phone numbers listed on the EEOC website prior to 
the phone center were simply not answered at all in some cities. Most 
of my practice is outside of NY.
Philadelphia District Office
    11. The Philadelphia office sent one of my cases to the Baltimore 
office. The Baltimore office excluded my involvement even though I, the 
attorney for the charging party, filed the charges and had my name on 
record. The Baltimore office then made a determination solely on the 
employer's position statement that was filled with misrepresentations. 
The charging party was denied opportunity for a rebuttal because I 
never was notified after the case went to Baltimore for investigation. 
I learned of the Baltimore office's involvement only after a right to 
sue was issued. I was not sent a copy of the right to sue. Now the case 
is pending in USDC, Eastern District PA.
    22. Mailed charge. Intake called me and said the EEOC does not 
handle ``Black on Black'' discrimination. Claim was that an African 
American supervisor subjected employees to disparate treatment. A call 
to the office intake supervisor ([deleted]) took care of it.
    28. The only problem I have had is filing a charge and then 
receiving a stack of questionnaires in the mail which I have to fill 
out with my client before EEOC will docket the charge. All of the 
information in the questionnaires had been included in the charge and 
affidavit. Since then, I attended their intake training and even though 
I think the intake questionnaires are burdensome, I followed their 
instructions to the letter and have had no further problems with 
intake. My charges have tended to settle early so I have no further 
info re: handling subsequent to intake.
    46. Charges never get processed at all. I filed a charge two months 
ago and have not received any correspondence from any investigator on 
it.
    56. The only problem I have is that it takes weeks for the intake 
personnel to time stamp the charges making them appear to be filed 
later than they actually are. I have never had a problem with filing.
    57. I have never had a problem with filing charges. My problems 
arise after filing that the EEOC does nothing. I draft questions and 
investigators do not investigate or are just too busy to do anything. I 
file at least a half dozen charges each year. Inevitably we get back 
the punt, unable to determine if or if not discrimination took place.
    74. This was before 2005, but I had a client who was told by an 
investigator that he didn't have a claim because he lied on his 
employment application. The lie was that he said that he resigned from 
his prior job when he actually was fired and had a prior lawsuit 
claiming discrimination there. I had to go to Philadelphia with a 
letter that was a mini-brief before they overturned Newark and reopened 
the case. The Newark investigator never heard of the after-acquired 
evidence rule.
    88. More recently our problems with the EEOC have included 
misplacement of files and failure to notify our office of dismissals of 
charges and the issuances of notices of right sue letters. This has 
occurred twice thus far in 2007 from Philadelphia and once from Newark 
in 2006.
    104. I ordinarily file my own EEOC charges for my clients with an 
entry of appearance. The EEOC routinely attempts to re-write the 
charge, invariably leaves out, and then sends the revised charge to the 
client for signature. It then tries to substitute the date of the 
``new'' charge for the original filing date. I then have to write to 
the EEOC and demand that they use the original charge and original 
filing date. The EEOC has backed down after receiving my 
correspondence, but my intervention should not be necessary. For 
unrepresented clients or people represented by attorneys unfamiliar 
with the statute this could present some really difficult problems. In 
one case in 2006 the EEOC called my client, on whose behalf I had 
entered an appearance, and told him that it could not accept his charge 
unless he came into the EEOC personally and complete an intake with an 
EEOC employee. The EEOC then sent a letter to the client informing him 
that his charge was not valid and would not be accepted until he 
followed through on the personal interview. I wrote to the EEOC, 
explained the statutory requirements for filing, and it ultimately 
accepted the charge with the original date. Again, this should not have 
been necessary, particularly since I had entered my appearance. The 
EEOC routinely contacts clients who are represented by counsel and 
gives them advice which is often incorrect, and causes the clients 
unnecessary confusion.
    114. Charges have been lost. I believe charges from counsel should 
be accepted before questionnaires or other confirming information is 
provided.
    121. Intake workers and investigators who do not understand the law 
and, more importantly, decline to let you educate them about it.
    138. EEOC normally will not accept a charge unless it is 
accompanied by numerous other forms (which could be provided during the 
course of the investigation). These include: Allegations of 
discrimination; Witness Questionnaire; Remedy form; Discharge (or 
other) form; etc.
    139. I have filed a charge of discrimination on behalf of a client 
over 2 months ago and have yet to receive any correspondence even 
saying it has been received.
    140. The EEOC is consistently resistant to accepting charges 
drafted by my office as drafted and does not accept charges that 
require investigation on a systemic basis. After the charge is filed, 
it is often difficult to secure the cooperation of the investigators in 
seeking appropriate information and documents.
    146. Unfortunately most of the charges I file are with the Delaware 
Department of Labor that has a reciprocal working relationship with the 
EEOC. The EEOC can then do a substantial weight review, which means in 
most cases they adopt the DDOL findings.
    152. I handle many federal employee cases, so the procedure is 
different. When I have private sector cases I refer and file them at 
the PHRC because I do not like the EEOC procedures. Since I also take 
many small cases that have potential settlement value, I find that the 
``triage'' procedure at the EEOC is not conducive to getting such a 
case settled.
    157. Delays in docketing, not returning time-stamped copies.
    168. In the past 30 days I received a charge returned to me telling 
me that normally they have staff to make corrections on charges, but 
because they do not have enough staff currently, they were sending back 
my charge and giving me 33 days to correct the charge. They said that 
the charge was deficient because I stated the type of disability on the 
charge form, I described damages and my charge narrative was too 
lengthy (it fit on the front of the charge form).
    174. They are quite hostile to any charge that's actually carefully 
drafted by counsel. In Philadelphia anyway, they like to have one big, 
fat, run-on paragraph that throws in (supposedly) everything. It's the 
kind of drafting that any advocate would be ashamed of, has no 
persuasive value, and has no utility later in the case. They really 
resent a lawyer's effort to represent the client.
    177. My partner had a problem in the past year with an investigator 
trying to rewrite a Charge of Discrimination in an ADA case claiming 
that they were not allowed to accept charges that describe the 
disability in detail.
    188. Supposedly required information was missing from our charge. 
The charge was initially rejected but through discussions with the 
Buffalo office, those problems were resolved and the charge was 
accepted.
Phoenix District Office
    162. The time to get a Notice of Right to Sue once a request for 
dismissal of the case has been submitted.
    163. The EEOC doesn't seem to follow-up or even investigate some of 
the worst charges.
San Francisco District Office
    19. I generally discourage clients from filing with the EEOC 
because California's FEHA gives greater protection. But, I intervened 
in an EEOC case in 2005. I was appalled at how the EEOC investigator 
allowed the employer to limit the scope of his investigation to an 
interview with the general manager only. The EEOC investigator 
interviewed some of the witnesses and reviewed a few of the documents 
that my client had identified only after I complained. However, I found 
working with EEOC Deputy Attorney [deleted] both a privilege and a 
pleasure.
    33. Offices in our area follow different procedures and constantly 
demand more information or different formats to accept charges. We have 
not experienced refusals because we do not accept refusals and are 
persistent about filing charges. I would not send a client to file a 
charge himself/herself.
    43. None with the EEOC but lots with the California Department of 
Fair Employment and Housing.
    94. Sent a non-African-American client to EEOC to complain that he 
had been fired because employer thought he was African-American. EEOC 
told him he could not file a complaint.
    129. Several years ago I participated in a mediation conducted by a 
very biased mediator. It was obvious the mediator had a strong bias in 
favor of the University of Nevada (the defendant). I walked out of the 
mediation (I settled the case the next day (no thanks to the 
mediator)). I wrote to the EEOC and described the inappropriate and 
biased conduct of the mediator. This mediation occurred approximately 
in 2001. I have also experienced a couple of incidents whereby the EEOC 
basically attempted to hijack cases. I resisted these efforts 
successfully. The EEOC targeted my best cases, i.e., cases involving 
multiple sexual harassment victims, egregious conduct, blatant failure 
by management to redress the conduct, and strong corroborating 
evidence. I resisted the attempt to wrest control of the cases because 
I have had experience with the EEOC at mediation, i.e., I've witnessed 
an attempt by the EEOC to effect a nominal damage settlement in an 
extremely strong case involving seven plaintiffs. I effected a 
settlement for approximately 700 percent of what the EEOC mediator 
proposed the case be resolved for. It was obvious the EEOC mediator was 
intent on improving the EEOC's statistics--as opposed to achieving an 
acceptable resolution for the plaintiffs. Therefore, when the EEOC 
attempted to cherry pick my best cases, I resisted this effort. In my 
opinion, the EEOC tends to devalue good cases, i.e., they explain to 
plaintiffs (with extremely strong cases) the average settlement is 
something like $17,000 (I can't recall the exact figure used, but it is 
in this range). This is an appropriate settlement for a relatively weak 
case. The EEOC attempted to foist off this figure in one of my cases 
which involved seven women, who had been subjected to protracted, 
crystalline abuse (fucking c---, etc.). The response of management 
consisted of, ``if you don't like it, there's the door.'' I easily 
obtained six, devastating corroborating affidavits. The defendant 
employed approximately 20,000 persons.
    167. None. My problems in the last six years have been with the 
Oakland DFEH.
    191. Many, many problems pre-2005 with various offices, including 
San Jose and Miami. Much better experience recently.
St. Louis District Office
    77. Most frequent and significant problem I have encountered is 
resistance by some investigators to conduct a meaningful investigation 
if they have determined that the case has no merit. Investigators will 
often receive the employer's position statement and reach a premature 
conclusion that the charge has no merit. The investigators are then 
resistant to conduct an investigation (i.e. contact witnesses or obtain 
documents) that might indicate that the employer's position statement 
is inaccurate or is not meritorious. In my opinion, this resistance 
occurs from a need to move and close files at a certain rate.
    108. I haven't experienced any charge filing problems with the St. 
Louis District Office since 1/31/2006 when I started private practice. 
It is difficult to get a blank charge, so once you get one, the best 
thing to do is keep it on your computer for future use.
    135. I've had them ``lose'' an entire charge in 2005 that I had 
hand-delivered to the office. The internal ``mediators,'' [deleted] and 
[deleted], are wholly worthless and investigator [deleted] REFUSED to 
find a Title VII violation where active KKK recruitment was ongoing at 
the jobsite! He classed that as a Title VIII (and, yes HUD is involved 
and a Title VIII retaliation charge has been filed and is being 
litigated in KS USDC) case--but was overruled by the Regional Director 
and a Cause Finding issued leading to Conciliation (which failed).
    148. I have seen cases of non-represented complainants in which the 
intake person at the EEOC drafts a charge and immediately issues a 
notice of right to sue, telling the complainant he/she ``doesn't have a 
case'' based on the intake person's inaccurate understanding of the 
law; e.g. ``if you were the only person it happened to it can't be 
discrimination . . .'' I wonder how many persons with legitimate 
complaints rely on that ``advice'' and decide not to pursue their 
claim.
    176. I don't have problems--we have schooled over the years so that 
now they just take the charges we draft, give them a number and docket 
them. However, we hand deliver them and get them stamped received just 
to be safe. It is the unrepresented people who have problems. For 
instance, I have had people come to see me who have been told by the 
intake folks that they don't have a case and don't know they can insist 
on filing a charge. I draft and file the charge and there is no 
problem. I really worry about the folks who don't have a lawyer, not 
the ones who do!!
Baltimore Field Office
    55. The personnel don't seem to be very well trained and don't 
provide the follow-up or keep their commitments. The Baltimore office 
seems to be a low performer.
    62. Lost charges; when clients go to the EEOC on their own, EEOC 
representatives inadequately write up the complaint on the charging 
form or fail to allege all types of discrimination, thereby limiting 
the client's recovery.
    64. I have not filed any charges in the specified time frames, so 
have not had any problems.
    65. Charge not assigned to investigator for months, charge then 
transferred without reason to Baltimore.
    79. The Baltimore, MD EEOC initially would not accept a charge 
alleging discrimination against an employment agency. At first they 
didn't realize they had jurisdiction over employment agencies. Then 
they erroneously stated that in the 4th Circuit, the employment agency 
had to meet the definition of employer (i.e. at least 15 employees). 
The representative I spoke with finally agreed they should investigate, 
and then referred it to an investigator who didn't understand the notes 
that were supposedly in the file and dismissed it for lack of 
jurisdiction.
    127. Long periods of time without communication; erratic 
investigations--some investigators send the Respondents' position paper 
for us to rebut and others just dismiss the charge; mediation 
coordinator supervisor in Baltimore is terrible. (Keep this anonymous 
please.)
    165. I have not experienced any problems regarding the filing of 
charges. The main problem that I have experienced is being able to 
speak with an actual person when I call an office.
    185. Complete inability to talk to any EEOC personnel about status 
of charge, investigation, etc.; complete failure of EEOC to conduct any 
investigation of charges that clearly are meritorious.
Cleveland Field Office
    91. They make the clients wait to talk.
    98. The problems I have with the EEOC occur during the supposed 
``investigation'' of the charge. The investigators typically receive 
the employer's position statement, treat it like the gospel, do nothing 
more, and then issue a terrible letter telling my clients that they 
were horrible employees and that there was no discrimination. I have 
repeatedly complained about this to the Cleveland counsel, to no avail.
    133. EEOC is resistant to lawyers being involved in the process. 
And they require too much bureaucratic involvement at the front end, 
causing cases to be untimely. For this reason, I almost always refer 
clients to the state agency, where you can file a charge on-line, 
without the micromanaging that EEOC uses. They are useless, as far as 
investigation and providing any information regarding the employer's 
position, and I only recommend them when the charge is an age 
discrimination charge, based on our state's idiosyncratic way of 
dealing with them.
    144. No problems with filing (although I know that charging parties 
have contacted me after they've filed because of problems they've had). 
Always a problem getting EEOC to investigate!
    150. Investigators contacting the charging party directly despite 
my request to be involved with the intake and circumventing my attempts 
to set up a conference call.
Denver Field Office
    90. 1. Refusing to provide a copy of Position Statement or even a 
Summary of a Position Statement makes preparing a meaningful rebuttal 
nearly impossible. 2. Asking that rebuttals--even in complicated 
cases--be prepared within 5 days although the EEOC has had the Position 
Statement for more than a year. 3. Being asked by investigators to 
draft charges in a rigid manner when the facts are more wide-ranging 
and some context is necessary. As lawyers, we have to anticipate ways 
our charges may be attacked--which might require something other than 
what the investigator wants. 4. Disputes as to what is an amended 
charge or a new charge.
    113. Pregnancy discrimination charge dismissed because client was 
replaced by a female. Investigator didn't understand that the female 
that replaced my client was not pregnant. Recently same investigator 
would not allow my client to amend charge to include retaliation which 
occurred after the filing of the first charge. New charge had to be 
filed after discussion with investigator's supervisor.
    169. The EEOC makes it very difficult to file class charges or to 
file multi-charges for a number of class members who need a joint 
investigation. Our problems are not so much with the EEOC process in 
accepting charges, but in their failure to investigate cases and their 
biases against charging parties and their attorneys.
    180. The Denver office has turned individuals away who were NOT 
represented. In one case during 2006, they advised the client to get an 
attorney, but they still turned the client away. Thanks!
Detroit Field Office
    29. They simply notify us of intent to dismiss based on the 
employer's position statement without giving the charging party an 
opportunity to refute what the employer has said.
    76. My client went to file an EEOC charge against Cintas, a company 
that the EEOC has had multiple claims against. I wrote out the charge 
for the client and she went down. She called me in tears because the 
EEOC refused to take the claim. Told her she did not have a claim. Our 
office wrote a letter to the EEOC and I then accompanied her back to 
the EEOC. After the charge was taken, nothing was done in terms of 
investigation. After several inquiries I was told the case was being 
sent to Washington to be handled along with other claims against 
Cintas. A few months later the case was dismissed, citing the 
defendant's claims verbatim. I do not believe any real investigation 
was done into my client's case.
    99. We have many problems. In the Detroit area the EEOC office acts 
as a palliative: aggrieved individuals go there, uncounseled as a first 
step in the process. They are often told that they have no case and no 
charges are accepted. How many people with legitimate claims then exit 
the process, demoralized? If they come to us, we have to fight to get 
the charges filed, including writing them ourselves (which I have not 
had rejected but never results in much of an investigation). We get 
almost no feedback on the process. Conciliation ends up undervaluing 
the claims dramatically. There are a few good investigators, but for 
the most part there seems to be no will to question, let alone rebut, 
the proffered explanation of the employers. When we FOIA the records 
afterward there is almost no discovery conducted. There is almost never 
a ``for cause'' finding. I think I have seen at most three or four 
throughout a fifteen year career. Needless to say I have settled many a 
case in which the EEOC found no cause. The administration at our office 
seems completely oblivious to the problems. When the issues are raised, 
the reaction is, ``Well, that is not our policy, so, it must not be 
happening the way you describe it.'' I was on the verge of FOIAing the 
Detroit district office annual reports to use to request some sort of 
Congressional oversight from our senators. My understanding is their 
entire litigation office only brought three cases to litigation in 
2006. This is outrageous.
    120. People who we speak to and send to EEOC on their own have 
reported that they are turned away from the EEOC and their charge is 
rejected.
New Orleans Field Office
    20. Very negative in general. Usually don't understand retaliation 
claims.
    52. Zero knowledge of pretext. EEOC requires direct evidence or 
they dismiss the claim. Also, zero knowledge of the single enterprise 
theory. If the employer says they don't employ 15 people or 50 people, 
etc., EEOC makes no further enquiry. Finally, EEOC requires the 
complainant to sign the questionnaire and charge under penalty of 
perjury, but the employer can respond via unsworn letter or even from 
the company attorney, without being bound by the response.
    124. The whole process is just very slow. It usually takes anywhere 
from 30-60 days to get a response back from the EEOC.
San Antonio Field Office
    50. I've had numerous situations where the client has been told 
it's your word against theirs and it would be a waste of time. 
Employees of the EEOC would try to dissuade the client from filing.
    51. The times that the EEOC has rejected a charge or redrafted it 
were for purely stylistic reasons that in my opinion were unwarranted, 
such as rejecting a 1\1/2\ page charge that supposedly included ``too 
much information.'' This has not happened frequently but it is annoying 
and seems non-sensical when it does happen.
    67. I have a problem with the new process at the San Antonio 
branch. They will not give me a copy of the employer's response but 
will only read it to me over the telephone. Also, I am not notified if 
and when the employer files a response, so I usually just get a letter 
from the investigator regurgitating the employer's position and 
ignoring the witness affidavits that I submitted.
    71. Primary problem is EEOC turning away those who wish to file 
charges when NOT accompanied by a lawyer. They often do not make it to 
a private lawyer until many months later and sometimes miss the state 
180-day deadline or even the federal 300-day deadline because they were 
discouraged from filing what was, in my opinion, a perfectly viable 
claim.
    106. Back in perhaps 2002, the local office refused to accept a 
charge I had prepared. But, it was during the lunch hour, when a back-
up person was working the front desk. When I went later that week 
myself, they accepted my charge with no problems.
    112. I frequently counsel my clients that they WILL meet resistance 
to filing their complaints at the EEOC and they must INSIST that they 
be filed.
    132. Intake investigators do not seem to understand the elementary 
principles of discrimination cases, do not seem to understand the 
significance of certain facts when those facts are presented to them 
during the intake interview, and can hardly write an intelligent 
sentence in either the charge or the affidavit.
    147. Timeliness--even though charge was faxed in timely, but 
received by mail after deadline. Summary conclusion--the charge does 
not apply to any laws we enforce.
    164. Rejecting the charge we prepared, rewriting it and leaving 
things out, refusing to accept a Form 5 from a private attorney.
    170. Unqualified people telling me what does and does not fall 
under Title VII.
Tampa Field Office
    25. Transferring a charge from Tampa to Miami and then not keeping 
me informed of the progress, including after dismissing the charge for 
alleged lack of jurisdiction. Tampa had me on their referral list, but 
I recently found out they had my wrong area code.
    172. I filed a charge where the 300th day was a Sunday. The charge 
was sent by Fed Ex on Friday and delivered on Monday. It was returned 
as untimely. I call the Director and left messages about this but he 
never returned my call. Additionally, within the last year or so I have 
had extreme difficulty getting through to a live person when I call the 
EEOC--I get put into the ``circular voice mail'' thing and end up 
hanging up in frustration.
Seattle Field Office
    35. No meaningful investigation--witnesses not contacted, no 
employer records requested, etc.
    48. I had them ``lose track'' of my client's charge for 9 months.
    171. I think the Seattle EEOC office does a great job and they have 
always been responsive to my clients' need. I live in Anchorage, 
Alaska, and practice statewide in Alaska. We do not have our own EEOC 
office, but the Seattle office makes a big effort to outreach to 
Alaska.
    182. EEOC is now so overworked that I am hesitant to use them for 
anything but getting a NRTS.
Washington Field Office
    63. We have a strong local law and need not exhaust administrative 
remedies first before going to court. Therefore the EEOC is not usually 
involved in most of our cases as we spend most of our time in the 
private sector.
    66. Charges are not promptly prepared after questionnaire is 
completed and submitted. There are long delays in getting the final, 
typed up charge. Often, the language in the final charge is not 
accurate and needs to be corrected; this results in more delay. 
Telephone calls to make appointments, ask questions, inquire about 
status, etc. are not returned. Waiting periods in the lobby are long, 
even if no one else is sitting there.
    97. I practice federal-sector law before the EEOC, and that process 
is slightly different than the private-sector cases. The biggest 
problem in the federal-sector is the inordinate delays in the 
assignment of an EEOC Administrative Judge.
    154. We tend to file charges we prepare ourselves with supporting 
declarations of 5 to 15 pages. In several cases, EEOC has substantially 
delayed processing the charges while they rewrite our charges. As far 
as I can tell, the rewrites are pointless because they don't change the 
substance of the charge.
Boston Area Office
    30. The EEOC told one client that they had too many cases to really 
read his case or deal with it with his since his did not involve a 
termination.
    68. Connecticut is a deferral state, so we have little contact with 
EEOC, other than filing the initial charge. I have had only one case 
that was processed solely by EEOC, since it was filed more than 180 
days after the discriminatory act. EEOC sent the case to mediation 
which was successful. They used a great mediator and I was very happy 
with the outcome.
    89. Basically, I have a problem in their lack of investigation. I 
almost never file directly with the EEOC, but with our State agency. I 
do that even if it is going to get bumped to the EEOC.
    115. In Maine, we file with the Maine Human Rights Commission and 
they forward our charges to the EEOC. I have not known of any charges 
returned to the MHRC during that process but am not sure that I would 
be told about it. I dislike dealing with the EEOC so much that I 
virtually never file directly with them.
Cincinnati Area Office
    32. Two problems: (1) no charge form available online (which is 
ridiculous); and (2) inconsistency between local practice and general 
charge form (which our office had to create from a hard copy ``EEOC 
form.''
    128. I have had several times where the office has been overly 
technical with the content of the charges. I have had charges get lost 
there and have had numerous occasions where I have attempted to get in 
touch with investigators to convey information or inquire into case 
status and my calls have not been returned.
El Paso Area Office
    24. I have been told by investigators that the charge cannot be 
accepted without more detailed information, particularly comparative 
information. The detail required appears to exceed the notice pleading 
standard in federal court.
    73. This survey is not very useful. The multitude of problems which 
charging parties face occur almost exclusively when they are proceeding 
pro se, not when they are represented by counsel. In El Paso, the 
investigators are overwhelmingly unqualified (can't even identify the 
prima facie elements to claims, and have no clue how to investigate). 
There is very little access and transparency, since the District 
Director (out of Dallas), is more interested in closing files and 
denying access to position statements, than he is in having his 
investigators do their job.
    190. Southern New Mexico is now assigned to El Paso, which has 
caused many problems. We used to file in Albuquerque and they did a 
great job. El Paso is slow and also frequently applies 5th Circuit law 
it its analysis--but we're in the 10th. Also they have no discernable 
relationship with New Mexico's state administrative agency. I hear many 
complaints and wish they would change it back!
Kansas City Area Office
    179. I file 90 percent of my client complaints with my state 
agency. The Kansas Human Rights Commission investigative staff makes a 
more thorough and timely investigation of complaints. I receive a 
letter determination for each case with a case investigation report. 
Then we seek review and/or a notice of suit rights from EEOC. I only 
file with EEOC when my client is outside the 180 day period for filing 
a state complaint.
Milwaukee Area Office
    100. EEOC here very much resists letting attorneys draft their own 
charges. They insist on intake interviews and will draft their own 
charges or redraft a charge to suit themselves. We have seen some 
turning away of attempts to file charges but whenever our state 
affiliate hears of it, we get active. It comes in spurts.
    159. Very, very slow investigation of a charge filed in October 
2005. Lack of communication from investigator.
    161. Iowa is a deferral state--so all processing is through the 
Iowa State Civil Rights Commission. My problems with the EEOC all stem 
at the end of the process--getting rights to sue.
Minneapolis Area Office
    27. The only real problem we have with the EEOC is time. We have 
had charges sit for over two years. Most of the time we will pull it 
out and sue, but on class cases where the EEOC hinted we would get PC 
we did not want to do that. Otherwise it has been mostly okay. We have 
more problems with the state human rights department.
    38. I have never had a charge not accepted. A few times in the past 
two years I have had charges merely dismissed because the employer 
denied the charges--a reason I find pretty outlandish to support a 
dismissal of charge.
    107. I have not had any problems with filing--I had a problem with 
a no probable cause finding based on my client's refusal to accept an 
unconditional offer of reinstatement--which goes to damages, not 
liability.
    160. I have received numerous reports from clients who came to me 
after first visiting the EEOC where those clients were told they did 
not have a claim or the intake person at the EEOC refused to prepare 
and file a charge. Consequently, we have begun preparing the entire 
charge, including the text, and filing that--which the EEOC has always 
accepted without change. It's just when a charging party is 
unrepresented and visits the EEOC first that resistance by the EEOC 
occurs. Some investigators are more notorious than others. The intake 
investigators are not attorneys but are making legal decisions. Of 
course, this could be critical if the individual does not first see an 
attorney or delays seeing an attorney until after the charging party's 
deadline has passed.
Nashville Area Office
    153. It takes about 9 months to a year for the EEOC to complete its 
investigation. I don't know how that compares to other offices.
    166. I have never had a problem but individuals have expressed to 
me about 6 to 10 times over last 2 or 3 years that the EEOC intake 
person said that they did not have claim and did not take a charge. I 
do not know if it is true but I believe they must be discouraging 
employees from filing charges.
Newark Area Office
    54. Very slow follow-up on the part of the investigators. Lack of 
good training or knowledge of the law by investigators, who routinely 
reject cases that are then won in court or settled.
Pittsburgh Area Office
    102. In my experience, the Pittsburgh office does an excellent job 
processing charges no matter what is alleged. It will take the charge, 
evaluate it as required and then make a decision. While I don't agree 
with the decisions made, my experience is that they do not dismiss a 
charge out of hand.
    117. When charges are transferred from Pittsburgh to Cleveland, I 
am not notified and at times when there is more than one Respondent, 
not all the charges are transferred together.
Raleigh Area Office
    12. I have not personally had any problems with the EEOC. However, 
I am aware of several clients who have experienced problems with having 
the EEOC accept their charges of discrimination and/or omit claims from 
the charge that the EEOC prepared (which were clearly covered in the 
intake questionnaire).
Buffalo Local Office
    61. EEOC investigator objected to describing specific health 
condition in ADA charge.
    123. My comment is neither profound nor new. The EEOC has very 
limited resources. The quality of a decent percentage of the 
investigators is not terribly high. They do not require a college 
degree and are being asked to evaluate issues that many lawyers outside 
the employment field would not immediately get. If private counsel is 
involved, my view is that they should either partner with them if the 
agency is interested in the case or willing to help, or otherwise 
simply stay out of the case so as not to mess stuff up. They should 
concentrate their resources on good cases brought by those without an 
attorney.
    189. Office failed to respond to status inquiries for an extended 
period of time and then refused to perform investigation.
Norfolk Local Office
    126. The Norfolk EEOC office is WOEFULLY understaffed. Just over a 
year ago the office had 12 investigators--it now has 5. EEOC personnel 
are working valiantly, but there are simply not enough of them. My 
clients are best protected from ``frivolous'' lawsuit claims by a cause 
finding. Obtaining one, however, can take over a year.
Richmond Local Office
    81. EEOC has done almost no meaningful investigation: no follow-up 
after receipt of employer's position paper; no interest in contacting 
witnesses, etc.
    125. Once charges are filed, it is often months or even years 
before anything is done or the charge is even assigned to an 
investigator.
San Juan Local Office
    184. Very high rate of ``no cause'' rulings without any 
investigation.
Savannah Local Office
    130. During reorganization last year, we were reassigned from the 
Greenville, South Carolina office to the Savannah, Georgia office, and 
have encountered some problems with filing, and some problems with one 
particular investigator who did not conduct much of an investigation, 
and sent the right to sue letter after several months directly to our 
client's mother, despite the fact that I left a number of messages over 
the course of 3 months, to which he never responded. It was clear on 
our paperwork that we were her attorneys from the start. The Savannah 
office does not seem to have been able to hire additional personnel, 
despite having a significant portion of South Carolina added to their 
region.
                                 ______
                                 
         Prepared Statement of the Investment Company Institute
    The Investment Company Institute appreciates this opportunity to 
submit testimony to the Subcommittee in support of the Administration's 
fiscal year 2008 Appropriations request for the Securities and Exchange 
Commission (SEC). We commend the Subcommittee for its consistent past 
efforts to assure adequate resources for the SEC.
    Mutual funds are an integral part of the U.S. economy and continue 
to be one of America's primary savings and investment vehicles for 
middle-income Americans. Since 1990, the percentage of U.S. retirement 
assets held in mutual funds has more than quadrupled. Today, more than 
96 million investors in nearly 55 million U.S. households own mutual 
fund shares; the median household income of fund shareholders is 
$68,700. These millions of ordinary Americans continue to recognize 
that mutual funds are the best means of achieving their long-term 
financial goals. They deserve and benefit from continued vigilant 
regulatory oversight of mutual funds.
    In addition to their role as the investment vehicle of choice for 
millions of Americans, mutual funds are major investors in securities 
and participants in the marketplace. As such, they have a strong 
interest in assuring the SEC's continued ability to soundly and 
effectively regulate securities offerings, other market participants, 
and the markets themselves.
    For all of these reasons, sufficient funding of the SEC is 
critically important to the Institute and its members.
    The Administration's fiscal year 2008 budget proposes SEC funding 
at a level of $905.3 million, which is a very slight increase from the 
$904 million appropriated in fiscal year 2007. The SEC has determined 
that this level provides it with adequate funding to fulfill its 
regulatory mandate and to continue protecting the nation's investors. 
Accordingly, the Institute urges Congress to provide appropriations at 
this funding level.
    We believe it is significant that the SEC has specifically 
requested funding to allow it to continue to invest resources in 
technology. We are particularly pleased that the top strategic 
priorities for the SEC's Division of Investment Management include 
revamping the mutual fund disclosure regime by making disclosures more 
useful to investors through better use of new technologies, such as 
interactive data tagging (XBRL) and the Internet. Division Director 
Andrew Donohue recently outlined plans to develop a short-form 
disclosure document for fund investors, which would be coupled with 
giving investors the ability to obtain additional information via the 
Internet or in paper form.\1\ As Director Donohue said, mutual fund 
shareholders ``deserve a streamlined disclosure system that better 
meets their needs and is consistent with the manner in which most 
Americans retrieve and process information in the 21st century.'' We 
agree, and we strongly support funding for these important initiatives.
---------------------------------------------------------------------------
    \1\ Speech by SEC Director of the Division of Investment Management 
Andrew J. Donohue, Keynote Address at the 2007 ICI Mutual Funds and 
Investment Management Conference, March 26, 2007.
---------------------------------------------------------------------------
    While providing adequate funding is vitally important, it is 
equally important that the SEC deploy available resources in ways 
designed to assure the effectiveness of its regulatory and law 
enforcement efforts. We therefore strongly support the continued focus 
on internal reforms that will improve the performance of the SEC. This 
includes, for example, providing regulatory guidance that better 
anticipates issues, developing closer integration of the activities of 
different SEC divisions and branch offices, implementing new inspection 
strategies, and conducting empirical research that informs major 
rulemakings. Indeed, the importance of these kinds of reforms has been 
underscored in a series of recent reports.\2\ We support appropriate 
funding of the SEC to facilitate these and other initiatives to enhance 
the effectiveness of the SEC.
---------------------------------------------------------------------------
    \2\ See Interim Report of the Committee on Capital Markets 
Regulation (November 30, 2006, as revised on December 5, 2006); Report 
of the U.S. Chamber of Commerce, Commission on the Regulation of U.S. 
Capital Markets in the 21st Century (March 2007); and Sustaining New 
York's and the U.S.' Global Financial Services Leadership (January 
2007).
---------------------------------------------------------------------------
    In conclusion, the SEC and the fund industry share a common 
objective of assuring that mutual funds remain a vibrant, competitive 
and cost effective way for average Americans to access the securities 
markets and realize their long-term financial goals. Future regulatory 
and oversight actions by the SEC will play a key part in this process. 
It is therefore critically important that the SEC have sufficient 
resources to enable it to be an effective and efficient regulator and 
fulfill its mission of protecting the nation's investors, including the 
more than 91 million Americans who own mutual funds. Accordingly, we 
support providing the SEC with the requested level of funding.
    We appreciate your consideration of our views.
    The Investment Company Institute is the national association of 
American investment companies. ICI members include 8,821 open-end 
investment companies (mutual funds), 664 closed-end investment 
companies, 385 exchange-traded funds, and 4 sponsors of unit investment 
trusts. Mutual fund members of the ICI have total assets of 
approximately $10.481 trillion (representing 98 percent of all assets 
of U.S. funds); these funds serve approximately 93.9 million 
shareholders in more than 53.8 million households.
                                 ______
                                 

      Prepared Statement of the National Treasury Employees Union

    Chairman Durbin, ranking member Brownback, and distinguished 
members of the subcommittee, I would like to thank you for allowing me 
to provide comments on the administration's fiscal year 2008 budget 
request for the Internal Revenue Service (IRS). As President of the 
National Treasury Employees Union (NTEU), I have the honor of 
representing over 150,000 Federal workers in 30 agencies including the 
men and women at the IRS.
                  irs fiscal year 2008 budget request
    Mr. Chairman, as you know, the IRS budget forms the foundation for 
what the IRS can provide to taxpayers in terms of customer service and 
how the agency can best fulfill its tax enforcement mission. Without an 
adequate budget, the IRS cannot expect continued improvement in 
customer service performance ratings and will be hampered in its effort 
to enhance taxpayer compliance. I would like to applaud the 
administration for acknowledging in its fiscal year 2008 Budget in 
Brief (page 65) that ``assisting the public to understand their tax 
reporting and payment obligations is the cornerstone of taxpayer 
compliance and is vital for maintaining public confidence in the tax 
system.'' However, I was disappointed in the administration for failing 
to request a budget for fiscal year 2008 that meets the needs of the 
Agency to meet its customer service and enforcement challenges. In 
fact, the President's budget anticipates a ``savings'' equal to nearly 
1,200 full-time equivalent positions, including 1,147 in enforcement 
and taxpayer service programs.
    Although it's widely recognized that additional funding for 
enforcement provides a great return on the investment, the 
administration seems reluctant to request an adequate budget for the 
IRS. In addition, despite citing a lack of resources as the primary 
rationale for contracting out a number of inherently governmental 
activities, such as the collection of taxes, the Commissioner of the 
IRS has told Congress that the IRS does not need any additional funding 
above the President's budget request.
    NTEU believes that Congress must provide the IRS with a budget that 
will allow the Service to replenish the depleted workforce, 
particularly with respect to enforcement personnel.
    History has shown that the IRS has the expertise to improve 
taxpayer compliance but lacks the necessary personnel and resources. 
The President's own fiscal 2008 budget proposal trumpets the increased 
tax collections produced by IRS's own employees and cites the increased 
collections of delinquent tax debt from $34 billion in 2002 to $49 
billion in 2006, an increase of 44 percent. Unfortunately, instead of 
providing additional resources to hire more enforcement staff, IRS 
personnel resources have been slashed in recent years resulting in a 36 
percent decline in combined collection and examination function 
enforcement staff between 1996 and 2003. In addition, these staffing 
cuts have come at a time when the IRS workload has dramatically 
increased.
    According to IRS's own annual reports and data, taxpayers filed 
114.6 million returns in 1995. After a steady annual climb, 11 years 
later, the Service saw more than 132 million returns filed. Yet, 
between 1995 and 2005, total numbers of IRS employees shrunk from 
114,000 to 94,000. Even more alarming is that during that period, 
revenue officers and revenue agents--two groups critical to IRS 
enforcement and compliance efforts--shrunk by 32 and 23 percent 
respectively. Revenue officers who collect large delinquent accounts 
went from 8,139 to 5,462 and revenue agents who do audits fell from 
16,078 to 12,355. Unfortunately, instead of reversing this trend, the 
IRS has continued efforts to reduce its workforce and has moved forward 
with downsizing in several different areas which have targeted some of 
the Service's most productive employees.
    These include last year's re-organization of the Estate and Gift 
Tax Program which sought the elimination of 157 of the agency's 345 
estate and gift tax attorneys--almost half of the agency's estate tax 
lawyers--who audit some of the wealthiest Americans. The Service 
pursued this drastic course of action despite internal data showing 
that estate and gift attorneys are among the most productive 
enforcement personnel at the IRS, collecting $2,200 in taxes for each 
hour of work.
    The IRS decision to drastically reduce the number of attorneys in 
the estate and gift tax area flies in the face of several reports made 
to Congress by Treasury and IRS officials over the past few years, 
indicating that tax evasion and cheating among the highest-income 
Americans is a serious and growing problem. In fact, an IRS study found 
that in 1999, more than 80 percent of the 1,651 tax returns reporting 
gifts of $1 million or more that were audited that year understated the 
value of the gift. The study found that the average understatement was 
about $303,000, on which about $167,000 in additional gift taxes was 
due. This alone cost the government about $275 million. Consequently, 
it is difficult to understand why the IRS sought the elimination of key 
workforce positions in an area that could produce significant revenue 
to the general treasury.
    In addition, the Service continues to move forward with its plan to 
close five of its ten paper tax return submission facilities by 2011. 
The IRS originally sought the closings of the five paper return 
submission centers due to the rise in the use of electronic filing (e-
filing) and in order to comply with the IRS Restructuring and Reform 
Act of 1998 (RRA 98) which established a goal for the IRS to have 80 
percent of Federal tax and information returns filed electronically by 
2007. But in their recent report to Congress on e-filing, the IRS 
Oversight Board noted that the IRS will fall well short of the 80 
percent goal and urged Congress to extend the deadline to 2012. The 
report noted that in 2006 just 54 percent of individuals e-filed their 
returns, well short of the 80 percent goal. Furthermore, the report 
cited a decline in 2006 in the number of e-file returns received from 
individual taxpayers who self-prepared their taxes. And finally a 
recent GAO report on the 2006 filing season noted the year over year 
percentage growth in individual e-filing slowed to a level lower than 
any of the previous 3 years.
    While overall use of e-filing may be on the rise, the number of 
taxpayers opting to use this type of return is not increasing as 
rapidly as the IRS had originally projected. Combined with the fact 
that almost a third of American taxpayers do not even have internet 
access and changes to the IRS Free File Program that are expected to 
increase the number of paper filing returns, it is clear that paper 
submission processing facilities are still necessary and that serious 
thought and consideration must be given before any additional closings 
are undertaken.
    Mr. Chairman, it is clear that drastic reductions in some of the 
agency's most productive tax law enforcement employees directly 
contradict the Service's stated enforcement priority to discourage and 
deter non-compliance, particularly among high-income individuals. In 
addition, we believe these staffing cuts have greatly undermined agency 
efforts to close the tax gap which the IRS recently estimated at $345 
billion. As Nina Olson, the National Taxpayer Advocate noted, this 
amounts to a per-taxpayer ``surtax'' of some $2,600 per year to 
subsidize noncompliance. And while the agency has made small inroads 
and the overall compliance rate through the voluntary compliance system 
remains high, much more can and should be done. NTEU believes that in 
order to close the tax gap, the IRS needs additional employees on the 
frontlines of tax compliance and customer service. In addition, we 
believe Congress should establish a dedicated funding stream to provide 
adequate resources for those employees.
                         nteu staffing proposal
    In order to address the staffing shortage at the IRS, NTEU supports 
a 2 percent annual net increase in staffing (roughly 1,885 positions 
per year) over a 5-year period to gradually rebuild the depleted IRS 
workforce to pre-1998 levels. A similar idea was proposed by former IRS 
Commissioner Charles Rossotti in a 2002 report to the IRS Oversight 
Board. In the report, Rossotti quantified the workload gap in non-
compliance, that is, the number of cases that should have been, but 
could not be acted upon because of resource limitations. Rossotti 
pointed out that in the area of known tax debts, assigning additional 
employees to collection work could bring in roughly $30 for every $1 
spent. The Rossotti report recognized the importance of increased IRS 
staffing noting that due to the continued growth in IRS' workload 
(averaging about 1.5 to 2.0 percent per year) and the large accumulated 
increase in work that should be done but could not be, even aggressive 
productivity growth could not possibly close the compliance gap. 
Rossotti also recognized that for this approach to work, the budget 
must provide for a net increase in staffing on a sustained yearly basis 
and not take a ``one time approach.''
    Although this would require a substantial financial commitment, the 
potential for increasing revenues, enhancing compliance and shrinking 
the tax gap makes it very sound budget policy. One option for funding a 
new staffing initiative would be to allow the IRS to hire personnel 
off-budget, or outside of the ordinary budget process. This is not 
unprecedented. In fact, Congress took exactly the same approach to 
funding in 1994 when Congress provided funding for the administration's 
IRS Tax Compliance Initiative which sought the addition of 5,000 
compliance positions for the IRS. The initiative was expected to 
generate in excess of $9 billion in new revenue over 5 years while 
spending only about $2 billion during the same period. Because of the 
initiative's potential to dramatically increase Federal revenue, 
spending for the positions was not considered in calculating 
appropriations that must come within annual caps.
    A second option for providing funding to hire additional IRS 
personnel outside the ordinary budget process could be to allow IRS to 
retain a small portion of the revenue it collects. The statute that 
gives the IRS the authority to use private collection companies to 
collect taxes allows 25 percent of collected revenue to be returned to 
the companies as payment, thereby circumventing the appropriations 
process altogether. Clearly, there is nothing magical about revenues 
collected by private collection companies. If those revenues can be 
dedicated directly to contract payments, there is no reason some small 
portion of other revenues collected by the IRS could not be dedicated 
to funding additional staff positions to strengthen enforcement.
    While NTEU agrees with IRS' stated goal of enhancing tax compliance 
and enforcement, we don't agree with the approach of sacrificing 
taxpayer service in order to pay for additional compliance efforts. 
That is why we were disappointed to see that the President's proposed 
budget calls for the elimination of 527 taxpayer services positions. 
NTEU believes providing quality services to taxpayers is an important 
part of any overall strategy to improve compliance and that reducing 
the number of employees dedicated to assisting taxpayers meet their 
obligations will only those efforts. The administration's own budget 
proposal for 2008 notes that in fiscal year 2006, IRS' customer 
assistance centers answered almost 33 million assistor telephone calls 
and met the 82 percent level of service goal, with an accuracy rate of 
91 percent for tax law questions. In addition, a recent study 
commissioned by the Oversight Board found that more than 80 percent of 
taxpayers contacted said that IRS service was better than or equal to 
service from other government agencies. And while these numbers show 
that IRS taxpayer services are being effective, more can and should be 
done.
    Mr. Chairman, in order to continue to make improvements in taxpayer 
services while simultaneously processing a growing number of tax 
returns and stabilizing collections and examinations of cases, it is 
imperative to reverse the severe cuts in IRS staffing levels and begin 
providing adequate resources to meet these challenges. With the future 
workload expected to continue to rise, the IRS will be under a great 
deal of pressure to improve customer service standards while 
simultaneously enforcing the Nation's tax laws. NTEU strongly believes 
that providing additional staffing resources would permit IRS to meet 
the rising workload level, stabilize and strengthen tax compliance and 
customer service programs and allow the Service to address the tax gap 
in a serious and meaningful way.
                            span of control
    And while it is imperative that Congress provide the IRS with 
sufficient staffing resources, we also believe that the IRS should look 
at the management to bargaining unit employee ratio to find additional 
resources for increased frontline tax compliance efforts. As noted 
previously, while the number of employees at the IRS has decreased by 
almost 20,000 since 1995, the number of managers who supervise these 
employees has increased over this same period. If we just look at the 
period between 2000 and 2005, we see that the number of bargaining unit 
employees, the frontline employees who do the work, decreased by 4,756, 
a decrease of 5.1 percent. During that same time, the number of 
managers and management officials increased by 170, an increase of 1 
percent. If the IRS decreased the number of managers and management 
officials at the same rate as it decreased its rank and file employees 
during that period, there would be 5.1 percent fewer managers and 
management officials or a savings of 808 full time equivalents (FTE's) 
that could be saved and redirected to the frontlines. While the IRS has 
previously cited concerns about the number of employees that would have 
to be taken offline to train additional frontline employees, we believe 
this training could be done with minimal disruption to current 
operations. One possibility would be to use the increasing number of 
managers and management officials to do the training. This would ensure 
that these employees are afforded the best possible training while 
allowing current operations to continue to run efficiently.
                         private tax collection
    Mr. Chairman, as stated previously, if provided the necessary 
resources, IRS employees have the expertise and knowledge to ensure 
taxpayers are complying with their tax obligations. That is why NTEU 
continues to strongly oppose the administration's private tax 
collection program, which began in September of last year. Under the 
program, the IRS is permitted to hire private sector tax collectors to 
collect delinquent tax debt from taxpayers and pay them a bounty of up 
to 25 percent of the money they collect. NTEU believes this misguided 
proposal is a waste of taxpayer's dollars, invites overly aggressive 
collection techniques, jeopardizes the financial privacy of American 
taxpayers and may ultimately serve to undermine efforts to close the 
tax gap.
    NTEU strongly believes the collection of taxes is an inherently 
governmental function that should be restricted to properly trained and 
proficient IRS personnel. When supported with the tools and resources 
they need to do their jobs, there is no one who is more reliable and 
who can do the work of the IRS better than IRS employees.
    As you may know, under current contracts, private collection firms 
are eligible to retain 21 percent to 24 percent of what they collect, 
depending on the size of the case. In testimony before Congress, former 
IRS Commissioner Mark Everson repeatedly acknowledged that using 
private collection companies to collect Federal taxes will be more 
expensive than having the IRS do the work itself. The Commissioner's 
admission directly contradicts one the administration's central 
justifications for using private collection agencies--that the use of 
private collectors is cost efficient and effective.
    In addition to being fiscally unsound, the idea of allowing private 
collection agencies to collect tax debt on a commission basis also 
flies in the face of the tenets of the IRS Restructuring and Reform Act 
of 1998. Section 1204 of the law specifically prevents employees or 
supervisors at the IRS from being evaluated on the amount of 
collections they bring in. But now, the IRS has agreed to pay private 
collection agencies out of their tax collection proceeds, which will 
clearly encourage overly aggressive tax collection techniques, the 
exact dynamic the 1998 law sought to avoid. Furthermore, the IRS is 
turning over tax collection responsibilities to an industry that has a 
long record of abuse. For example, in 2006, consumer complaints about 
third-party debt collectors increased both in absolute terms and as a 
percentage of all complaints that consumers filed with the Federal 
Trade Commission (FTC). Last year the FTC received 69,204 consumer 
complaints about debt collection agencies--giving debt collectors the 
impressive title of the FTC's most complained-about industry.
    NTEU believes that a better option would be to provide the IRS with 
the resources and staffing it needs. There is no doubt that IRS 
employees are--by far--the most reliable, cost-effective means for 
collecting Federal income taxes. As noted previously, the former IRS 
Commissioner himself has admitted that using IRS employees to collect 
unpaid tax debts is more efficient than using private collectors. In 
addition, the 2002 budget report submitted to the IRS Oversight Board, 
former Commissioner Charles Rossotti made clear that with more 
resources to increase IRS staffing, the IRS would be able to close the 
compliance gap.
    This is not the first time the IRS has tried this flawed program. 
Two pilot projects were authorized by Congress to test private 
collection of tax debt for 1996 and 1997. The 1996 pilot was so 
unsuccessful it was cancelled after 12 months, despite the fact it was 
authorized and scheduled to operate for 2 years. A subsequent review by 
the IRS Office of Inspector General found that contractors 
participating in the pilot programs regularly violated the Fair Debt 
Collection Practices Act, did not adequately protect the security of 
personal taxpayer information, and even failed to bring in a net 
increase in revenue. In fact, a 1997 GAO report found that private 
companies did not bring in anywhere near the dollars projected, and the 
pilot caused a $17 million net loss.
    Despite IRS assurances that it has learned from its past mistakes, 
two recent reports indicate otherwise. A March 2004 report by the 
Treasury Inspector General for Tax Administration raised a number of 
questions about IRS' contract administration and oversight of 
contractors. The report found that ``a contractor's employees committed 
numerous security violations that placed IRS equipment and taxpayer 
data at risk'' and in some cases, ``contractors blatantly circumvented 
IRS policies and procedures even when security personnel identified 
inappropriate practices.'' (TIGTA Audit #200320010). The proliferation 
of security breaches at a number of government agencies that put 
personal information at risk further argue against this proposal. These 
security breaches illustrate not only the risks associated with 
collecting and disseminating large amounts of electronic personal 
information, but the risk of harm or injury to consumers from identity 
theft crimes.
    In addition, a September 2006 examination of the IRS private 
collection program by the Government Accountability Office (GAO) 
reveals that like the 1996 pilot, the program may actually lose money 
by the scheduled conclusion of the program's initial phase in December 
2007. The report cited preliminary IRS data showing that the agency 
expects to collect as little as $56 million through the end of 2007, 
while initial program costs are expected to surpass $61 million. What's 
more, the projected costs do not even include the 21-24 percent 
commission fees paid to the collection agencies directly from the taxes 
they collect.
    In addition to the direct costs of the program, I am greatly 
concerned about the potential negative effect that the private tax 
collection program will have on our tax administration system. In her 
recent report to Congress, the National Taxpayer Advocate voiced 
similar concern about the unintended consequences of privatizing tax 
collection. Olson cited a number of ``hidden costs'' that private tax 
collection has on the tax system including reduced transparency of IRS 
tax collection operations, inconsistent treatment for similarly 
situated taxpayers, and reduced tax compliance. Clearly the negative 
effects of contracting out tax collection to private collectors hampers 
the agency's ability to improve taxpayer compliance and will only serve 
to undermine future efforts to close the tax gap.
    NTEU is not alone in its opposition to the IRS' plan. Similar 
proposals allowing private collection agencies to collect taxes on a 
commission basis have been around for a long time and have consistently 
been opposed by both parties. In fact, the Reagan Administration 
strongly opposed the concept of privatizing tax collections warning of 
a considerable adverse public reaction to such a plan, and emphasizing 
the importance of not compromising the integrity of the tax system. 
(Treasury Dept. Statement to House Judiciary Comm. 8/8/86). More 
recently, opposition to the private tax collection program has been 
voiced by a growing number of members of Congress, major public 
interest groups, tax experts, as well as the Taxpayer Advocacy Panel, a 
volunteer Federal advisory group--whose members are appointed by the 
IRS and the Treasury Department. In addition, the National Taxpayer 
Advocate, an independent official within the IRS recently identified 
the IRS private tax collection initiative as one of the most serious 
problems facing taxpayers and called on Congress to immediately repeal 
the IRS' authority to outsource tax collection work to private debt 
collectors (National Taxpayer Advocate 2006 Report to Congress).
    Instead of rushing to privatize tax collection functions which 
jeopardizes taxpayer information, reduces potential revenue for the 
Federal Government and undermine efforts to close the tax gap, the IRS 
should increase compliance staffing levels at the IRS to ensure that 
the collection of taxes is restricted to properly trained and 
proficient IRS personnel.
    irs audits of high-income individuals and large businesses and 
                              corporations
    Mr. Chairman, the final issue that I would like to discuss is IRS 
enforcement efforts with regard to high-income individuals and large 
businesses and corporations. I previously noted the drastic staff 
reductions in the estate and gift tax division that occurred last year 
and will obviously hamper the Service's ability to achieve greater 
compliance from the wealthiest Americans. In addition, recent IRS data 
shows that IRS audits of high-income individuals have dropped 
dramatically over the past decade. The audit rate for face-to-face 
audits fell from 2.9 percent of high-income tax filers in fiscal year 
1992 to 0.38 percent in fiscal year 2001 and then drifted down to 0.35 
percent in fiscal year 2004. While the audit rate has rebounded 
somewhat in the last 2 years, it is still far below the level of the 
mid-1990's. These facts seem to directly contradict claims by the IRS 
that the Service's first enforcement priority is to discourage and 
deter non-compliance, with an emphasis on high-income individuals.
    We are seeing similar troubling trends with respect to large 
corporations. While this issue has just started receiving public 
attention in recent weeks, it has long been of concern to IRS employees 
that believe recent IRS currency and cycle time initiatives are 
resulting in the premature closing of audits of large companies, 
possibly leaving hundreds of millions of dollars of taxes owed on the 
table. IRS data shows the thoroughness of IRS enforcement efforts for 
the Nation's largest corporations--measured by the number of hours 
devoted to each audit--has substantially declined since fiscal year 
2002. IRS data also show that the annual audit rates for these 
corporations, all with assets of $250 million or more, while increasing 
in fiscal year 2004 and 2005, receded in 2006 to about the level it was 
in 2002 and is much lower than levels that prevailed a decade or more 
ago.
    Although the number of the largest corporations is small, they are 
a very significant presence in the American economy. In fiscal year 
2002, the largest corporations were responsible for almost 75 percent 
of all additional taxes the IRS auditors said were owed the government. 
By comparison, low and middle income taxpayers in the same year were 
responsible for less than 10 percent of the total.
    Agency data shows that audit attention given those corporations 
with $250 million or more in assets has substantially declined in the 
last 5 years. In 2002, an average of 1,210 hours were devoted to each 
of the audits of the corporations in this category. The time devoted to 
each audit dropped sharply in 2004 and by 2006 the number of hours per 
audit remained 20 percent below what it was in 2002.
    But what may be most disturbing is that according to IRS' own data, 
while the coverage rate of large corporation returns (identified as 
those with assets of $10 million and higher) increased in fiscal year 
2004 and 2005, the number of audits for these corporations actually 
decreased in 2006. Clearly, the rationale the IRS is using to justify a 
reduction in time and scope of large corporation audits, that is, to 
allow for expanding the total number of companies audited is not 
working.
    IRS officials have continued to point to a rise in additional tax 
recommended for each hour of audit as a sign that the policy is 
working, but most auditors know that this rise can be primarily 
attributed to the proliferation of illegal tax shelters which makes it 
easier to find additional taxes due.
    Warnings about the potential negative consequences of such policy 
decisions were made by a number of IRS employees in a recent New York 
Times article and are not new. In fact, when the IRS first began 
limiting the time and scope of business audits through implementation 
of the Limited Issue Focused Examination (LIFE) process in 2002, the 
former chief counsel of the IRS said that the IRS' proposed reductions 
in cycle time of corporate audits would ``virtually guarantee that IRS 
auditors would miss tax dodges, fail to explore suspicious 
transactions, or even walk away from audits that are on the verge of 
finding wrongdoing.''
    In addition, IRS employees have raised concerns about this shift in 
approach to the auditing of business tax returns since its 
implementation several years ago. Their concerns are multi-fold. 
Primarily, employees' feel that their experience and professional 
judgment is being ignored when the scope of audits is limited and cycle 
times are reduced. Revenue agents need flexibility to determine the 
scope of an audit and need the ability to expand the examination time 
when necessary. The men and women of the IRS that perform these audits 
are highly experienced employees who know which issues to examine and 
when more time is necessary on a case. But under current IRS policies, 
this is just not the case.
    Mr. Chairman, we have heard directly from a number of our members 
about the detrimental effect this policy has had not just on efforts to 
ensure corporations are in full compliance, but also how this misguided 
policy is damaging employee morale. In one instance, an IRS agent with 
29 years of experience, including 19 as an international specialist 
examining tax returns of large, multinational corporations was given an 
unreasonably short period of time to examine 3 tax years of a very 
large company. The agent reported being constantly harassed for 
refusing to further limit the scope of the examination beyond that 
which was set at the beginning of the audit, even though he had 
successfully completed two prior examinations of the same taxpayer in a 
timely manner. The employee knew the issues and how to examine them but 
also knew they would need more than the allotted time to complete his 
part of the examination. But, despite past successes, management 
refused to provide the employee with additional time to complete his 
portion of the audit and labeled the employee as uncooperative and not 
a ``team player.'' Although the employee refused to compromise, he 
believed that other members of the examination team had been pressured 
into dropping issues which likely would have resulted in additional 
tax.
    Mr. Chairman, in the face of a rising tax gap and exploding Federal 
deficits, it is imperative that the agency is provided with the 
necessary resources to allow IRS professionals to pursue each and every 
dollar of the taxes owed by large businesses and corporations. Allowing 
these corporations to pay just a fraction of what they owe in taxes 
greatly hinders efforts to close the tax gap and is fundamentally 
unfair to the millions of ordinary taxpayers that dutifully pay their 
taxes. Only by increasing the overall number of IRS employees that do 
this work can the Service ensure that businesses and large corporations 
are complying with their tax obligations and that the tax gap is being 
closed.
                               conclusion
    It is an indisputable fact that the IRS workforce is getting mixed 
signals regarding its value to the mission of the Service and the level 
of workforce investment the Service is willing to make. NTEU believes 
that the drastic reductions of some of the IRS's most productive 
employees, reliance on outside contractors to handle inherently 
governmental activities such as the collection of taxes, and a shift in 
philosophy which focuses enforcement efforts too much on wage earners 
and not enough on high-income individuals and large businesses and 
corporations, only serve to undermine the agency's ability to fulfill 
its tax enforcement mission and hamper efforts to close the tax gap.
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission
    Mr. Chairman, my name is Roland Rousseau and I serve as an 
alternate commissioner on the Pacific Salmon Commission (PSC) and the 
chair of the Budget Committee for the U.S. section of the Commission. 
The Pacific Salmon Treaty (Treaty) between the United States and Canada 
was established in 1985. An subsequent agreement was concluded in June 
of 1999 (1999 agreement) that established new abundance-based fishing 
regimes under the treaty and made other improvements in the treaty's 
structure. During fiscal year 2008, the PSC will conduct very important 
negotiations to renew provisions of treaty fishing regimes that are 
scheduled to expire at the end of 2008. The U.S. section recommends 
that Congress:
    For Department of Commerce:
  --Fund the Pacific Salmon Treaty line item of the National Marine 
        Fisheries Service at $8,000,000 for fiscal year 2008, restoring 
        $1,000,000 previously provided by Congress. This funding 
        provides the technical support for the States of Alaska, 
        Washington, Oregon and Idaho and the National Marine Fisheries 
        Service to conduct the salmon stock assessment and fishery 
        management programs required to implement the treaty fishing 
        regimes. Included within the total amount of $8,000,000 is 
        $400,000 to continue a joint Transboundary River Enhancement 
        Program required by the treaty.
  --Fund the Pacific Salmon Treaty Chinook Salmon Agreement line item 
        of the National Marine Fisheries Service for fiscal year 2008 
        at $1,844,000, level funding from what was provided by Congress 
        for fiscal year 2006. This funding continues to be necessary to 
        acquire the technical information to implement abundance-based 
        Chinook salmon management provided for under the 1999 
        agreement.
    For Department of State fund the PSC at $3,049,000, under 
International Fisheries Commission, Department of State. This is 
approximate level funding from that provided in fiscal year 2006 to 
fund the bilateral PSC office and staff, and to support U.S. section 
activities required to implement provisions of the treaty. Funding for 
the total International Fisheries Commission line item should be 
$24,000,000, the funding level for fiscal year 2006, to provide full 
funding for the operations of all the fishery commissions, including 
the PSC.
    The base treaty implementation projects include a wide range of 
stock assessment, fishery monitoring, and technical support activities 
for all five species of Pacific salmon in the fisheries and rivers from 
Southeast Alaska to those of Washington, Oregon, and Idaho. The States 
of Alaska, Washington, Oregon, and Idaho, and the National Marine 
Fisheries Service (NMFS), are charged with carrying out major portions 
of the salmon fishery stock assessment and harvest management actions 
required under the treaty. Federal funding for these activities is 
provided through NMFS on an annual basis. The agency projects carried 
out under PSC funding are directed toward acquiring, analyzing, and 
sharing the information required to implement the salmon conservation 
and sharing principles of the treaty. A wide range of programs for 
salmon stock size assessments, escapement enumeration, stock 
distribution, and catch and effort information from fisheries, are 
represented. The information from many of these programs is used 
directly to establish fishing seasons and harvest levels. Congress 
increased this funding by $2,000,000 in fiscal year 2005 to a total of 
$8,000,000 to provide for programs needed to implement the new 
abundance-based fishing regimes established under the 1999 agreement, 
but the level was reduced to $7,000,000 in fiscal year 2006. The U.S. 
section recommends that $8,000,000 be restored in fiscal year 2008 to 
allow full implementation of treaty provisions. The 1999 agreement 
updated provisions of the Pacific Salmon Treaty including fishing 
arrangements and abundance-based management approaches for Chinook, 
southern coho, Northern Boundary and Transboundary River fisheries. The 
$400,000 that has been provided since 1988 for a joint Transboundary 
River enhancement program with Canada is included in this amount.
    In 1996, the United States adopted an abundance-based approach to 
managing Chinook salmon fisheries in Southeast Alaska. Under this 
approach, Chinook harvest levels are based on annual estimates of 
Chinook abundance. This system replaced fixed harvest ceilings agreed 
to in 1985, which did not respond to annual fluctuations in Chinook 
salmon populations. The revised 1999 agreement adopted this abundance-
based management approach for all Chinook fisheries subject to the 
treaty. In recognition of this new management approach, since 1998, 
Congress has provided $1,844,000 annually to allow for the collection 
of stock assessment and fishery management information necessary for 
implementation. Through a rigorous competitive technical review 
process, the States of Alaska, Washington, Oregon, and Idaho, and the 
24 treaty tribes are using the funding to implement abundance-based 
Chinook salmon management coast-wide under the new agreement. The U.S. 
section recommends level funding of $1,844,000 for fiscal year 2008 to 
support the implementation of abundance-based Chinook salmon 
management.
    The United States and Canada agreed in 1988 to a joint salmon 
enhancement program on the Transboundary Rivers, which rise in Canada 
and flow to the sea through Southeast Alaska. Since 1989, Congress has 
provided $400,000 annually for this effort through the National Marine 
Fisheries Service International Fisheries Commission line item under 
the Conservation and Management Operations activity. Canada provides an 
equal amount of funding and support for this bilateral program. This 
funding is included in the $8,000,000 the U.S. section is recommending 
for the fiscal year 2008 Pacific Salmon Treaty line item.
    The U.S. section of the PSC recommends that $3,049,000 for 
implementation of the treaty be provided in the Department of State's 
International Fisheries Commissions line item in fiscal year 2008. This 
is $20,000 more than the amount provided by Congress for fiscal year 
2006 and is vitally needed to support U.S. commitments made in the 1999 
agreement and support costs for U.S. section participation. This 
funding provides for the United States contribution to the bilateral 
PSC staff and offices based in Vancouver, British Columbia. It also 
provides for travel for U.S. commissioners, panel members, and 
technical committee members and stipends for authorized commissioners 
and panel members. Increasing travel costs, less favorable currency 
exchange rates with Canada and increased costs associated with the 
renegotiation of fishing regimes that will be in progress during fiscal 
year 2008, make it very important that this funding is available to 
support PSC operations.
    This concludes the statement of the U.S. section of the PSC 
submitted for consideration by your committee. We wish to thank the 
committee for the support that it has given us in the past.

                  SUMMARY OF PROGRAM FUNDING FOR THE UNITED STATES-CANADA PACIFIC SALMON TREATY
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year
                                                                       2006            2008           Section
                                                                   Appropriation  Recommendation     Shortfall
----------------------------------------------------------------------------------------------------------------
Department of Commerce:
    Pacific Salmon Treaty Line Item.............................      $7,000,000  \1\ $8,000,000      $1,000,000
    Pacific Salmon Treaty--Chinook Salmon Agreement Line Item...       1,844,000       1,844,000  ..............
Department of State: International Fisheries Commissions:              3,029,000       3,049,000          20,000
 Pacific Salmon Commission......................................
----------------------------------------------------------------------------------------------------------------
\1\ The recommended fiscal year 2008 amount includes $400,000 provided for the Joint Transboundary River
  Enhancement Program previously funded under the NMFS International Fisheries Commission account.

                                 ______
                                 
        Prepared Statement of the American Astronomical Society
    I appreciate the opportunity to comment on NASA's 2008 science 
budget from my perspective as president of the American Astronomical 
Society (AAS).
    The AAS believes that NASA's Science Mission Directorate (SMD) 
should be part of the American innovation agenda, which seeks to 
bolster funding for the National Science Foundation (NSF), the 
Department of Energy's (DOE) Office of Science, and the National 
Institute for Standards and Technology (NIST). These agencies have been 
identified as vital to America's leadership in innovation, by training 
a highly-skilled workforce and fostering the discovery and development 
of new ideas. NASA science is a partner in these endeavors. 
Specifically, we advocate for increasing NASA SMD's fiscal year 2008 
budget to $5.566 billion, which is 6 percent over the final fiscal year 
2007 amount and a modest increase over the President's fiscal year 2008 
request.
    The AAS is the major organization of professional astronomers in 
the United States. The basic objective of the AAS is to promote the 
advancement of astronomy and closely related branches of science. The 
membership, numbering approximately 7,000, includes physicists, 
mathematicians, geologists, and engineers whose interests lie within 
the broad spectrum of modern astronomy. AAS members advise NASA on 
scientific priorities, participate in NASA missions, and use the data 
from NASA's outstanding scientific discoveries to build a coherent 
picture for the origin and evolution of the Earth, the solar system, 
our galaxy, and the universe as a whole.
    In the recent past, the astronomical community, working together 
with NASA, has produced a remarkable string of successes that have 
changed our basic picture of the universe. Observations with the Hubble 
Space Telescope (HST) of exploding stars whose light has been traveling 
for half the age of the universe, combined with the exquisite map of 
the glow from the big bang itself from the Wilkinson Microwave 
Anisotropy Probe and information from other observatories, shows that 
the universe we live in is not the universe we see. Mysterious dark 
matter makes the ordinary particles clump together to form stars and 
galaxies. Even more mysterious dark energy makes the expansion of the 
universe speed up. Both of these concepts challenge our understanding 
of the nature of matter and energy in the universe and open up broad 
new vistas for future work. An ambitious set of great observatories, 
now including Spitzer in the infrared and Chandra at X-ray wavelengths, 
is hard at work, enriching our understanding of how the universe works.
    Similarly, exploration of the solar system has been a resounding 
success for NASA, with exciting missions to Mars and to Saturn 
revealing a beautiful and intricate history that is interwoven with the 
history of our planet Earth. The discovery of planets around other 
stars has been a great triumph of the past decade, raising hopes for 
seeing planets like our own Earth, and placing our own solar system, 
and life itself, in a new context.
    NASA's key role in these discoveries makes its science program of 
deep interest to AAS members. In the past, NASA has worked with the 
astronomical community to find the most promising paths forward. The 
James Webb Space Telescope (JWST) is a large program that was endorsed 
by the National Academy of Sciences (NAS) Decadal Survey in astronomy. 
When completed in the next decade, it will help expand the frontier of 
knowledge to the deepest reaches of space and time and into the hidden 
places where stars and planets are formed. The astronomical community 
also recommended, and NASA plans to execute, a wide range of other 
programs--some of moderate scope and others that nourish the 
infrastructure for a healthy and vibrant community. This balanced 
approach has proved best--with a range of opportunities carefully 
crafted to get the best science from NASA's science budget.
    Recognizing the current challenging budget climate, in which 
federal non-security, discretionary spending is declining by about 1 
percent, the current NASA budget for science is nonetheless cause for 
concern. The continuing resolution (CR), now Public Law 110-005, 
provided funding for many federal agencies including NASA for fiscal 
year 2007. NASA science has suffered a $78.8 million shortfall from the 
President's fiscal year 2007 request. The President's fiscal year 2008 
budget request represents a 0.9 percent increase in NASA science 
spending over the fiscal year 2007 request; however, with inflation 
currently around 2 percent, the fiscal year 2008 request still 
represents a decline in real dollars available for research in science 
compared to the President's fiscal year 2007 request. A key question is 
what will become the new baseline for NASA science funding, the fiscal 
year 2007 request or the CR. If the CR is adopted as the new baseline, 
this could represent a loss to NASA science in the out-years of $1 
billion or more.
    The AAS therefore recommends that Congress increase the fiscal year 
2008 budget for NASA science by 6 percent over the CR level. This 
modest increase over the President's fiscal year 2008 request will help 
maintain balance within the science portfolio, which is critical to our 
community. It is important to support small missions and research 
grants to individual investigators. Otherwise, many exciting programs 
to explore the solar system, to detect planets around other stars, to 
measure gravitational waves from astronomical events, to explore black 
holes in all their manifestations, and to seek the nature of the dark 
energy may be threatened. In particular, we advocate for restoring 
funding to the Explorer program and protecting the Beyond Einstein 
mission.
    We further advocate that NASA science should be part of the 
American innovation agenda. Maintaining and strengthening American 
innovation in science and technology has broad bipartisan support, both 
in Congress and the administration. Our recommended increase of 6 
percent in NASA science is smaller than the increases proposed for the 
science component of other agencies identified as strategically 
important for innovation. These include an 8.7 percent increase for 
NSF, a 16 percent increase for Department of Energy's Office of 
science, and nearly 21 percent for NIST (all increases over the CR 
levels). For AAS members, the cuts in NASA's support for science 
threaten to offset or overwhelm the increases that have been aimed at 
improving America's innovation through the NSF, DOE, and NIST. A real 
effort to improve science and engineering in the United States should 
treat NASA's science program as part of the solution. NASA's science 
missions inspire new generations of young people to pursue careers in 
science, engineering, and mathematics and train these students and 
young scientists to become the innovators of the future.
    Finally, the AAS applauds the administration and Congress for 
upholding the priorities of the NAS Decadal Survey in astronomy. We are 
pleased that the development of JWST and HST servicing mission are 
priorities in the new budget, but we stress that balance is critical in 
the science portfolio.
    NASA science has been and continues to be a beacon of innovation 
and discovery by inspiring generations of young people, capturing the 
imagination of the public, developing new technologies, and discovering 
profound insights into the nature of our universe.
    The AAS and its members are prepared to work with Congress and with 
NASA to help find the best way forward. We will give you our best 
advice and we will work diligently to make the most of NASA's 
investment in science.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation
    Madam Chairman and members of the subcommittee: I appreciate the 
opportunity to submit testimony regarding the fiscal year 2008 funding 
request for the National Fish and Wildlife Foundation (Foundation). The 
Foundation respectfully requests that the committee fund these efforts 
at the following levels: $4 million through the National Oceanic and 
Atmospheric Administration appropriation.
    This request lies well within the authorized levels and will allow 
the Foundation to better meet the demand for new or expanded strategic 
conservation programs. The appropriations provided by the committee are 
also used by the Foundation to attract additional funding for 
conservation projects through mitigation, settlements, and direct 
gifts.
    These dollars will be focused on mutually agreed upon projects 
across the country. Furthermore, the appropriated $4 million will be 
turned into a minimum of $8 million, according to the Foundation's 
Congressional Charter which requires a minimum of a 1-to-1 match. We 
have been operating on a 3-to-1 match historically, which means that 
the $4 million has the potential to become $16 million or more for on-
the-ground and in-the-water conservation. One other note of special 
interest is that according to the Foundation's charter, all directly 
appropriated funds have to be obligated to grants as they are not 
available to the Foundation for any direct or indirect expenses.
    Since our inception in 1984 through fiscal year 2006, the 
Foundation has supported over 8,865 grants and leveraged over $374 
million in Federal funds for more than $1.2 billion in on-the-ground 
conservation. This has resulted in more than 18.35 million acres of 
restored and managed wildlife habitat; new hope for countless species 
under stress; new models of private land stewardship; and stronger 
education programs in schools and local communities. We recognize that 
without the seed money this committee provides, many of these 
conservation benefits would not be realized.
    The federal dollars appropriated by this committee allow the 
Foundation to assist NOAA in accomplishing its mission. Whether it 
involves coastal-habitat conservation, species management, or 
conservation education, the Foundation strategically invests the 
federal funds entrusted to us in sound projects. This request would 
allow the Foundation to expand its highly successful grant programs to 
better assist NOAA in maximizing protection and restoration of marine 
and coastal resources. Over the 14 years of the NOAA-Foundation 
partnership, more than $47 million in NOAA funds have been leveraged to 
produce over $142 million for on-the-ground and in-the-water 
conservation. From 2002-2006, 788 projects have been awarded, focusing 
on the conservation needs of at-risk species, habitat enhancement, 
coastal restoration, marine debris clean-up, environmental education, 
and community-based stewardship. With our fiscal year 2006 NOAA 
appropriations, we were able to fund 39 projects, representing over 
$1.4 million in Foundation federal funds, leveraging it with $8.4 
million in other federal and non-federal funds to commit $9.8 million 
for coastal and marine conservation.
    The National Fish and Wildlife Foundation continues to be one of, 
if not the most, cost-effective conservation program funded in part by 
the Federal Government. Congress established the Foundation 23 years 
ago, and since that time the Foundation's vision for more healthy and 
abundant populations of fish, wildlife, and plants has flourished 
through the creation of numerous valuable partnerships. The breadth of 
our partnerships is highlighted through our active agreements with 14 
federal agencies, as well as numerous corporations, foundations, and 
individual grantees. Through these unique arrangements, we are able to 
leverage federal funds, bring agencies and industry together, as well 
as produce tangible, measurable results. Our history of collaboration 
has given way to programs and initiatives such as the Chesapeake Bay 
Small Watershed Grants Program, Chesapeake Bay Targeted Watershed 
Grants, North American Waterfowl Management Plan, the Neotropical 
Migratory Bird Conservation Program, and the National Fish Habitat 
Initiative. With the support of the committee in fiscal year 2008, we 
can continue to uphold our mission of enriching fish, wildlife, and the 
habitat on which they depend.
    Working Marine and Coastal Habitats.--The Foundation and NOAA work 
together to identify the highest priority coastal and marine 
conservation projects to sustain, restore, and enhance marine and 
coastal habitats, as well as increase populations of imperiled marine 
species. Funds available through the NOAA/Foundation partnership seek 
to achieve three specific objectives, through our Marine and Coastal 
Life and Habitats Keystone Initiative. These three objectives include: 
increase and sustain productivity of key spawning grounds and unique 
marine habitats by reducing unintended human impacts; increase 
populations of imperiled marine species; and improve and sustain the 
health of the Nation's major estuaries and the Great Lakes by restoring 
and protecting critical coastal habitat, improving water quality in 
tributaries, and enhancing populations of keystone species.
    Conserving Fish, Wildlife, and Plants.--The Foundation also 
administers several programs which are directed to specific species or 
habitats and which are administered to rally private donations and 
contributions from other agencies around these strategic focus areas. 
Examples of such programs include: the Marine Debris Prevention and 
Removal Program, the Coral Reef Conservation Fund, the National Whale 
Conservation Fund, the Chesapeake Bay Small Watershed Grants Program, 
the Pacific Grassroots Salmon Initiative, the Delaware Estuary Grants 
Program, and the Pinellas County Environmental Fund.
  --Coral Reef Conservation Fund.--Responding to an alarming decline in 
        both the quantity and productive quality of the world's coral 
        reef ecosystems, the Foundation partnered with NOAA to 
        establish the Coral Reef Conservation Fund. Through this fund, 
        the Foundation supports local to ecosystem level projects that 
        restore damaged reef systems and prevent further negative 
        impacts through both on-the-water and up-the-watershed 
        projects. By focusing on specific areas of human impact such as 
        anchor damage and sedimentation, we maximize the outcome of our 
        programs. The Foundation has provided funding for over 166 
        projects with $5.7 million in federal and non-federal funds, 
        leveraged with $9.5 million in non-federal matching funds, for 
        a total of $15.2 million for coral conservation in 35 
        countries, including 4 U.S. States and 8 U.S. territories and 
        freely associated States, giving the program a truly global 
        reach
  --Marine Debris Prevention and Removal Program.--In 2006, the 
        Foundation formed a partnership with the NOAA Marine Debris 
        Program to establish a competitive grants program aimed to 
        foster public and private relationships and support research, 
        prevention, and reduction activities related to the issue of 
        marine debris. Through this program, our goals are to build a 
        well informed public that acts as a steward of coastal and 
        marine ecosystems, thereby sustaining the health and 
        productivity of this ecosystem for the benefit of society as a 
        whole. In 2006, the Foundation awarded 18 projects with over 
        $782,000 in federal funds, which was leveraged with over $1 
        million in non-federal matching funds for projects in 9 States 
        and 2 U.S. territories.
    With our NOAA appropriations, the Foundation also leveraged 
resources to fund projects that directly benefit endangered and 
threatened fish and marine species, including such species as North 
Atlantic right whales, Loggerhead turtles, Hawskbill turtles, Pacific 
coho salmon, and Atlantic salmon. We also measure our success in part 
by preventing the listing of species under the Endangered Species Act, 
as well as by stabilizing and hopefully moving others off the list. We 
invested in common sense and innovative cooperative approaches to 
endangered species, building bridges between the government and the 
private sector.
    New Strategic Plan.--During 2006, the Foundation underwent a 
detailed self-evaluation, which resulted in the development of a new 
strategic plan for the organization. The strategic planning process 
revealed that the Foundation maximizes conservation benefits when it 
targets a series of grants towards a specific geographic region, 
habitat type, or conservation challenge. To ensure that future grants 
achieve a sustainable and measurable conservation impact, the 
Foundation is establishing targeted Keystone Initiatives around the 
core conservation investment areas in which the Foundation has 
historically specialized. The Keystone Initiatives represent the new 
core portfolio of the Foundation's grant making with clearly defined 
long-term goals, well-articulated strategies, and defined budgets to 
reach desired outcomes.
    The four initial Keystone Initiatives, launched by the Foundation 
in 2007, include birds; wildlife and landscape scale habitats; 
freshwater fish and habitats; and marine and coastal life and habitats. 
Additional Keystone Initiatives being developed include wildlife and 
agriculture, wildlife and energy development, invasive species, and 
future conservation Leaders. Each grant approved under a Keystone 
Initiative will be designed to provide a measurable outcome that brings 
us one step closer to the final long-term conservation goal of the 
initiative. Where appropriate, the strategies and outcomes of the 
Foundation's Special Grant programs, such as the Great Lakes 
Restoration Fund, Bring Back the Natives, and the Coral Reef 
Conservation Fund, will be designed to directly contribute to the long-
term Keystone Initiative goal. Through our targeted grants, the 
Foundation seeks to achieve measurable success in ``moving the needle'' 
on these critical conservation objectives over the next 5 to 10 year 
period.
    Accountability and Grantsmanship.--During the strategic planning 
process, Foundation staff spent time listening to feedback from our 
agency partners and grantees. Choke points in our grant making process 
were identified, and the Foundation is in the process of revising 
portions of our grant review and contracting process to ensure we 
maximize efficiency while maintaining strict financial and evaluation-
based requirements. The Foundation has also launched a new website that 
is more user-friendly and content rich than the previous version. This 
new interactive tool will allow the Foundation to improve communication 
with our stakeholders and will help streamline our grant making 
process.
    To ensure that only those grants with the greatest likelihood of 
obtaining conservation outcomes directly related to a Keystone 
Initiative are funded, the Foundation has implemented a thorough review 
process. Applicants are required to submit a pre-proposal which allows 
staff to proactively work with applicants to refine and improve their 
application before submitting a full proposal. All full proposals are 
then submitted to a peer review process which involves five external 
reviews representing State agencies, federal agencies, affected 
industry, environmental non-profits, and academics. Grants are also 
reviewed by the Foundation's Keystone Initiative staff, as well as 
evaluation staff, before being recommended to the board of directors 
for approval. In addition, the Foundation provides a 30-day 
notification to the members of Congress for the congressional district 
and State in which a grant will be funded, prior to making a funding 
decision, according to our congressional charter.
    Basic Facts About the Foundation.--The Foundation is governed by a 
25-member board of directors, appointed by the Secretary of Interior 
and in consultation with the Secretary of Commerce. At the direction of 
Congress, the board operates on a nonpartisan basis. Directors do not 
receive any financial compensation for service on the board; in fact, 
most all of our directors make financial contributions to the 
Foundation. It is a diverse board, and includes the director of the 
U.S. Fish and Wildlife Service, the administrator of the National 
Oceanic and Atmospheric Administration, as well as corporate and 
philanthropic leaders with a tenacious commitment to fish and wildlife 
conservation.
    None of our federally appropriated funds are used for lobbying, 
litigation, or the Foundation's administrative expenses. By 
implementing strategic real-world solutions with the private sector, 
while avoiding regulatory or advocacy activities, we serve as a model 
for developing cooperative solutions to environmental issues. We are 
confident that the money you appropriate to the Foundation is making a 
positive difference.

   NATIONAL FISH AND WILDLIFE FOUNDATION'S FEDERAL APPROPRIATIONS FOR
                          FISCAL YEAR 2006 \1\
                        [In millions of dollars]
------------------------------------------------------------------------
                  Agency Funding Source                   Funding Amount
------------------------------------------------------------------------
Natural Resources Conservation Service..................           2.970
Fish and Wildlife Service...............................           7.656
    Washington Salmon...................................           1.971
    Atlantic Salmon.....................................           0.985
Bureau of Land Management...............................           2.955
Forest Service..........................................           2.637
National Oceanic and Atmospheric Administration.........           1.400
    Pinellas County Environmental Fund..................           0.937
------------------------------------------------------------------------
\1\ We are providing the Foundation's appropriations for the last full
  fiscal year, as we are continuing to work with our agencies to
  finalize our fiscal year 2007 funding allocations.

                                 ______
                                 
Prepared Statement of the National Federation of Community Broadcasters
    Thank you for the opportunity to submit testimony to this 
Subcommittee requesting a $30 million appropriation for the Commerce 
Department's Public Telecommunications Facilities Program (PTFP) in 
fiscal year 2007. As the President and CEO of the National Federation 
of Community Broadcasters, I speak on behalf of 250 community radio 
stations and related organizations across the country including many of 
the new Low Power FM stations. NFCB is the sole national organization 
representing this group of stations, which provide independent local 
service in both the smallest communities and largest metropolitan areas 
of this country. Nearly half of NFCB's members are rural stations, and 
half are controlled by people of color.
    In summary, the points we wish to make to this Subcommittee are 
that NFCB:
  --Supports funding for PTFP that will cover the on-going needs of 
        public radio and television stations.
  --Supports funding for conversion of public radio and television to 
        digital broadcasting.
  --Supports funding to help public and community radio stations 
        prepare to provide emergency information during natural or 
        manmade disasters.
  --Supports restoration of administrative funding for the program 
        which was cut in fiscal year 2005.
    Community Radio supports $30 million in funding for the Public 
Telecommunications Facilities Program in fiscal year 2008. Federal 
support distributed through the PTFP is essential to continuing and 
expanding the public broadcasting service throughout the United States. 
It is particularly critical for rural stations and for those stations 
serving low income communities. PTFP funds new stations, expanding the 
reach of public broadcasting to rural areas and to audiences that are 
not served by existing stations. In addition, it replaces obsolete and 
worn out equipment so that the existing public stations can continue to 
broadcast high quality programming. PTFP funding is critical to 
ensuring public radios' readiness to provide life-saving information in 
case of local disasters, as we have seen during the weather emergencies 
the last few years. Finally, with the advent of digital broadcasting, 
PTFP funding is helping with the conversion to this new technology.
    We support $30 million in funding to ensure that both the on-going 
program--currently funded in fiscal year 2007 at $21.8 million--will be 
continued, and that the increase to $30 million will be available to 
help cover the cost of improving the emergency infrastructure of public 
broadcasting stations. This increase in funding is an urgent need in 
order for stations to withstand and broadcast through extreme weather 
or other emergency situations. In addition, increased funding is needed 
to assist the conversion of public radio and television to digital. 
This is particularly important because the FCC has endorsed a standard 
for digital radio broadcasting, the television conversion deadline is 
imminent, and commercial radio stations are converting to digital 
transmission and public radio should not be left behind.
    PTFP funding is unique. It is the only source of funding available 
to help get new stations on the air and to ensure that public 
broadcasting is available everywhere in the United States. At a time 
when local service is being abandoned by commercial radio, PTFP aids 
communities to develop their own local stations which provide local 
information and emergency notifications.
    Funding from PTFP has been essential to keep public radio stations 
on the air by funding replacement of equipment, often after 20 or more 
years of use. The program is administered carefully to be sure that 
stations are acquiring the most appropriate type of equipment. They 
also determine that equipment is being properly maintained and will not 
fund the replacement of equipment before an appropriate length of time. 
PTFP has also helped bring public radio service to rural areas where it 
is not available. Often they fund translators to expand the coverage of 
an existing station and they help with the planning and equipment needs 
of a new station. Recently, many of these new projects have been for 
Native American controlled stations on Indian Reservations or new local 
Low Power FM installations.
    Federal funding is particularly critical to stations serving rural 
and underserved audiences which have limited potential for fundraising 
because of sparse populations, limited number of local businesses, and 
low income levels. Even so, PTFP funding is a matching program so 
federal money is leveraged with a local commitment of funds. This 
program is a strong motivating factor in raising the significant money 
necessary to replace, upgrade and purchase expensive broadcast 
equipment.
    Community Radio stations need to be prepared to provide continuing 
service during emergency situations. As we saw during the hurricanes 
and severe weather the last couple of years, radio is the most 
effective medium of communication about evacuations, weather forecasts, 
traffic, services available, etc. Since everyone has radios and they 
are portable and battery operated, a radio is the first source of this 
critical information. But stations must have emergency power at both 
the studios and the transmitter in order to provide this service.
    Community Radio supports funding for conversion to digital 
broadcasting for public radio and television. While public television's 
digital conversion is mandated by the Federal Communications 
Commission, public radio is converting to digital to provide more 
public service and to keep up with the market. The digital standard for 
radio has been approved and over 300 public radio transmitters have 
been converted. Most exciting to public radio is that stations can 
broadcast two or more high quality signals, even while they continue to 
provide the analog signal. The development of additional digital audio 
channels will potentially more than double the public service that 
public radio can provide, particularly to unserved and underserved 
communities.
    Community Radio supports additional administrative funding for the 
PTFP. While we thank the Senate for continuing funding of PTFP, 
financial support for the skilled dedicated staff who administer these 
funds was cut nearly in half in fiscal year 2005. Restoration of 
administrative funds to the earlier level will assure that the program 
will be carefully and thoroughly administered.
    Over the last few years, the number of administrative staff for the 
Public Telecommunications Facilities Program has been decreased. With 
fewer Program Officers there is less support for applicants or outreach 
about the program and reduced administrative funding hurts the review 
process. NFCB supports the restoration of these funds.
    Thank you for your consideration of our testimony.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities in 49 of the 50 States (all 
but Hawaii). Collectively, public power utilities deliver electricity 
to one of every seven electric consumers (approximately 44 million 
people), serving some of the nation's largest cities. However, the vast 
majority of APPA's members serve communities with populations of 10,000 
people or less.
    The Department of Justice's (DOJ) Antitrust Division and the 
Federal Trade Commission (FTC) play critical roles in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the repeal of the Public Utility Holding Company Act (PUHCA) included 
in the Energy Policy Act of 2005, the electric utility industry is 
likely to experience an increase in mergers that could result in 
increased market power in certain regions. This development coupled 
with the volatility and uncertainty continuing to occur in wholesale 
electricity markets makes the oversight provided by DOJ and the FTC 
more critical than ever.
    APPA supports adequate funding for staffing antitrust enforcement 
and oversight at the FTC and DOJ. Specifically, we support the 
Administration's request of $241 million for fiscal year 2008 for the 
FTC. We are heartened that the downward trend in funding for the DOJ's 
Antitrust Division over several years has been reversed, and are 
pleased with the Administration's request of $155 million for fiscal 
year 2008.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2008 funding priorities within the Commerce, Justice 
and Science Subcommittee's jurisdiction.
                                 ______
                                 
          Prepared Statement of the Gaviota Coast Conservancy
    Madame Chairwoman and Honorable members of the Subcommittee, I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $1.5 million from NOAA's Coastal and Estuarine Land 
Conservation Program to acquire a 42-acre property at Gaviota Cove in 
California.
    The Gaviota Coast Conservancy is the primary land conservation, 
advocacy group for the Gaviota Coast. Since our incorporation in 1996 
as a non-profit, public benefit organization, we have been working to 
secure permanent protection of the Gaviota Coast's significant 
resources.
    Located in western Santa Barbara County between Coal Oil Point and 
Point Sal, the Gaviota Coast is approximately 100 miles north of Los 
Angeles and lies between the Channel Islands National Marine Sanctuary 
and the Los Padres National Forest. Offering a wide variety of natural, 
recreational and agricultural resources, it is a high priority area for 
conservation and is Southern California's largest remaining stretch of 
pristine coastline. This remarkable 76-mile landscape includes 15 
percent of the Southern California coast, representing about 50 percent 
of its remaining undeveloped coastline. More than 40 sensitive species 
inhabit this area, including the California red-legged frog, western 
snowy plover, southern steelhead trout, southern sea otter, peregrine 
falcon and tidewater goby. More than 525 plant species, representing 
approximately one-half of the plant families found in California, live 
in the Gaviota Coast area. This relatively undisturbed area spans more 
than 30 coastal watersheds, allowing it to serve as a migration 
corridor between inland, mountainous and coastal habitat areas, and 
makes the Gaviota Coast the best opportunity to provide a safe-harbor 
for the threatened biodiversity of Southern California's coastal 
Mediterranean biome. This biome is unique in America.
    The Gaviota Coast also contains some of the most significant 
archaeological sites in California, preserving at least 9,000 years of 
prehistory. The Chumash tribe resided in the area, and sites of several 
Chumash towns, as well as numerous tribal rock art sites, are located 
along the coast. Large cattle ranches and adobes still exist and are 
testimony to the early settlements and agricultural history of the 
region. The Gaviota Coast is a much-loved area for outdoor recreation 
due to its proximity to major metropolitan areas, its scenic vistas, 
rugged beaches, excellent wildlife viewing, and panoramic coastal 
hillsides and mesas. It is home to several state and county parks that 
are popular venues for activities such as hiking, camping, swimming, 
picnicking, hang-gliding, and surfing. A study by the National Park 
Service in 2004 determined that the natural and cultural resources of 
the Gaviota Coast are nationally significant and encouraged efforts to 
conserve them.
    Situated within the Santa Barbara Coast State Seashore, and 
abutting Gaviota State Park on two sides, the 42-acre Gaviota Cove 
property has outstanding natural resource, recreation and scenic 
values. As an in-holding within state park lands, and historically used 
for coastal-dependent industry, this project is an excellent 
opportunity to achieve coastal resource enhancements and public 
recreational access. The property also has several known Chumash 
cultural sites. Gaviota Cove is comprised of a variety of habitat 
types, including grasslands, riparian habitat, willow scrub and coastal 
sage scrub, freshwater aquatic, coastal strand, and marine habitats. 
These habitat types are home to many plant and wildlife species, 
including California thrashers, coyotes, white-crowned sparrows, 
rainbow trout, western fence lizards, snowy egrets, and California 
ground squirrels. Some of the sensitive species that may be found on 
the project site are Gaviota tarplant, southern steelhead, globose dune 
beetle, California red-legged frog, yellow-billed cuckoo, two-striped 
garter snake, San Diego horned lizards, and cactus wren. The western 
portion of the northern parcel and the entirety of the southern parcel 
are designated as environmentally sensitive habitat (ESH) areas under 
state law.
    There are two creeks which run through the property: Alcatraz 
Creek, and Cementerio Creek. Both creeks reach the Pacific Ocean at a 
confluence on the southern part of the property. Documented occurrence 
of southwestern pond turtle, a California species of special concern, 
has occurred on both Alcatraz and Cementerio Creeks. Habitat sustained 
by these blue-line creeks includes riparian woodlands, such as arroyo 
willow and black cottonwoods, eucalyptus stands, oak woodlands, 
chaparral, coastal bluff/sage scrub and native perennial and introduced 
annual grassland communities. The property's southern boundary abuts 
the shoreline's sandy beach. The drainages provide critical corridors 
for wildlife movement and the other habitats provide living space for 
both terrestrial and aquatic species.
    As an addition to Gaviota State Park, this project will expand 
recreational opportunities along this beautiful stretch of Southern 
California coast, and protect the magnificent coastal viewshed of 
Gaviota State Park for visitors on and offshore. The Gaviota Cove 
property offers the unique opportunity to link isolated beach portions 
of the Gaviota State Park, adding more than a quarter-mile of shoreline 
to the park and creating a contiguous corridor of publicly accessible 
beach for 6.5 miles. The Gaviota State Park is an extremely popular 
facility, welcoming 86,000 visitors annually for hiking, soaking in hot 
springs, swimming, diving, surfing, fishing and boating. It currently 
has 41 developed campsites, which are popular and often full to 
capacity. In expanding the state park, this project provides excellent 
opportunities to enhance this public recreation resource, allowing 
State Parks to increase its number of campsites and create and enhance 
new trail linkages.
    Increased demand for housing and other development, coupled with 
the rising value of agricultural land, contribute to the rising 
development pressures on the Gaviota Coast. In fact, the county is 
projected to grow by 50 percent by 2025. The California Wilderness 
Coalition has identified the Gaviota Coast as one of California's ten 
most threatened wild places. Development would threaten the area's 
biodiversity and the agricultural way of life. It would adversely 
compromise the area's scenic vistas, air and water quality, and 
invaluable cultural resources.
    An fiscal year 2008 appropriation of $1.5 million from NOAA's 
Coastal and Estuarine Land Conservation Program (CELCP) is needed to 
acquire and protect this 42-acre property. If added to Gaviota State 
Park, it will increase public beach access, expand recreational 
opportunities, provide much needed visitor facilities, protect scenic 
viewshed, and conserve important wildlife habitat.
    In addition to specifically funding Gaviota Cove, I urge your 
support for a substantial increase in overall funding for the Coastal 
and Estuarine Land Conservation Program in fiscal year 2008 to enable 
the protection of significantly more coastal resources than in previous 
years. While I am pleased that the program has finally been recommended 
in the President's budget for $15 million, this level--while a good 
first step--is inadequate when compared to the needs from across the 
country, and what Congress has historically provided for this program.
    It is well established that coastal land uses can have direct and 
significant adverse impacts on marine resources. In light of the fact 
that most Americans live in coastal counties, resulting in ever-
increasing demands on coastal resources, it is imperative that a high 
priority be placed on coastal, estuarine land conservation if we are to 
properly manage our marine resources.
    Thank you, Madame Chairwoman, for the opportunity to present this 
testimony in support of the Gaviota Cove acquisition and of the CELCP 
program.
                                 ______
                                 
           Prepared Statement of Fight Crime: Invest in Kids
    Ms. Chairman and Members of the Senate Appropriations Subcommittee 
on Commerce, Justice, Science and Related Agencies: Thank your for the 
opportunity to submit this written testimony. My name is Mary Ann 
Viverette. I've been with the Gaithersburg Police Department since 1979 
and Chief since 1986. My public safety career has included service on 
the Executive Committee of the Maryland Chief of Police Association, 
service as a Commissioner with the Commission on Accreditation for Law 
Enforcement Agencies, and I am currently the Immediate Past President 
of the International Association of Chiefs of Police. I am also a 
member of Fight Crime: Invest in Kids, an anti-crime group of more than 
3,000 police chiefs, sheriffs, prosecutors, and victims of violence 
from across the country who have come together to take a hard-nosed 
look at the research about what really works to keep kids from becoming 
criminals.
    As a police chief, I know there is no substitute for tough law 
enforcement. Dangerous criminals must be prosecuted and put behind 
bars. Yet law enforcement leaders like myself know better than anyone 
that we cannot arrest and imprison our way out of the crime problem. 
Fortunately, research--and our experiences--show that targeted 
investments that help kids get a good start in life and that intervene 
effectively to redirect offending juveniles onto a different path can 
prevent crime, and can make our communities safer. The federal Juvenile 
Accountability Block Grant (JABG) and Title II and Title V of the 
Juvenile Justice and Delinquency Prevention Act (JJDPA) provide needed 
support for these evidence-based prevention and intervention 
approaches. The bipartisan Second Chance Act, once enacted, will 
authorize additional support for these approaches. On behalf of my 
fellow law enforcement leaders around the nation, I urge you to 
increase our nation's investments in these proven crime-prevention 
strategies that save lives and taxpayer dollars.
    Programs that connect children to caring adults and provide 
constructive activities, especially during the after-school hours of 3 
p.m. to 6 p.m.--the ``prime time for juvenile crime'' on school days--
are among our most powerful tools for preventing crime. For example, a 
study compared five housing projects without Boys & Girls Clubs to five 
receiving new clubs. At the beginning, drug activity and vandalism were 
the same. But by the time the study ended, the projects without the 
programs had 50 percent more vandalism and scored 37 percent worse on 
drug activity. Similarly, a study of Big Brothers Big Sisters found 
that young people who were randomly assigned to a Big Brother or Big 
Sister mentor were about half as likely to begin illegal drug use and 
nearly one-third less likely to hit someone compared to those who were 
assigned to a waiting list. Despite these proven benefits, more than 14 
million children nationwide still lack adult supervision after school, 
and millions lack a caring, responsible adult mentor in their lives.
    One source of funding for after-school and mentoring programs is 
Title V of the federal Juvenile Justice and Delinquency Prevention Act 
(JJDPA). The Title V Local Delinquency Prevention Grants program is the 
only federal funding source dedicated solely to the prevention of youth 
crime and violence. Almost 1,500 communities have received Title V 
grants since 1994 through a competitive grant process that requires 
states and localities to match at least 50 percent of the grant with 
cash or in-kind contributions.
    For the most dangerous young offenders, especially those who are 
involved in violent gangs, a combination of intensive police 
supervision, expedited sanctions for repeated violence, and expedited 
access to jobs, drug treatment or other services--a carrot-and-stick 
approach--has shown in a number of cities that it can cut homicides 
among violent offenders in high-crime neighborhoods. In Chicago, for 
example, this comprehensive, community-wide approach was tried in a 
group of west side Chicago neighborhoods with a long history of high 
levels of homicide, with another set of dangerous neighborhoods on the 
south side of Chicago serving as the control group. In the carrot-and-
stick approach area there was a 37 percent drop in quarterly homicide 
rates when the project was implemented, while the decline in homicides 
in the other neighborhood during the same period was 18 percent. In a 
number of locations, Juvenile Accountability Block Grant (JABG) or 
JJDPA state formula grant funds have been used to support these 
efforts.
    Effective interventions that incorporate community sanctions have 
also been shown to reliably cut crime. One such program is the 
Functional Family Therapy (FFT) program. FFT works to engage and 
motivate youth and their families to change behaviors that often result 
in criminal activity. In one evaluation from Salt Lake City, families 
with troubled youths were randomly assigned to either a group that 
received FFT or one that did not. The youths who families received FFT 
were half as likely to be re-arrested as the youth whose families did 
not receive the family therapy. By reducing recidivism among juvenile 
offenders, FFT saves the public an average of $32,000 per youth 
treated.
    Similarly, the Multi-Systemic Therapy (MST) program targets kids 
who are serious juvenile offenders by addressing the multiple factors--
in peer, school, neighborhood and family environments--known to be 
related to delinquency. One MST study followed juvenile offenders until 
they were, on average, 29-years-old. Individuals who had not received 
MST were 62 percent more likely to have been arrested for an offense, 
and more than twice as likely to be arrested for a violent offense. It 
is also less expensive than other mental health and juvenile justice 
services like residential treatment and incarceration, saving the 
public $4.27 for every dollar invested.
    The transition of juvenile offenders from confinement to ``life on 
the outside'' presents great risks and opportunities for young people 
and society. Juveniles released from confinement still have their 
likely ``prime crime years'' ahead of them. Perpetrators over age 17 
commit 85 percent of all violent crimes and young adults aged 18 to 21 
account for a greater percentage of crime than any other four-year age 
group. Unsuccessful transitions into the community result in an 
alarmingly high recidivism rate for juvenile offenders of 55-75 
percent. Fortunately, the likelihood that young people will 
successfully transition back into society after confinement improves 
markedly with comprehensive, research-based reentry efforts. 
Comprehensive reentry programs are especially effective among young 
people. With their brain development still in progress, young ex-
offenders are more amenable to effective behavior modification 
interventions, thus saving lives, anguish, and public tax dollars.
    Effective offender reentry efforts include programs like 
Multidimensional Treatment Foster Care (MTFC). Foster care may sound 
like a pass for juveniles who should be paying a more severe price for 
the crime they committed. But for teens who are often used to running 
the streets, and who see a month in custody as just another chance to 
socialize with delinquent friends or learn new criminal behaviors, this 
is a more controlled experience and a tough intervention. MTFC provides 
specially trained foster parents and ongoing supervision by a program 
case manager, as well as frequent contact and coordination of services 
with a youth's parole or probation officer, teachers, work supervisors 
and other involved adults during and after a youth's out of home 
placement. Compared to similar juveniles placed in non-secure group 
facilities, the MTFC approach cuts the average number of repeat arrests 
for seriously delinquent juveniles in half, and six times as many of 
the boys in MTFC as boys in a group home were not arrested again. MTFC 
is also cost-effective: it saves the public an average of over $77,000 
for every juvenile treated.
    The bi-partisan Second Chance Act of 2007 (H.R. 1593/S. 1060) is a 
step toward reducing the high recidivism rate among juvenile and adult 
offenders. The legislation authorizes assistance to states and 
localities to develop and implement strategic plans for comprehensive 
efforts to enable ex-offenders to successfully reenter their 
communities such as: family reunification, job training, education, 
housing, substance abuse and mental health services. The bill would 
also provide for research on reentry, as well as create a national 
resource center to collect and disseminate information on best 
practices in offender reentry. This legislation is moving towards 
enactment in 2007, with funding first authorized for fiscal year 2008.
    JABG and JJDPA Title II state formula grants already support 
research-proven programs like FFT, MST and MTFC. But funding falls far 
short of meeting the need. In 2002, approximately 150,000 juvenile 
offenders were placed out-of-home, and nearly 400,000 others were 
placed on probation. Some juvenile offenders must be placed in secure 
custody to protect public safety, and many others are first-time 
offenders who will not become repeat offenders and therefore are not 
high-risk enough to justify the expense and intrusion of the 
aforementioned programs. But even if only half of those on probation 
and half of those placed out of home are eligible for these effective 
intervention programs, the number of young offenders who could benefit 
from evidenced-based approaches would still amount to 7 times the 
35,000 total currently being served by MST, FFT, and MTFC. In other 
words, these programs will have to expand 7 times their current 
capacity nationwide before they start running out of youth who could 
and should be receiving their services.
    Unfortunately, the Administration's fiscal year 2008 budget 
proposes to eliminate all of the JJDPA funding sources and create a 
single, new ``Child Safety and Juvenile Justice'' block grant. This 
block grant would be funded at a level that is 25 percent lower than 
the total fiscal year 2007 funding for the programs eliminated. We 
encourage Congress to demonstrate its commitment to crime prevention by 
rejecting proposed cuts and block-granting, and by increasing funding 
for federal juvenile justice and delinquency prevention programs. We 
urge you to restore funding for Title II State Formula Grants to $89 
million, Title V funding to $95 million, and JABG funding to $250 
million--levels appropriated by Congress in fiscal year 2002--and 
ensure that the new Second Chance Act of 2007 is fully funded.
    If we do not invest in research-proven crime-prevention programs 
for America's most vulnerable kids, many of them will grow up to become 
America's most wanted adults. By failing to adequately invest in proven 
crime-prevention strategies, Congress is not only failing to facilitate 
a better future for millions of kids but is also permitting the 
cultivation of criminals--jeopardizing the safety of all Americans for 
years to come.
    Thank you for this opportunity to present our views on how your 
Subcommittee can help to reduce crime and make us all safer.
                                 ______
                                 
      Prepared Statement of the West Creek Preservation Committee
    Madam Chairwoman and Honorable members of the Subcommittee, I 
appreciate and am honored by the opportunity to provide this testimony 
in support of an appropriation of $1,100,000 from NOAA's Coastal and 
Estuarine Land Conservation Program to protect the 10-acre West Creek 
Confluence property in the city of Independence, Ohio.
    In addition, I would like to urge your support for a substantial 
increase in overall funding for the Coastal and Estuarine Land 
Conservation Program in fiscal year 2008. The coastal resources of this 
nation, including Ohio's, are under intense and increasing development 
pressure. It is of the utmost importance that we balance future 
development with greater protection of our coastal resources and 
natural heritage. For instance, in Ohio alone approximately $10 billion 
is generated annually from Lake Erie tourism and recreation-related 
activities, which are dependent upon a healthy and aesthetically 
pleasing coastal area.
    Ohio is not alone in regard to its need for greater coastal 
resource protection. Across this great nation coastal areas are among 
the most densely populated and heavily utilized. We are pleased that 
the program has been recommended in the President's budget for $15 
million. However, when compared to the needs from across the country 
and to what Congress has historically provided for this program, we 
believe that the protection and future wellbeing of our coastlines and 
coastal watersheds requires a substantially greater investment.
    To be specific, the protection and future wellbeing of Ohio's 
coastal resources and coastal watersheds are why I have traveled to be 
before you today. I am the Watershed Coordinator for the West Creek 
Preservation Committee, a citizen-led nonprofit organization that works 
within the Greater Cleveland area of the Cuyahoga River and Lake Erie 
watersheds. Our mission is to conserve, protect and restore the 
environmental, recreational and cultural resources of this area. Our 
thousands of supporters and members are comprised of a diverse mixture 
ranging from your average citizens, to business leaders, to elected 
officials, all with the common goal of protecting environmental 
quality, furthering outdoor urban recreational opportunities and 
quality of life, and increasing economic prosperity.
    In the ten years that the West Creek Preservation Committee has 
been in existence we have protected approximately 500 acres of urban 
and suburban greenspace including the creation of Cleveland's newest 
Metropark, we have created and restored acres of urban wetlands, we are 
developing a recreational trail system and greenway that will span 
multiple communities and be a part of and connect with the Ohio & Erie 
Canalway National Scenic Byway, and we are undertaking one of the most 
ambitious and important stream restoration projects in the Greater 
Cleveland area.
    We are proud to be working with the City of Independence, Ohio, and 
numerous other project partners, including The Trust for Public Land, 
the Northeast Ohio Regional Sewer District and Cleveland Metroparks, on 
what we consider to be one of our most critical projects to date, the 
West Creek Confluence Project. Located within Cuyahoga County in the 
City of Independence, and within the Cuyahoga River Area of Concern, 
the West Creek Confluence Project involves the acquisition, and future 
complete restoration, of ten acres of land at the confluence of two 
extremely important waterbodies, West Creek and the Cuyahoga River.
    The property contains approximately 850 feet of West Creek main 
stem and includes its confluence with the Cuyahoga River. The property 
is positioned at the northern end of the Cuyahoga Valley National Park, 
is adjacent to the Ohio & Erie Canalway National Scenic Byway, and will 
provide an access point to the Cuyahoga Valley Scenic Railroad and to 
the Ohio & Erie Canal Towpath Trail.
    Several decades ago the property was developed with what is now an 
empty warehouse, which severely impacted West Creek and has contributed 
to extensive flooding, degraded aquatic and riparian habitat, and 
enormous influxes of nonpoint source pollution to the Cuyahoga River 
and Lake Erie Basin.
    Once permanently protected the Confluence Property will be fully 
restored and the empty warehouse and parking lot removed. Proper 
hydrology will be restored to the waterway by re-meandering it through 
the property and re-connecting it with its floodplain. Aquatic and 
riparian habitat will be restored to the stream and an expansive array 
of floodplain wetlands and vernal pools will be created to increase 
ecological habitat and diversity for everything from waterfowl to 
amphibians, to store and retain stormwater during flooding events, and 
to filter and reduce sediment influxes and other nonpoint source 
pollution, one of the greatest contributors to water quality problems 
within Lake Erie.
    Perhaps most importantly, the West Creek Confluence Project will 
herald in a new era of sustainable land use for the Cuyahoga River 
floodplain and its development away from previously poor and 
incompatible land uses. This project will not only improve the 
environment and Lake Erie Basin water quality, it will also create a 
dynamic recreational and educational focal point along the Ohio & Erie 
Canalway Scenic Byway that will attract large numbers of citizens, 
tourists and new business opportunities.
    When completed, as visitors veer west from the Ohio & Erie Canal 
Towpath Trail onto the West Creek Greenway Trail System, they will see 
a meandering, willow-lined West Creek, they will see a broad and 
vibrant floodplain, and they will see numerous floodplain wetlands and 
vernal pools and the animals that inhabit them. The West Creek 
Confluence Project will become a gateway to the endless possibilities 
that exist within the realm of urban coastal conservation and 
stewardship.
    Realizing the importance and value of this project, the State of 
Ohio (through the Clean Ohio Conservation Fund), the Northeast Ohio 
Regional Sewer District (through the Water Resources Restoration 
Sponsorship Program) and the City of Independence are all making 
substantial monetary investments in the West Creek Confluence Project. 
The appropriation of $1,100,000 from NOAA's Coastal and Estuarine Land 
Conservation Program will leverage and be matched with the committed 
funding from the State of Ohio, Northeast Ohio Regional Sewer District 
and City of Independence to bring the protection of this important 
property through to fruition.
    Millions of Ohioans depend upon Lake Erie for clean drinking water, 
recreational enjoyment and economic prosperity. It is the eleventh 
largest freshwater lake in the world and, of the five Great Lakes 
basins, it is the most densely populated and most affected by both 
urbanization and agriculture. Lake Erie supports one of the world's 
most significant commercial freshwater fisheries and the largest sport 
fishery among the five Great Lakes. Lake Erie alone produces more fish 
for human consumption than the other four Great Lakes combined!
    Ohio's North Coast has seen a significant increase in recreation 
and tourism related revenue over the past decade, which is directly 
attributable to the environmental and aesthetic health and wellbeing of 
Lake Erie. Over 7 million people recreate at Ohio's portion of the Lake 
Erie Basin annually resulting in the sustenance of a quarter of a 
million jobs and netting $5.8 billion in yearly wages. An additional 
approximately $10 billion per year is generated from Lake Erie tourism 
and recreation-related activities.
    Lake Erie is key to Northern Ohio's future economic prosperity! The 
West Creek Confluence Project represents a key step in sustaining and 
improving Lake Erie watershed water quality and environmental health!
    In fiscal year 2008, $1.1 million is needed from NOAA's Coastal and 
Estuarine Land Conservation Program to complete the protection of the 
West Creek Confluence Property. Substantial State of Ohio and local 
investment has been secured to match this Coastal and Estuarine Land 
Conservation Program funding request. However, due to time limitations 
associated with some of the State and local matching funds it is 
critical that this Coastal and Estuarine Land Conservation Project be 
funded in fiscal year 2008.
    On behalf of the West Creek Preservation Committee, our members, 
supporters and citizens of Greater Cleveland and Northeast Ohio, I 
thank you, Madam Chairwoman and Honorable members of the Subcommittee, 
for the opportunity to provide this testimony.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) encourages 
Congress to appropriate at least the President's fiscal year 2008 
request of $6.43 billion for the National Science Foundation (NSF). 
Providing at least $20 million more than the request would enable NSF 
to increase funding for the Biological Sciences Directorate (BIO) by 
roughly 7 percent, an increase over the requested 4.1 percent and just 
below the agency-wide average increase for the various research 
directorates.
    AIBS is a nonprofit scientific association dedicated to advancing 
biological research and education for the welfare of society. Founded 
in 1947 as a part of the National Academy of Sciences, AIBS became an 
independent, member-governed organization in the 1950s. AIBS is 
sustained by a robust membership of some 5,000 biologists and nearly 
200 professional societies and scientific organizations; the combined 
individual membership of the latter exceeds 250,000. AIBS advances its 
mission through coalition activities in research, education, and public 
policy; publishing the peer-reviewed journal BioScience and the 
education website ActionBioscience.org; providing scientific peer 
review and advisory services to government agencies and other clients; 
convening meetings; and managing scientific programs.
    Invigorating our nation's innovation enterprise, improving science 
education, and addressing energy, security, and environmental problems 
are bipartisan national priorities. NSF is the primary federal research 
agency with the capacity to support the breadth of scientific research 
programs that have the potential to drive discovery to meet these 
priorities. Moreover, NSF-sponsored biological and environmental 
sciences research will contribute to the development of sustainable and 
cost-effective solutions for these challenges.
    NSF's BIO is vital to our nation's continued leadership in the 
biological sciences, the fields of science dedicated to understanding 
how organisms and ecological systems function. Research disciplines 
heavily dependent upon the directorate include botany, ecology, 
microbiology, zoology, basic molecular and cellular biology, 
systematics and taxonomy. Equally important, NSF provides essential 
support for our nation's biological research infrastructure, such as 
field stations and natural science collections (e.g. university-based 
natural history museums), and education and training programs for 
undergraduate, graduate and post-doctoral students.
    According to NSF data, BIO provides 68 percent of federal grant 
support for fundamental biological research conducted at our nation's 
universities and other nonprofit research centers.
    The Administration's fiscal year 2008 budget request would provide 
$5.131 billion to support disciplinary research programs within the 
Research and Related Activities (R&RA) account. This funding level 
would provide an average 7.7 percent increase for the various programs 
within the R&RA account, and a 4.1 percent increase for the biological 
sciences.
    Members of the biological sciences community appreciate the 
proposed increase. However, there is growing concern that BIO funding 
is not keeping pace with the need and demand for biological sciences 
research. When adjusted for inflation, the requested fiscal year 2008 
budget for BIO places the program only slightly above the 2001 funding 
level and near the 2003 funding level. Scientists dependent upon BIO 
grants for research support are feeling the pressure. Over the past 
four years, the research grant funding rate for BIO has been lower than 
the NSF-wide funding rate. Yet the number and scope of problems 
requiring biological information continues to increase. In 2006, the 
research grant funding rate was only 14 percent compared with an 
agency-wide rate of 21 percent.
    Under the requested budget, BIO would receive $633 million in 
fiscal year 2008 to support its six core programs. These programs and 
their proposed funding levels are: Molecular and Cellular Biosciences 
$116.37 million; Integrative Organismal Systems $105.49 million; 
Environmental Biology $114.66 million; Biological Infrastructure $96.1 
million; Emerging Frontiers (a cross-discipline, ``virtual'' 
directorate) $99.16 million; and Plant Genome Research $101.2 million.
    The fiscal year 2008 budget request includes important funding for 
the National Ecological Observatory Network (NEON), the first national 
ecological measurement and observation system designed to answer 
regional- to continental-scale scientific questions. NEON is an 
innovative facility that is designed to transform the way science and 
education are conducted by enabling integration of data from natural- 
to human-dominated systems and from genomes to the biosphere. A total 
of $24 million has been requested for NEON in fiscal year 2008. Roughly 
$16 million would be funded from BIO and $8 million would be funded 
from the Major Research Equipment and Facilities Construction (MREFC) 
account.
    Research support is only one of NSF's important missions. NSF is a 
vital component of our nation's formal and informal science education 
system. Whether through programs such as Research Experiences for 
Undergraduates, Integrated Graduate Education and Research 
Traineeships, or other fellowships for graduate and post-doctoral 
researchers, NSF provides the resources required to recruit, educate 
and train our next generation of scientists.
    The informal science education programs supported by the Education 
and Human Resources Directorate could benefit from increased funding. 
Economic growth demands a scientifically aware and technically skilled 
workforce--one in which employees have the scientific awareness 
adequate to generate the next great idea. Moreover, we live at a time 
when the citizenry is increasingly called upon to make informed 
decisions. Informal science education programs, whether through a 
natural history museum, science center or other venue, reach large 
audiences and provide a valuable mechanism for reaching the general 
public.
    Thank you for your thoughtful consideration of this request and for 
your prior support of the National Science Foundation. If you have any 
questions or require additional information, please contact me at 202-
628-1500.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History
              about the american museum of natural history
    The American Museum of Natural History (AMNH) is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its joint 
mission of science and public education. It is renowned for its 
exhibitions and collections of more than 32 million natural specimens 
and cultural artifacts. With approximately 4 million annual on-site 
visitors--approximately half of them children--it is one of the 
largest, fastest growing, and most diverse museums in the country. 
Museum scientists conduct groundbreaking research in fields ranging 
from all branches of zoology, comparative genomics, and informatics to 
Earth science, biodiversity conservation, and astrophysics. Their work 
forms the basis for all the Museum's activities that seek to explain 
complex issues and help people to understand the events and processes 
that created and continue to shape the Earth, life and civilization on 
this planet, and the universe beyond.
                 the american museum--nasa partnership
    NASA and the AMNH have been engaged in a multi-year partnership 
founded on a joint commitment to cutting-edge research and the 
integration of that research into unique educational tools and 
resources. The AMNH has worked with the Agency to develop innovative 
technologies and resources that provide an unparalleled platform for 
interpreting, displaying, and distributing NASA content to audiences 
nationwide.
  --The Museum has built a set of singular national resources that 
        bring cutting-edge science and integrated NASA content to total 
        audiences of more than 15 million in New York City, across the 
        country, and around the world. In the New York area alone, the 
        Museum reaches nearly four million annual visitors, including 
        more than 450,000 children in school groups and more than 5,000 
        teachers, with millions visiting online.
  --We have launched a successful program to disseminate project 
        resources to informal learning venues nationally and 
        internationally, with Science Bulletins already on view in 39 
        locations and Space Shows at 32, with more being added.
  --We have created Science Bulletins--technologically innovative, 
        immersive multimedia science encounters, presenting space, 
        Earth, and life science news and discoveries in visually 
        stunning feature documentaries, data visualizations, and weekly 
        updates.
  --The Museum has made numerous technological breakthroughs--it has 
        established leadership in science visualization and high 
        resolution renderings of massive data sets; it has converted 
        its Space Shows to digital format, making the AMNH the only 
        full planetarium dome content provider that crosses all major 
        platforms; it has pioneered a unique online distribution 
        network that each week streams new science content in HD MPEG2 
        encodes to partners across North America and most recently, has 
        simplified the technical requirements of the network, including 
        new server and/or lower bandwidth for downloading, so that 
        content is more accessible to more venues.
  --AMNH routinely hosts major events celebrating NASA's mission 
        highlights and milestones. Recent events have included live, 
        large-scale events of broadcasts of the New Horizons launch, 
        Stardust sample return, and Mars Reconnaissance Orbiter arrival 
        at Mars.
  --The Museum's educational mission is fueled by and reflects cutting-
        edge science, including the work of our scientists in 
        collaboration with NASA centers and researchers.
    Building on this foundation, the Museum seeks in fiscal year 2008 
to advance the AMNH-NASA collaboration--with a particular focus on 
scaling up to reach even larger audiences--with a program for 
communicating current science content, and content about NASA science 
and missions in particular, to diverse national audiences. The Museum's 
activities will include the development of current NASA science 
education resources, such as Science Bulletins, and continuing to scale 
up their national distribution for presentation in public spaces and 
for classroom use.
    Science Bulletins (SB) is a nationally distributed, multimedia 
science exhibition program targeted to informal learning settings. It 
presents cutting-edge research and discoveries in visually compelling 
feature documentaries and updates in flexible, large-screen, high-
definition video and interactive kiosk versions, as well as in a free 
online version adapted for classroom use. Our SB program for the 
following year includes expanding dissemination significantly, 
developing new visualization methods for use in the development and 
distribution of SB, and reaching out in diverse ways to the formal 
education sector to maximize access to the Science Bulletins at the K-
12 level.
    Museum activities for the next year also include R&D on new 
techniques for visualizing massive space and Earth science data sets, 
creating visualization tools for presenting NASA missions and other 
dynamic science stories, and for advancing innovative solutions to 
technical challenges in presenting digital planetarium shows. AMNH will 
conduct extensive internal and external evaluation of this program's 
activities.
    Recognizing its potential to support NASA in its goals to pioneer 
the future in space exploration, scientific discovery, and aeronautics 
research; to develop a balanced overall program of science, 
exploration, and aeronautics; and to establish new and innovative 
programs to enhance understanding of our Earth, other planets, 
asteroids, and comets in our solar system, as well as the search for 
life around other stars, the Museum looks forward to advancing its 
successful multi-year collaboration with NASA and to contributing its 
unique science, education, and technological capacity to helping the 
Agency to meet these goals.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History
              about the american museum of natural history
    The American Museum of Natural History (AMNH) is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million natural specimens and cultural 
artifacts. With nearly four million annual visitors, its audience is 
one of the largest, fastest growing, and most diverse of any museum in 
the country. Museum scientists conduct groundbreaking research in 
fields ranging from zoology, comparative genomics, and informatics to 
Earth, space, and environmental sciences and biodiversity conservation. 
Their work forms the basis for all the Museum's activities that seek to 
explain complex issues and help people to understand the events and 
processes that created and continue to shape the Earth, life and 
civilization on this planet, and the universe beyond.
    The Museum's Center for Biodiversity and Conservation, founded in 
1993, is dedicated to enhancing the use of scientific data to mitigate 
threats to global biodiversity, and to integrating this information 
into the conservation process and disseminating it widely. It conducts 
conservation-related field projects around the world, trains 
scientists, organizes scientific symposia, presents public programs, 
and produces publications geared toward scientists, policy makers, and 
the lay public. Each spring, the CBC hosts symposia that focus on 
conservation issues. The 2006 symposium, Conserving Birds in Human-
Dominated Landscapes, focused on unique challenges to and key 
opportunities for invigorating bird diversity in the areas most heavily 
impacted by human activities, and the 2007 symposium, Small Matters: 
Microbes and Their Role in Conservation, will bring together a diverse 
group of microbiologists and conservation biologists to explore broad 
questions of the planet's microbial diversity and how conservation 
practices take microbial life into account.
    The Museum's renovated Hall of Ocean Life, reopened in spring 2003, 
is a major focal point for public education on marine science issues. 
Drawing on the Museum's world-renowned expertise in Ichthyology as well 
as other areas of Vertebrate as well as Invertebrate Zoology, the Hall 
is pivotal in educating visitors about the oceans' key role in 
sustaining life on our planet. The renovated Hall of Ocean Life, 
together with the new Halls of Biodiversity, Planet Earth, and the 
Universe and the rebuilt Hayden Planetarium (part of the new Rose 
Center for Earth and Space) provide visitors with a seamless 
educational journey from the universe's beginnings to the formation and 
processes of Earth to the extraordinary diversity of life on our 
planet.
                     common goals of noaa and amnh
    The National Oceanic and Atmospheric Administration (NOAA) is 
committed to understanding and predicting changes in the Earth's 
environment and to conserving and managing coastal and marine resources 
to meet the nation's needs. NOAA's Education Plan outlines a broad 
vision for reaching various audiences to build awareness and knowledge 
of issues related to the world's atmosphere, climate, oceans, and 
coastal ecosystems. Addressing the needs of teachers, students, and 
policy makers as well as the general public, the agency's goals include 
enhancing environmental literacy and knowledge, application of NOAA 
science, and development of a capable and diverse workforce for 
environmental science.
    The American Museum of Natural History shares NOAA's commitment to 
these environmental goals and to the scientific research and public 
education that support them. Since its founding in 1869, the American 
Museum has pursued its mission of scientific investigation and public 
education. Its exhibitions and collections serve as a field guide to 
the entire planet and present a panorama of the world's cultures. 
Museum collections of some 32 million specimens and cultural artifacts 
provide an irreplaceable record of life. More than 200 Museum 
scientists conduct groundbreaking research in fields as diverse as 
systematic and conservation biology, astrophysics, and Earth and 
biodiversity sciences. The work of scientific staff fuels exhibitions 
and educational programming that reach annually an on-site audience of 
nearly four million visitors--nearly half of them children.
                       marine sciences initiative
    In fiscal year 2004, as a result of Congressional leadership, the 
Museum entered into a partnership with NOAA that launched a multi-year 
marine science and education initiative. Support for this initiative, 
which encompasses a broad range of education and research activities 
closely aligned with NOAA goals and purposes, was continued in fiscal 
year 2005 (and recommended in the fiscal year 2007 report), and further 
leveraged by Museum scientists who successfully secured competitive 
NOAA funding. Building upon this strong foundation, and in concert with 
the strategic priorities of NOAA and the Museum, we seek $1 million in 
fiscal year 2008 to join with NOAA in aquatic research and education 
activities that promote environmental literacy. Over a one year period, 
activities will include: ecosystem-based research, training, and 
research tool development concerning oceans and aquatic environments; 
professional development for teachers; special programs on New York 
waterways for New York City schoolchildren; and public education 
programs--including some built around a special water exhibition--that 
will increase understanding of the importance of healthy oceans and 
atmosphere.
    Recognizing its potential to support NOAA in its goals to 
understand and predict changes in the Earth's environment; to conserve 
and manage coastal and marine resources; and to protect, restore, and 
manage the use of coastal and ocean resources to meet our Nation's 
economic, social, and environmental needs, the Museum looks forward to 
advancing a partnership with the agency in an education, outreach, and 
research initiative to promote public understanding and stewardship of 
marine environments.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the university community involved in weather and climate 
research and related education, training and support activities, I 
submit this written testimony for the record of the Senate Committee on 
Appropriations, Subcommittee on Commerce, Justice and Science. UCAR is 
a 70-university member consortium that manages and operates the 
National Center for Atmospheric Research (NCAR) and additional programs 
that support and extend the country's scientific research and education 
capabilities. UCAR is supported by the National Science Foundation 
(NSF) and other federal agencies including the National Aeronautics and 
Space Administration (NASA), and the National Oceanic and Atmospheric 
Administration (NOAA).

    Innovation research is about chemistry and physics, but it's also 
about earth science. Understanding the earth is a basic necessity, 
because we need to understand our planet and its environments in order 
to make sound policy decisions. And if we don't understand the earth, 
we can't save it.----Barbara Mikulski, Chair, Appropriations Commerce, 
Justice, Science Subcommittee

    The American Competitiveness Initiative (ACI) is proposed to double 
the physical sciences research budget by 2016, thereby strengthening 
this nation's economic competitiveness. In this most critical moment 
for the health of our planet and therefore the future of life as we 
know it, the geosciences contribute knowledge that is absolutely 
necessary to understanding climate, weather, the dynamics of water 
resources, solar effects on Earth, space weather, the interactions of 
Earth's systems, energy resources, geologic hazards, and all aspects of 
the global oceans. The economic effects are very substantial, with 
estimates of the component of the U.S. economy exposed to risks 
associated with weather and climate variability reaching $3 trillion 
annually.
    The strength of the country's R&D investment is a result of 
multiple agencies playing numerous, complementary and interlocking 
roles. Through NSF, NASA and NOAA funding of the geosciences, critical 
information is provided for economic planning and to produce a better 
equipped work force to deal with environmental challenges. The 
atmospheric sciences community strongly supports the nation's 
innovation agenda--an investment that will pay great dividends for this 
country if it is funded over the next ten years. We urge the Committee 
to do everything possible to include the geosciences within NSF, as 
well as NASA and NOAA science programs, in this initiative.
National Science Foundation (NSF)
    NSF plays a unique role among all federal agencies in strengthening 
the ability of the country to: create new ideas; develop new 
technologies; create a diverse, knowledgeable workforce; and set new 
standards that challenge any boundaries of invention and intellect. 
These are all key components of our capacity to compete globally in the 
21st Century and are fundamental drivers of wealth producing growth and 
job creation. I urge the Committee to support the President's overall 
fiscal year 2008 request of $6.4 billion for the National Science 
Foundation and, within NSF, the request of $5.1 billion for Research 
and Related Activities (R&RA), the heart of NSF's scientific 
enterprise. In addition, I urge the Committee to support the 
Administration's goal of doubling the research budget of NSF over the 
course of a decade, realizing the promise of the National Science 
Foundation Authorization Act of 2002.
    Geosciences Directorate (GEO).--GEO is the principal source of 
federal funding for university based, basic research in the 
geosciences, providing 61 percent of the total federal support in these 
areas. As stated directly in the fiscal year 2008 budget request, ``GEO 
directly contributes to innovation and competitiveness through its 
broad portfolio of investments in fundamental research, facilities, and 
instrumentation that enable discovery, innovation, and integrated 
education and research activities that increase the effectiveness of 
the science and engineering workforce.'' I urge the Committee to 
support the President's fiscal year 2008 request of $792.0 million for 
the Geosciences Directorate and, within GEO, to provide the President's 
request of $240.8 million for the Atmospheric Sciences Division which 
provides resources for the atmospheric sciences community that are 
critical to the physical safety of our citizens, our economic health, 
and global issues of national security such as severe weather hazards, 
climate change, the security of our communications infrastructure, and 
the environmental health of the planet.
    Education and Human Resources (EHR) Directorate.--Key to the 
success of the innovation agenda and to the future of this country, is 
the improvement of math and science education. However, EHR funding has 
declined steadily for the last several years, particularly in the K-12 
and undergraduate areas. We believe those reductions should be reversed 
so that a strong NSF presence in the K-12 and undergraduate areas can 
be maintained. The strengthening of science education, so critical to 
the nation's future, must be intimately connected with the best 
scientific practices and results being produced via the NSF scientific 
directorates. We appreciate the recognition in the request of the value 
of digital libraries to major communities of learners. Within the 
Division of Undergraduate Education (DUE), the National STEM Education 
Digital Library (NSDL) receives a modest increase of $500,000. The 
value of this program continues to rise as its capacity to bring first-
rate education tools into the classroom is broadened and enhanced. I 
urge the Committee to provide as healthy an increase as possible, above 
the request of $750.6 million, for the Education and Human Resources 
Directorate so that it may play its rightful, critical role in 
achieving the country's ACI goals.
National Aeronautics and Space Administration (NASA)
    NASA's Science Mission Directorate (SMD) plays a unique and central 
role in our nation's ability to attract students into science and 
engineering fields, and to understand the universe, our own planet's 
environmental complexities and its relationship to the Sun, and major 
factors contributing to climate change. Despite this essential role, 
NASA's fiscal year 2008 federal budget request would significantly 
decrease the science portfolio, defer or eliminate many of the nation's 
most successful and promising missions, and fund only a relatively 
small number of scientific missions (albeit promising ones) in the next 
five to ten years. While the manned program is important, it cannot 
come at the expense of this critical investment. Within SMD, NASA also 
plays a unique and central role in the study of the complexities of the 
Earth system and the equally complex relationship of the Sun to Earth. 
NASA's continued funding for Landsat Data Continuity Mission (LDCM), 
Glory, NPOESS Preparatory Project (NPP), and the Global Precipitation 
Measurement (GPM) mission to maintain current schedules is strongly 
endorsed. However, given the recent release of the National Research 
Council's Decadal Survey on Earth Science, NASA should increase its 
funding levels for earth sciences consistent with the report's 
recommendations to ensure that future critical missions are supported.
    Moreover, NASA's investment in Earth Science Research and Analysis 
(R&A) and the missions and tools associated with this research makes 
possible the study of Earth from space providing data that simply are 
not available from any other sources. These observations, used in 
research and in the construction of computer models to predict weather, 
climate, and natural hazards, provide a critical basis from which our 
understanding of our planet evolves and on which informed policy 
decisions, both long term and emergency response, can be made. Given 
the tremendous importance of this underlying activity, I urge the 
Committee to restore Research and Analysis (R&A) programs to funding 
levels at least commensurate with fiscal year 2006 levels.
    In addition to investments in Earth-Sun System, NASA must preserve 
the essential PI-led programs that serve as a primary conduit through 
which the nation's best scientists can engage NASA in cutting-edge 
problems. NASA should support the Explorer, Discovery, and New Frontier 
programs and fully commit to missions unless there are technical or 
cost related issues. When NASA promotes premature termination of those 
missions for non-technical or cost reasons, it is in danger of sending 
the message to the community that it is an unreliable partner and that 
this is not a field that future scientists and engineers should pursue. 
Moreover, balanced, highly skilled teams of talent are lost, as are 
discoveries on the immediate horizon. NASA also sends a troubling 
message to graduate students and young investigators by delaying new 
opportunities in these programs. The long delay in Explorer 
opportunities from a once annual opportunity runs the risk of depleting 
the nation's pipeline of scientists and program managers capable of 
leading the next generation of earth and space missions.
    While the exploration initiative and International Space Station 
are of great human interest and of scientific value, we are far from 
unlocking all the mysteries of our own planet. NASA programs that are 
in progress and others that are yet to be implemented will enable us to 
protect space vehicles, astronauts, and satellites from the devastating 
radiation of solar storms; mitigate some of the property damage and 
prevent some of the deaths caused by severe weather; and help us to 
mitigate, understand, and cope with the inevitable effects of natural 
and human-induced climate change. These programs are critical to the 
health of our economy, to the health of the Earth, and to our national 
security. As the Administration's new vision for U.S. space exploration 
unfolds, I urge the Committee to protect the vibrant NASA science 
accounts and missions, current and planned, that make possible the 
study of our own planet and the environment that sustains life on 
Earth.
National Oceanic and Atmospheric Administration (NOAA)
    NOAA's contributions to the nation's safety, economy and 
environment more than justify increased investment in its research and 
education programs, its personnel and related scientific support 
facilities. One of NOAA's most important contributions is its support 
for the weather enterprise--a partnership between government, academic 
and private sector organizations. For example, NOAA maintains a world-
class satellite and surface-based observational system without which 
weather research and operational forecasts simply could not function. 
NOAA also makes its own key contributions to both research and to 
developing and maintaining operational systems. Without the R&D and 
operations behind the accurate forecasts and warnings that moved tens 
of thousands of people out of the path of Hurricane Katrina, the number 
of deaths caused directly by the storm would have been catastrophic. 
This is just one example of the manner in which NOAA provides a 
critical link that often means the difference between life and death, 
between research results, research applications, technology 
development, and operations.
    We strongly support an appropriation of $4.5 billion for NOAA in 
fiscal year 2008--a level recommended by the Senate for the past two 
fiscal years and endorsed by the House Oceans Caucus and the Friends of 
NOAA Coalition. The fiscal year 2008 request is $3.8 billion, a 
decrease of more than $96.0 million from the fiscal year 2006 enacted 
level. We believe that under-funding NOAA is a false economy that will 
degrade critical weather and climate services all too often taken for 
granted. For NOAA to address all areas of concern and priority that 
have been identified by Congress and that are listed below, and to 
restore core funding that has decreased in recent years, I urge the 
Committee to fund NOAA at $4.5 billion for fiscal year 2008 and to do 
so while maintaining vital support for other portion's of the 
Subcommittee's research and development portfolio.
    National Weather Service (NWS).--The fiscal year 2008 President's 
request for NWS contains modest growth above the fiscal year 2007 
request and joint resolution. This amount will modestly help to ease 
demoralizing pressures put on NWS operations staff in recent years. 
Unfortunately, several important programs continue to fare poorly. The 
Space Environment Center (SEC) provides space weather and solar 
radiation warnings for, among other things, modern telecommunications 
and electricity grid operations. Yet the fiscal year 2008 request is 
only $6.2 million, down from $7.3 million in fiscal year 2007. The NOAA 
Profiler Network (NPN) gathers vertical wind data of proven value for 
weather prediction and severe storm warnings. We appreciate the stated 
commitment to beginning the NPN conversions needed to avoid a near 
complete shutdown by 2010, but note that the fiscal year 2008 request 
would leave 90 percent of the conversions to be completed in only two 
years. Additional funds in the PAC account for NPN may provide a more 
realistic completion schedule. The U.S. Weather Research Program 
(USWRP) request reduces funding to multi-national cooperative research 
efforts by $1.5 million, in particular pulling out of the THORPEX 
Pacific-Asia Regional Campaign (T-PARC) designed to improve pacific 
coast winter storm forecasts. This would renege on U.S. commitments and 
slow forecast improvements. I urge the Committee to increase the 
President's fiscal year 2008 request of $903.5 million for the NWS by 
the amount necessary, approximately $3.5 million to fund SEC, NPN, and 
THORPEX at reasonable levels.
    Office of Oceanic and Atmospheric Research (OAR).--The OAR fiscal 
year 2008 budget request is $368.8 million, a decrease of over $10.0 
million from the fiscal year 2006 enacted level. The fiscal year 2008 
request will allow modest increases for implementation of the National 
Integrated Drought Information System (NDIS) and improving hurricane 
intensity research, extremely important and timely progress that we 
welcome. The climate research programs of OAR, including the 
competitive grants program within Climate and Global Change, have been 
combined into a new account titled, Competitive Research Program. Since 
the overwhelming percentage of the programs funded within this account 
are operated by NOAA and not open to competition, this new title is 
misleading. However, many of the programs within this account are 
certainly of importance to the atmospheric sciences community, in 
particular the extramural, merit-based grants program which could 
address shortfalls in critical areas such as badly needed improved 
observations provided through programs such as ARGO, if it were fully 
funded. I urge the Committee to provide at least the President's fiscal 
year 2006 enacted level of $379.6 million for OAR in fiscal year 2008 
in order to allow for a robust and truly competitive extramural climate 
research program.
    National Environmental Satellite, Data and Information Service 
(NESDIS).--NESDIS is responsible for managing all aspects of NOAA's 
remotely gathered environmental data that form the basis for 
environmental research meeting the needs of policy makers and users. 
Continued support for the Global Earth Observation System of Systems 
(GEOSS) is appreciated, but the overall NESDIS request is down as is 
the request for the National Data Centers which are of critical 
importance in making data available to researchers and policy makers. 
Our community is well aware of the significant budget problems that the 
National Polar-orbiting Operational Environmental Satellite (NPOESS) 
will surely cause as it becomes operational. The NPOESS program is 
essential to maintaining and upgrading a comprehensive satellite and 
surface observational system, 40 percent of which, according to a 
recent NRC report, is quickly coming to the end of its functional life. 
At a time when the nation should be fixing the NPOESS problem, we do 
not understand how NESDIS could be slated for a budget cut. I urge the 
Committee to protect other NOAA research and operational programs that 
serve this nation well, while addressing the NPOESS issue and giving 
NESDIS the resources it needs in fiscal year 2008 to keep this country 
ahead of all others in our ability to gather environmental data that 
are essential for policy decisions, the management of resources, and 
the health of our economy.
    National Ocean Service (NOS) and Ocean Research Priorities Plan.--
NOAA is the nation's preeminent agency for ocean research and for the 
transfer of research results into products and services that affect the 
health of the oceans, coastlines, and coastal water sheds; the nation's 
economy; and the well being of many U.S. citizens. In 2004, the U.S. 
Commission on Ocean Policy recommended approximately $3 billion in 
projects to improve the state of our oceans, yet NOAA's budget has 
fared poorly since then and many ocean programs of NOAA have been cut. 
There is an urgent need to implement programs such as the Integrated 
Ocean Observing System at this particular time when our environment is 
changing rapidly and we need to monitor changes in the oceans as well 
as interactions between the atmosphere and oceans. I urge the Committee 
to fund NOS at the fiscal year 2006 enacted level of $590.4 million in 
fiscal year 2008.
    The Administration has recently completed and released an 
interagency Ocean Research Priorities Plan and implementation strategy 
in a report entitled Charting the Course for Ocean Science in the 
United States for the Next Decade. This plan is an important first step 
toward building the scientific foundation to improve society's 
stewardship and use of, and interaction with, the ocean and 
understanding its impact on our weather and climate systems. I urge the 
Congress to examine this interagency plan closely--particularly as it 
relates to NSF and NOAA--and provide as much support as possible for 
its implementation.
    On behalf of the UCAR community, I want to thank the Committee for 
your stewardship of the nation's scientific enterprise and your 
understanding that the future strength of the nation depends on the 
investments we make in science and technology today.
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
    Dear Chairwoman Mikulski and Ranking Member Shelby: We, the Board 
of Directors of the National Marine Sanctuary Foundation, are writing 
as supporters of the oceans programs of the National Oceanic and 
Atmospheric Administration (NOAA). We strongly encourage you to 
consider appropriations for NOAA at the $4.5 billion level for fiscal 
year 2008.
    This investment in NOAA yields great returns for the nation, 
especially when you consider that over half of the nation's gross 
domestic product is generated in coastal counties and adjacent waters, 
yielding $2.5 trillion. Through its weather forecasting, nautical 
charting, fisheries management, hazard mitigation, and ocean protection 
and management responsibilities, no other federal agency affects this 
country's 300 million Americans every day the way NOAA does. An 
investment of $4.5 billion averages out to just $15 per person 
annually.
    Despite the many benefits NOAA provides, shifts in funding 
priorities in recent years have led to substantial cuts in key NOAA 
programs with long-standing reputations for excellence. The National 
Marine Sanctuary System (NMSS), for example, is a crucial thread in the 
larger fabric of ocean science, conservation and education. To enhance 
and sustain the effectiveness of the system, we strongly urge you to 
fund NMSS at no less than $78 million for fiscal year 2008, which would 
restore the fiscal year 2005 enacted level and provide a $10 million 
increase to support the system's growth since then.
    The National Marine Sanctuary System includes 14 sites nationwide 
that serve as living laboratories, classrooms, and playgrounds for all 
Americans by making areas of the ocean realm manageable and accessible 
for state and local partners, research centers, educators, and other 
partners. The most recent addition to the system is the newly 
designated (June 2006) Northwestern Hawaiian Islands Marine National 
Monument, which provides 140,000 square miles with the nation's highest 
form of marine environmental protection, while preserving access for 
native cultural activities and allowing for carefully regulated 
educational and scientific activities.
    During this fiscal year 2008 appropriations process, we urge you to 
be the ocean champion that this country so desperately needs by 
supporting a $4.5 billion appropriation for NOAA, which would 
collectively provide critical funding for many important ocean programs 
and activities around the nation, including the National Marine 
Sanctuary System, the Ocean Exploration Program, the National Sea Grant 
College Program, the Education Initiative, and many others. Such NOAA 
programs are not only vital to our nation's environment, economy, and 
competitiveness, but also to the health and well being of every 
resident of your state. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Thank you for the opportunity to appear before this Committee and 
provide oral testimony on the Department of Commerce fiscal year 2008 
appropriations. We support full funding for the NOAA Fisheries and 
NOAA-National Ocean Service (NOS) budgets that include appropriations 
necessary for key Federal and State partnerships with the twenty Treaty 
Indian Tribes in Western Washington. We would like to highlight the 
following requests:
           summary of fiscal year 2008 appropriations request
    NWIFC Specific Requests:
  --$100 million for the Pacific Coastal Salmon Recovery Fund with a $9 
        million allocation for the twenty affected Treaty Tribes in 
        Western Washington for their management responsibilities and 
        the Northwest Indian Fisheries Commission along with support 
        language (NOAA/National Marine Fisheries)
  --$500,000 for Coastal Marine Resource Management
$100 million for the Pacific Coastal Salmon Recovery Fund with a $9 
        million allocation for the twenty affected Treaty Tribes in 
        Western Washington and the Northwest Indian Fisheries 
        Commission
    The Pacific Coastal Salmon Recovery Fund (PCSRF) is a multi-state, 
multi-tribe program established by Congress in fiscal year 2000 with a 
primary goal to help recover wild salmon throughout the Pacific 
Northwest and Alaska. The PCSRF seeks to aid the conservation, 
restoration and sustainability of Pacific salmon and their habitats by 
financially supporting and leveraging local and regional efforts. 
Recognizing the need for flexibility among Tribes and the States to 
respond to salmon recovery priorities in their watersheds, Congress 
earmarked the funds for salmon habitat restoration, salmon stock 
enhancement, salmon research, and implementation of the 1999 Pacific 
Salmon Treaty Agreement and related agreements. PCSRF is making a 
significant contribution to the recovery of wild salmon throughout the 
region. Since the program's inception, Pacific coastal Tribes, 
including the 20 Treaty Tribes in Western Washington, who are members 
of the NWIFC, have used PCSRF monies to remove 79 fish passage 
barriers-opening up 47 stream miles; restore 282 miles of instream 
habitat; restore 747 acres and 113 stream miles of riparian habitat; 
restore 129 acres of wetland habitat and protect 288 acres of habitat 
through land acquisition, easement or lease. The Tribes are using these 
funds to implement the recovery plan for ESA-listed Puget Sound Chinook 
recently approved by NOAA. However, even though Tribes were to receive 
at least a 10 percent set aside from PCSRF funding every year, the $90 
million base dropped to $67 million in fiscal year 2006 and Tribes were 
disproportionately cut to $4.4 million. Restoration of these funds to 
support this important recovery work by the Tribes is vital.
$500,000 for Coastal Marine Resource Management
    The NOAA/Marine Sanctuary Program has provided nominal funding from 
its base to enable the four coastal Tribes to effectively participate 
in sanctuary management, based on the federal/state/tribal Memorandum 
of Understanding that established the Intergovernmental Policy Council 
earlier this year. National programs currently are in place and budgets 
exist and are funded for the NOAA/National Marine Sanctuary Program. 
Early planning and negotiation has occurred, setting the framework for 
Pacific Ocean planning. This funding will allow Tribes to build their 
staffing expertise and support their policy involvement in the later 
detailed work processes.
    The economic value associated with effective marine resource 
protection is huge. Not only are marine areas crucial for our natural 
resources and those that use them; they are bridges of commerce between 
nations and continents. Healthy oceans are essential if we value stable 
climates that will sustain our economies and our lives. Tribes must be 
partners in the efforts to research, clean up and restore the environs 
necessary to deal with such problems as:
  --Damage to Dungeness Crab Fisheries--The State commercial crab 
        season annually nets more than 20 million pounds of Dungeness 
        crab, valued at nearly $1 billion. Tribes presently harvest a 
        fraction of that amount. Yet declining salmon runs caused by 
        lost and degraded habitat have made fisheries such as those for 
        Dungeness crab increasingly important to Tribal communities.
  --Groundfish, such as black cod, whiting and halibut have also grown 
        in economic importance to Tribes. Unfortunately, just as 
        coastal Treaty Tribes are beginning to fully access some of 
        their treaty-reserved harvest of groundfish, several rockfish 
        species have declined sharply. As a result, severe harvest 
        restrictions have had to be implemented, threatening the 
        cultural, spiritual and economic vitality of coastal Treaty 
        Tribes.
    As co-managers of groundfish with the Federal and State 
governments, Tribes want to work collaboratively to address a 
significant lack of data on groundfish populations. Better data will 
enable Tribes to make more informed management decisions. Better data 
also facilitates the move to an ecosystem-based management approach 
that takes into consideration the differences among groundfish 
populations in different areas.
    Tribes have proven that we can bridge different interests for the 
good of the whole. Tribes have been actively involved in marine issues 
off the coast of Washington. As described earlier, Tribes, NOAA and the 
State of Washington have jointly signed a working MOU to guide Olympic 
Marine Sanctuary planning and implementation. The Tribes also 
participate in the State Ocean Policy Workgroup. Besides State and 
Federal government partners, the Tribes work closely with business, 
industry, sportsman and commercial fishing groups, environmental and 
community groups and individuals. Incidentally, Tribes are also key 
partners in the Puget Sound Shared Salmon Strategy and the Puget Sound 
Partnership. Tribal leaders have consistently been early advocates, 
leaders and technicians as these efforts were brought to fruition.
                               background
    When our ancestors signed treaties, ceding millions of acres of 
land to the United States government, they reserved fishing, hunting 
and gathering rights in all traditional areas. These Constitutionally-
protected treaties, the Federal Trust Responsibility and extensive case 
law, including the U.S. v. Washington Decision of 1974, all 
consistently support the role of Tribes as natural resource managers, 
on and off reservation. In Washington State, these provisions have 
developed into a generally successful co-management process between the 
Federal, State and Tribal governments. The co-management route is the 
one and only path that leads to true sustainability in our region, and 
is the tool that must be used to meet the many environmental challenges 
we face, such as polluted and over-appropriated waters, species decline 
and climate change. Treaties are nation-to-nation accords, and Tribes 
have always been outstanding natural resource managers and stewards of 
the land.
    However, the Federal government has chosen to cut funding to Tribal 
natural resource management programs over the past six years. There is 
no question that this jeopardizes the bond of trust between our 
governments. It also jeopardizes management programs and infrastructure 
critically important to co-management and to the health and vitality of 
natural resources, and the Tribal and non-tribal people they sustain. 
The timing of funding cuts could not have been worse. We are facing 
many environmental and natural resource management challenges in the 
Pacific Northwest, caused by human population expansion and urban 
sprawl, increased pollution problems ranging from storm water runoff to 
de-oxygenated or ``dead'' areas in the Hood Canal, parts of Puget Sound 
and in the ocean off the coast. The pathway to the future is clear to 
us. The Federal, State and Tribal governments must strengthen our bond 
and move forward, together, with the determination and vigor it will 
take to preserve our heritage. Together, we must focus on the needs of 
our children, with an eye on the lessons of the past.
                              our message
    Our message to you now is that achieving such objectives requires 
adequate funding. The Tribes strive to implement their co-management 
authority and responsibility through cooperative and collaborative 
relationships with the state and local communities. We constantly seek 
ways to restore and manage these precious natural resources in a manner 
that can be supported by all who live in this area. The work the Tribes 
do benefits all the citizens of the State of Washington, the region and 
the nation. But the increasing challenges I have described and the 
growing demand for our participation in natural resource/environmental 
management requires increased investments of time, energy and funding. 
Restoring and protecting these natural resources is essential to the 
economy and the quality of life that is so valued by those who live in 
the Northwest.
    We are sensitive to the budget challenges that Congress faces. We 
recognize that this Administration has greatly reduced the allocation 
to discretionary domestic spending during the last several years, which 
makes it increasingly difficult to address the many requests you 
receive. Still, we urge you to maintain and increase the allocation and 
appropriations for priority ecosystem management initiatives. The need 
for an ecosystem-based management approach for Washington's marine 
waters have come into sharp focus in recent years. Major studies by the 
U.S. Commission on Ocean Policy and the Pew Charitable Trust, and the 
appearance of the low-oxygen dead zones are clear signals that the 
health of our rivers and marine waters is in rapid decline. In its 
report, ``An Ocean Blueprint for the 21st Century,'' the Ocean 
Commission essentially concluded that the oceans are sick, and 
estimated the costs for reversing declines and restoring coasts and 
oceans nationwide at about $4 billion annually. Follow through on that 
report has obviously not approached that level of investment--and it 
might not for some time. But, for the sake of sustainable health, 
economies and the natural heritage that sustains them, it is critically 
important for Congress to do more than it has, and to direct federal 
agencies to do even more to coordinate their efforts with State and 
Tribal governments.
    In Washington State, the Ocean Policy Workgroup, created by Gov. 
Chris Gregoire, was an outgrowth of the Ocean Commission. This group 
consists of 20 members, made up of state agency heads, legislators, the 
Governor's Office and Tribes. Among the group's recommendations was the 
creation of a governing board and council, with representatives from 
management agencies and Tribes, scientific communities, and stakeholder 
groups, to establish management needs, align research priorities and 
monitor the progress through specific work plans. We have been actively 
engaged in this process, and see great value in continuing our 
participation. We also look forward to increased participation in 
multi-state agreements and efforts on the Pacific Coast as well as the 
Puget Sound Estuary. Tribes hope to stay active with the Ocean Policy 
Workgroup, as well as with such programs as the Oil Spill Advisory 
Committee. Early this year, the coastal Treaty Indian Tribes, the State 
of Washington and the U.S. Government created a policy council to guide 
the Olympic Coast National Marine Sanctuary. An MOA between the parties 
has resulted in the creation of an Inter-governmental Policy Council 
with members from each coastal Tribe and the State to ensure 
coordinated and comprehensive management of the sanctuary and its 
resources. Related to all of these efforts, we look forward to 
participating in the development of a coast-wide cooperative ecosystem 
management approach in response to the Ocean Commission Report.
    As frequently attributed to Chief Seattle (Sealth), Tribes believe 
all things are connected. That is why we believe only through a 
holistic ecosystem management approach can we find success in achieving 
a healthy environment and robust natural resources. We believe failure 
to deal with the natural resource/environmental challenges forced upon 
us, with an ecosystem approach, can only result in ruinous impacts on 
treaty-protected resources.
    All of this requires adequate funding.
                               conclusion
    Clearly, Western Washington Tribes are leaders in the Northwest 
salmon recovery effort. The Tribes possess the legal authority, 
technical and policy expertise, and effective programs to address 
impacts on wild salmon from harvest and hatcheries. The Tribes are 
strategically located in each of the major watersheds, and no other 
group of people knows salmon like the Tribes. No one else so deeply 
depends on salmon for their cultural, spiritual and economic survival 
either, although the habitat and salmon restoration work we do will 
definitely benefits everyone who lives here. Tribes seize every 
opportunity to coordinate with other governments, and non-governmental 
entities, to avoid duplication, maximize positive impacts and emphasize 
the application of holistic ecosystem management. We continue to 
participate in salmon recovery, habitat restoration, etc. on an equal 
level with the State, because we understand the great value of such 
cooperation. It is said that salmon are our miners' canary. They 
absolutely depend on clean water and healthy habitat--and so do we. We 
ask Congress to help us in the effort to restore salmon, other species 
and habitat by supporting our funding requests.
    I thank the Committee for allowing me this opportunity to make 
these budget requests of the fiscal year 2008 Appropriations for the 
Department of Commerce.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers
                              introduction
    Thank you, Senator Mikulski, Senator Shelby, and other 
distinguished members of the Subcommittee, for this opportunity to 
express support for the Census Bureau and the National Science 
Foundation (NSF), two agencies important to the Population Association 
of America and the Association of Population Centers (PAA/APC).
           background on the paa/apc and demographic research
    The PAA is an interdisciplinary, scientific organization comprised 
of over 3,000 research professionals, including demographers, 
economists, sociologists, and statisticians. The APC is a similar 
organization comprised of over 30 universities and research groups that 
foster collaborative demographic research and data sharing, translate 
basic population research for policy makers, and provide educational 
and training opportunities in population studies.
    Demography is the study of populations and how and why they change. 
Demographers, as well as other population researchers, collect and 
analyze data on trends in births, deaths, immigration and disabilities 
as well as racial, ethnic and socioeconomic changes in populations. 
Among the major policy issues, population researchers study the 
demographic causes and consequences of population aging, trends in 
fertility, marriage, divorce and their effects on the health and well 
being of children, and immigration and migration and how these patterns 
affect the ethnic and cultural diversity of our population and the 
nation's health and environment.
    PAA/APC members rely on a number of federal agencies charged with 
funding demographic research and generating reliable, accessible data. 
The ability of our members to produce meaningful research, often used 
to inform policy decisions, requires the use of substantial data sets 
and support for research projects and research training.
                           the census bureau
    The Census Bureau is the premier source of information about the 
American people and the U.S. economy. In addition to the decennial 
census and the American Community Survey, the Census supports a variety 
of surveys to measure changes in individual and household demographic 
and economic conditions. PAA and APC members rely on accessible data 
produced by the Census Bureau to conduct their research.
                      national science foundation
    The mission of NSF is to promote the progress of science; to 
advance the national health, prosperity, and welfare; and to secure the 
national defense. The demography of our population directly impacts the 
health, prosperity, welfare, and security of our nation. NSF support of 
demographic research, particularly its support of large-scale 
longitudinal surveys, such as the General Social Survey and Panel Study 
of Income Dynamics, is central to the agency's mission and essential 
for the field of population research. NSF provides about 20 percent of 
all federally supported basic research conducted by America's colleges 
and universities, including basic behavioral and social research. 
Demographic research also depends on support from NSF for support of 
individual research projects and research centers.
                            recommendations
    PAA and APC urge you to support the Administration's request for 
the Census Bureau, which is $1.23 billion in fiscal year 2008. 
Substantial preparation is required to ensure the success of an 
accurate 2010 Census and fully implemented American Community Survey. 
In 2008, the Census Bureau will be conducting the only dress rehearsal 
of the decennial census. The rehearsal, which will be conducted in San 
Joaquin County, California, and nine counties in the Fayetteville area 
of North Carolina, will evaluate the integrated census plan in a 
census-like environment. Also, in 2008, the Bureau will design and test 
a system for capturing and processing census data, open 12 regional 
census centers nationwide, and verify address information submitted by 
state, local, and Tribal governments. All of these key planning, or 
ramping up, activities are central to the success of the 2010 Census. 
Thus, it is imperative the Bureau receive the Administration's request 
in 2008. Receiving anything less than the President's request, 
jeopardizes the accuracy of the 2010 Census, increasing the chances of 
over counts, undercounts, and, ultimately, geographic misallocations of 
federal resources, and threatens the availability of key demographic 
and economic data researchers and policymakers require.
    PAA and APC, as members of the Coalition for National Science 
Funding, support the President's budget request for NSF in fiscal year 
2008, which is $6.43 billion. This budget will enable the NSF Social, 
Behavioral and Economic Science Directorate (SBE) to continue its 
support of social science surveys and a rich population research 
portfolio. Furthermore, the proposed budget will enable SBE to fully 
implement the Science of Science and Innovation Policy initiative. The 
goal of this initiative is to develop an evidence-based platform from 
which policymakers and researchers may assess the impacts of the 
Nation's science and engineering enterprise.
    The Census Bureau and the National Science Foundation support, 
indirectly and directly, the collection and availability of rich data 
sources to PAA/APC members. Our economists, statisticians, and social 
survey design experts rely on federally supported data to conduct their 
research and inform public policy. Investments in these data sets are 
investments in good policy.
    Thank you for considering our requests and for supporting federal 
programs that benefit the field of demographic research.
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    Madam Chair and Members of the Subcommittee, on behalf of the 
National Association of Marine Laboratories (NAML) I am pleased to 
submit this statement in strong support of the research and education 
programs under the subcommittee's jurisdiction that are vitally 
important for a vibrant oceans, coastal, and Great Lakes research and 
education enterprise. I will focus my remarks on four key areas: 
federal extramural research funding, innovation and competitiveness, 
implementation of ocean commission recommendations and other federal 
ocean research reports, and ocean education, literacy and workforce 
development.
    NAML (www.naml.org) is a nonprofit organization of over 120 
institutions employing more than 10,000 scientists, engineers, and 
professionals and representing ocean, coastal and Great Lakes 
laboratories stretching from Maine to the Gulf of Mexico, Guam to 
Bermuda, and from Alaska to Puerto Rico. NAML labs support the conduct 
of high quality ocean, coastal and Great Lakes research and education 
in the natural and social sciences and the effective use of that 
science for decision-making on the important issues that face our 
country.
federal support for extramural ocean, coastal and great lakes research 
                           and infrastructure
    NAML strongly urges federal commitment to enhance support for 
cutting-edge ocean, coastal, and Great Lakes research and 
infrastructure across federal funding agencies.
    The marine sciences have much to offer the Nation as it seeks to 
strengthen its ability to innovate and compete in today's global 
economy. They are inherently interdisciplinary, address science, 
technology, engineering, and mathematics (STEM) disciplines, push the 
envelope in terms of technology development, test the boundaries of our 
data collection and analysis systems, and offer an effective training 
ground for future scientists and engineers. NAML asks that the value of 
extramural research funding at all relevant federal agencies not be 
overlooked, but recognized as essential to the overall progress of 
coastal, ocean and Great Lakes science and education. Further, in order 
to support this research and ensure that this country is achieving the 
best possible results, all types of infrastructure-marine laboratories, 
observatories, ships, underwater vehicles, and satellites-must be 
supported across the board.
  --National Science Foundation.--NAML supports increased federal 
        funding for the National Science Foundation (NSF) consistent 
        with the President's budget request of $6.5 billion for fiscal 
        year 2008. Basic research and the transfer and use of the 
        knowledge developed through research are vital for the long-
        term economic competitiveness and national security of this 
        Nation. NSF provides vital support for basic research and 
        education which enhances public understanding of the Nation's 
        oceans, coastal areas, and the Great Lakes. NSF also provides 
        important support for basic laboratory facilities, 
        instrumentation, support systems, computing and related 
        cyberinfrastructure, and ship access. The final report of the 
        U.S. Commission on Ocean Policy makes several recommendations 
        on the need to develop and enhance ocean, coastal and Great 
        Lakes research infrastructure. To that end, NAML strongly 
        supports the development of the Ocean Observatories Initiative 
        at NSF. Further, NAML urges the Subcommittee to significantly 
        enhance the NSF Major Research Instrumentation (MRI) program 
        and its Field Stations and Marine Laboratories (FSML) program. 
        FSML is of particular interest to marine labs as it provides 
        researchers with access to state of the art instrumentation for 
        research and education and necessary cyberinfrastructure and 
        data management systems that compliment the Ocean Observatories 
        Initiative. We urge the Subcommittee to double the modest FSML 
        budget from $2.5 million to $5 million for fiscal year 2008 and 
        further request that the program ultimately be increased to $10 
        million annually.
  --National Oceanic and Atmospheric Administration.--NAML requests a 
        top-line appropriation of $4.5 billion for NOAA for fiscal year 
        2008. This is consistent with the position take by the Friends 
        of NOAA (www.friendsofnoaa.org) coalition which represents a 
        diverse group of NOAA stakeholders.
      A Congressionally requested study of NOAA's research programs, 
        entitled, Review of the Organization and Management of Research 
        in NOAA completed August 2004, concluded that extramural 
        research is critical to accomplishing NOAA's mission. The 
        access to such enhanced research capacities provides NOAA with 
        world-class expertise not found in NOAA laboratories; 
        connectivity with planning and conduct of global science; means 
        to leverage external funding sources; facilitation of multi-
        institution cooperation; access to vast and unique research 
        facilities; and access to graduate and undergraduate students. 
        Academic scientists also benefit from working with NOAA, in 
        part, by learning to make their research more directly relevant 
        to management and policy. It is an important two-way 
        interaction and exchange of information.
      NAML strongly supports robust NOAA extramural research activities 
        expressed though such programs as the National Sea Grant 
        College Program, the National Undersea Research Program (NURP), 
        Ocean Exploration, research related to aquaculture, invasive 
        species, and the various joint and cooperative institutes 
        supported by NOAA. The Bush Administration has proposed to 
        maintain the Sea Grant program at $55 million for the third 
        straight year. Sea Grant is already feeling the pinch of a 
        flat-funding environment and the President's request will only 
        further hinder the programs' ability to address local, regional 
        and national ocean research and education needs. A budget of 
        $72 million for Sea Grant will allow the program to mend past 
        cuts and address emerging needs facing our coasts. In addition, 
        the Bush Administration has proposed to the merge NURP with the 
        Ocean Exploration program. NAML hopes that if or when this 
        merger comes to fruition the new program will still provide an 
        extramural research component that is so valued by the research 
        community. While the merger of the two programs is still under 
        development, we support funding NURP at $20 million and Ocean 
        Exploration at $28 million for fiscal year 2008. These noted 
        partnership programs are not only consistent with the findings 
        of the August 2004 review of NOAA research, but are also 
        consistent with NOAA's missions. As such they should be 
        strongly supported and made accessible to the ocean, coastal, 
        and Great Lakes research community on a competitive basis.
      NAML is encouraged that the Administration has included in its 
        budget request for fiscal year 2008 a line for the development 
        of an Integrated Ocean Observing System (IOOS) within NOAA with 
        $16 million set aside for initial funding. However, the amount 
        needed to sustain and enhance current observing system efforts 
        by the research community is closer to $100 million annually. 
        Integrated observations offer critical information on coastal 
        processes necessary for addressing issues, such as the health 
        of humans and marine life, weather and climate nowcasts and 
        forecasts, homeland security, and resource management. Much 
        work is still needed to shape the federal government's 
        involvement in IOOS and larger global observing efforts. NAML 
        urges the Subcommittee to provide adequate funding for IOOS in 
        fiscal year 2008 consistent with the needs of the community.
  --National Aeronautics and Space Administration.--NASA's support for 
        earth and space sciences is vital in helping us better 
        understand our planet. NASA's Earth Science Applications theme 
        benchmarks practical uses of NASA-sponsored observations from 
        Earth observation systems and predictions from Earth science 
        models. The National Academy of Sciences released a report \1\ 
        this year which calls on NASA to ``renew its investment in 
        Earth observing systems and restore its leadership in Earth 
        science and applications.'' NAML is one of many groups that 
        believe we need a balanced investment in NASA that will 
        maintain a strong and vibrant earth and space science 
        enterprise. If we are concerned about the fate of the planet, 
        NASA's support for science is absolutely crucial to 
        understanding and ultimately deciding how to address the 
        concerns we are facing. NAML urges the Subcommittee to renew 
        its investment in the NASA Earth Science budget for fiscal year 
        2008.
---------------------------------------------------------------------------
    \1\ Earth Science and Applications from Space: National Imperatives 
for the Next Decade and Beyond, Committee on Earth Science and 
Applications from Space: A Community Assessment and Strategy for the 
Future, National Research Council, January 2007.
---------------------------------------------------------------------------
                     innovation and competitiveness
    NAML strongly supports efforts by the Administration and Congress 
to strengthen the nation's position as a world leader in scientific 
innovation and competitiveness.
    As the Nation seeks to expand its investment in the physical 
sciences to increase its international competitiveness, NAML calls on 
the Subcommittee to recognize the integrated and strategic relationship 
between all scientific and engineering disciplines and to support an 
enhanced investment in science and technology across the board as part 
of any long-term economic competitiveness policy. NAML is encouraged 
that the federal government has begun focusing on the physical sciences 
for targeted funding increases, particularly through efforts to double 
the budget of the National Science Foundation (NSF) over the next 10 
years. However, we must ensure that the entire breadth of the physical 
sciences, which include the earth and ecosystem sciences as well, is 
supported so we do not hinder this nation's true innovative potential. 
Other federal agencies involved in the ``physical sciences'' need to be 
supported within the context of innovation, namely the extramural 
research programs within the National Oceanic and Atmospheric 
Administration (NOAA) and the National Aeronautics and Space 
Administration (NASA). Improvements in the quality of education 
provided to our students with a strong foundation in math and science 
as well as support for universities and laboratories that provide 
world-class education and research opportunities will only benefit the 
nation and its science enterprise. As the Subcommittee sets its funding 
priorities for the year we hope it will consider the relevance of NOAA 
and NASA to U.S. innovation and competitiveness.
 implementation of ocean commission recommendations and other federal 
                         ocean research reports
    NAML continues to strongly support implementation of the 
recommendations made by the U.S. Commission on Ocean Policy (2004) \2\. 
In addition, NAML looks forward to the implementation of the 
interagency Ocean Research Priorities Plan (2007) \3\.
---------------------------------------------------------------------------
    \2\ An Ocean Blueprint for the 21st Century, U.S. Commission on 
Ocean Policy, April 20, 2004.
    \3\ Charting the Course for Ocean Science in the United States for 
the Next Decade: An Ocean Research Priorities Plan and Implementation 
Strategy, NSTC Joint Subcommittee on Ocean Science and Technology, 
January, 2007.
---------------------------------------------------------------------------
    NAML believes that public policy with respect to the nation's 
oceans, coasts and Great Lakes should always be based on sound science 
and the most up-to-date information. The U.S. Commission on Ocean 
Policy's analysis of existing policies and future needs has resulted in 
a collection of bold and broad-reaching recommendations for reform. The 
Congress has taken these recommendations to heart in recent years and 
has begun addressing the nation's ocean needs. Federal implementation 
of these recommendations will enable the United States to maintain and 
strengthen its role as a world leader in protecting and sustaining the 
planet's oceans and coasts. NAML is particularly supportive of the 
Commission's recommendation to re-align NOAA's functions to support 
ecosystem-based management approaches. In addition, we fully endorse 
the Commission's recommendations to double the federal investment in 
ocean, coastal, and Great Lakes research as well as its recommendation 
to promote a strong federal investment in ocean, coastal, and Great 
Lakes education, outreach, and stewardship.
    As the Bush Administration states in its decade-focused Ocean 
Research Priorities Plan, ``Scientific discovery driven by competitive 
peer-reviewed investigations is the foundation of the nation's research 
enterprise.'' This plan identifies the nation's most urgent short- and 
longer-term ocean research needs. NAML is encouraged that the 
Administration proposed new funding for ocean issues in its budget 
request for fiscal year 2008. However, we urge the Administration and 
Congress to not overlook the importance of the extramural research 
community to the implementation of the plan's goals. The external 
research community stands equipped and ready to assist the federal 
government in implementing its identified priorities. NAML hopes that 
the dedication to ocean, coastal and Great Lakes issues expressed by 
the federal government in recent years will continue and be further 
enhanced to ensure that the external research community is being 
utilized to the fullest extent possible as the valuable resource that 
it is. In order to be successful, the federal government will need to 
look to the extramural research community to tap into existing 
capabilities to ensure that they are taking the most practical approach 
to ocean governance.
     ocean education, literacy, outreach and workforce development
    NAML believes that an ocean literate populace will lead to a well-
informed and safe nation. NAML encourages the federal government to 
strengthen its commitment to enhancing ocean, coastal and Great Lakes 
education, literacy and outreach as well as workforce development.
    A strong national ocean policy can only be sustained with the most 
up-to-date and reliable scientific information. To ensure that the 
nation will continue to have the ability to address emerging ocean 
issues in the future, investments are needed today in coastal, ocean, 
and Great Lakes education programs that support learning at all age 
levels, by all disciplines, and for all Americans. NAML strongly 
supports the NSF Centers for Ocean Science Education Excellence (COSEE) 
program, NSF education and human resources generally, and NOAA's Office 
of Education. Such programs provide a rich environment for which 
collaborations and partnerships flourish. A greater understanding of 
the oceans and coastal ecosystems will instill in the American 
population a sense of stewardship for these important environments. 
These programs also yield a diverse workforce that includes a 
significant percentage from underrepresented groups. Preparing these 
cultural bridges would allow us to capitalize upon diverse national 
strengths, ensuring the flow of intellectual talent into ocean, 
coastal, and Great Lakes-related fields.
    NAML member laboratories contribute to maintaining a competitive 
and first-rate marine research and education workforce by providing a 
unique training ground that is conducive to on-the-job learning and 
mentoring. Marine labs, because of their flexibility and 
interdisciplinary nature, are leaders in addressing science, 
technology, engineering, and mathematics (STEM) education disciplines 
and hope to see support for these disciplines enhanced. Marine labs are 
also committed to enhancing diversity within the field of ocean, 
coastal and Great Lakes research and education by fostering 
relationships with community colleges and minority-serving institutions 
(MSIs) to provide distinctive learning opportunities for individuals 
who may not otherwise have an opportunity to participate in ocean, 
coastal and Great Lakes research. NAML hopes to be seen as a model to 
the nation for this type of collaboration.
    The 2006 Conference on Ocean Literacy (CoOL), which convened in 
Washington, DC, and at satellite sites throughout the country, provided 
an unprecedented national platform for discussion on the essential 
principles of ocean literacy and the current challenges and 
opportunities for both formal and informal education efforts in 
educating the public to make informed, responsible decisions about the 
ocean and its resources. NAML hopes that the topics addressed during 
this conference will continue to reach policymakers and the general 
public and will shape future ocean, coastal and Great Lakes education 
policy.
    Thank you for the opportunity to express these views on behalf of 
the National Association of Marine Laboratories. We hope the 
Subcommittee will take these points into consideration as you move 
forward in the fiscal year 2008 appropriations process.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    Madam Chair and Members of the Subcommittee, on behalf of the Sea 
Grant Association (SGA) I respectfully submit this written testimony 
for the official record. Thank you for the opportunity to express these 
views. The Sea Grant Association joins with other stakeholders in 
urging the Subcommittee to recognize and support the vital research and 
outreach programs of the National Oceanic and Atmospheric 
Administration (NOAA). The community requests that the Subcommittee 
fund NOAA at $4.5 billion in fiscal year 2008. This is a modest request 
when considering the immense impact such an increase would have in 
terms of assisting NOAA in carrying out its mission: to understand and 
predict changes in the Earth's environment and conserve and manage 
coastal and marine resources to meet our Nation's economic, social, and 
environmental needs. Further, SGA requests that, within the overall 
fiscal year 2008 appropriation for NOAA, the Subcommittee appropriate 
$72 million in base funding for the National Sea Grant College Program. 
I will use the remainder of this statement to discuss why it is so 
important to support Sea Grant at realistic levels this year and in the 
future.
    The National Sea Grant College Program is a key component of NOAA's 
extramural research, education and outreach enterprise. This request of 
$72 million is well within the $103 million authorized for fiscal year 
2008 in Public Law 107-299, National Sea Grant College Program Act 
Amendments of 2002, and consistent with the level of base funding 
approved by your Subcommittee (Commerce, Justice and Science) last 
year. Further it is the amount supported in the Senate Dear Colleague 
Letter for Sea Grant which was submitted with 27 signatures to the 
Subcommittee on March 29, 2007 by Senators Maria Cantwell and Olympia 
Snowe.
    The Bush Administration's request of $55 million for fiscal year 
2008 would put Sea Grant at a hard freeze for the third year in a row. 
Implications of such a freeze for the nation with respect to the 
economy, sustainability of natural resources, and national safety and 
security are significant. With the costs of research and education 
rising, the flat-funding of Sea Grant during the last few years have 
forced programs to cut jobs and leave countless high-quality research 
and outreach projects unsupported. The Sea Grant network cannot sustain 
current activities, staff, and operations within this budget scenario. 
This request of $72 million would allow Sea Grant to sustain ongoing 
research and education efforts, address emerging needs, and continue 
assisting NOAA in carrying out its many missions.
                  science serving the nation's coasts
    Research and outreach programs supported by Sea Grant are based on 
competition, undergo rigorous peer-review, and are geared to address 
the many marine, coastal and Great Lakes challenges and opportunities 
that face our citizens. The federal investment in Sea Grant enables a 
nationally coordinated network embedded in the best research 
universities to apply unparalleled intellectual capital to address 
these problems and opportunities while assisting NOAA in addressing its 
missions. Cost-effectiveness is enhanced by access to existing 
university management infrastructure.
    Sea Grant serves the nation in many ways. Sea Grant's unmatched 
access to regional, state and local constituencies through its 
extension and outreach programs ensures that the federal investment is 
targeted at relevant issues. The Sea Grant model contributes to the 
missions of NOAA and other federal agencies, and state and local 
governments, to the benefit of the general public. In addition, marine 
education programs supported by Sea Grant funds reach from kindergarten 
to marine-related business people to elder hostels.
    Sea Grant is a national program addressing national, regional, 
state and local needs. It is a partnership among government, academia, 
business, industry, scientists, and private citizens to help Americans 
understand and wisely use our precious coastal waters and Great Lakes 
for enjoyment and long-term economic growth. This network unites 32 
Programs, over 300 universities, and millions of people. Sea Grant is 
an agent for scientific discovery, technology transfer, economic 
growth, resource conservation, and public education. It is government 
as our citizens want it--visible, tangible, relevant, efficient, and 
effective.
                           an economic driver
    Sea Grant is an investment in America's economic future. Attempts 
to balance our booming coastal economy with its associated impacts on 
the coastal and marine environment have raised the stakes for effective 
government action. America's ocean, coastal and Great Lakes resources 
encompass an immense area with more than 95,000 miles of coastline and 
more than 3.4 million square miles of ocean within the U.S. territorial 
sea. Over half the nation's 280 million people live in coastal counties 
that comprise less than one-fifth of the total land area of the United 
States. The economy of these coastal counties is critical to the 
economic well being of the entire nation, providing a wide array of 
goods and services that account for at least 50 percent of the gross 
national product of the United States. By 2010, U.S. foreign trade in 
goods is expected to double to $5 trillion, with ocean-going cargo 
increasing by 30 percent. Coastal tourism and recreation account for 85 
percent of all U.S. tourism revenues. The oceans, in one way or 
another, account for one out of every six jobs. Tax revenues in coastal 
areas are among the fastest growing revenue sources for state and local 
governments. In fact, the collective economic impact of the coastal 
economy far exceeds U.S. agriculture, and yet federal investments in 
Sea Grant colleges and universities are much smaller than investments 
in the Land Grant college and university system funded by the U.S. 
Department of Agriculture for agriculture and land-based natural 
resource activities, the program after which Sea Grant was modeled.
    Sea Grant has been leading the quest for practical solutions by 
providing research and education on national coastal and Great Lakes 
issues for four decades. Federal dollars appropriated to the Sea Grant 
program are leveraged and matched by state and private funds by at 
least 2 to 1, some states matching 60 percent or more. The matched 
federal investment fills an enormous demand for expertise to tackle 
rapid growth, change, and pressure on coastal resources. In addition, 
the 32 Sea Grant programs, located in every coastal, Great Lakes and 
Gulf Coast state, conduct policy-relevant research linked to an 
extensive outreach and education network. This structure ensures that 
Sea Grant research is useful to coastal resource managers at the 
regional, state and local levels, marine-related businesses and 
industries, and most importantly the general public. Some examples 
where Sea Grant has contributed to economic growth and vitality at the 
local, state and regional levels include:
  --Following the devastation of Hurricanes Katrina and Rita in the 
        Gulf Coast in 2005, approximately 3,000 commercial and 35,000 
        to 40,000 recreational boats were in need of salvage due to the 
        storms. The Washington and Alaska Sea Grant Programs donated a 
        surplus 60-ton Traveliftr from Alaska to Plaquemine Parish, 
        Louisiana. Without that hoist to move displaced boats to dry 
        land for repair, fishermen affected by the hurricanes would 
        have been out of work for several years, potentially costing 
        millions of dollars in loss to the fishing industry.
  --Sea Grant plays an instrumental role in nature-based tourism by 
        promoting low impact uses of natural resources. For example, 
        efforts to develop state designated underwater preserves have 
        led to new diving activity in Great Lakes coastal communities 
        providing an economic stimulus of at least $1.5 million over a 
        two-year period.
  --Sea Grant saved taxpayers $120,000 in the annual Beach Sweep/River 
        Sweep litter cleanup program in South Carolina. Over the past 
        14 years, more than 75,000 volunteers have collected 728 tons 
        of trash and have saved state taxpayers more than $1.6 million.
  --Sea Grant research efforts to develop new drugs from marine 
        organisms have resulted in discovery and description of more 
        than 1,000 compounds that may be vitally important to the 
        health industry.
  --Sea Grant training at 5,000 seafood processing plants will prevent 
        20,000 to 60,000 seafood-related illnesses a year, which could 
        cost consumers as much as $115 million annually.
  --Sea grant specialists are working directly with seaport managers, 
        resource managers, commercial interests and the general public 
        to address issues associated with ports, harbors and marine 
        transportation--ecological and economic centers of America's 
        coasts. For example, in Southern California, Sea Grant 
        continues to educate local businesses on maritime security and 
        business continuity in this, the busiest port complex in the 
        United States.
  --Sea Grant research and extension work with hybrid striped bass 
        aquaculture has expanded this species from being a 
        demonstration project ten years ago to a $25 million annual 
        business.
  --In North Carolina, 200 of the 205 new oceanfront homes built to the 
        Sea Grant hurricane standards survived Hurricane Fran in 1996, 
        compared to more than 500 older oceanfront houses in the same 
        area that were destroyed.
           a local approach to addressing national priorities
    Sea Grant has established long-standing working relationships with 
a broad spectrum of stakeholders in every coastal state. Because it is 
science-based and non-regulatory, Sea Grant is viewed as an honest 
broker among a wide range of constituents. The U.S. Commission on Ocean 
Policy called on Congress in its 2004 report to expand the Sea Grant 
program in conjunction with a doubling of all ocean and coastal 
research funding. Further, in January 2007, the Bush Administration 
released its inter-agency Ocean Research Priorities Plan and 
Implementation Strategy, Charting the Course for Ocean Science in the 
United States for the Next Decade. Several of the plan's most important 
priorities dovetail with Sea Grant's strength, experience, and 
relationships with state and local decision makers and ocean, coastal 
and Great Lakes resource managers. Here are just two examples:
    Sea Grant Increases Resiliency to Natural Hazards.--Coastal areas 
of the United States comprise only 10 percent of our nation's land 
mass, yet they are home to over half of all Americans. As witnessed by 
recent record-breaking storm seasons, coastal communities and the 
natural resources and infrastructure on which they depend are at 
increasing risk from hurricanes, tsunamis, coastal storms, shoreline 
change, and sea level rise. Sea Grant institutions and their partners 
pool research, education and outreach capabilities to enhance 
mitigation, preparedness, planning, education, response, and recovery 
in coastal communities throughout the nation. As a result of the 2005 
hurricanes, Sea Grant is working to improve storm modeling and 
community resiliency through regional research initiatives. In 
addition, Sea Grant is working closely with coastal communities to 
develop and implement long-term planning that will allow communities to 
become more resilient to storm events.
    Sea Grant is a Dedicated Steward of Natural and Cultural Ocean and 
Great Lakes Resources.--Domestic seafood production has not kept pace 
with consumer demand; the United States imports an ever-increasing 
amount of seafood consumed domestically. Issues with quality assurance 
and consistent supplies are increasing. At the same time, the nation's 
commercial seafood industry is threatened by the loss of coastal access 
and multiple use conflicts in coastal waters. Sea Grant institutions, 
through the use of their fisheries extension, address the increasing 
needs of the nation's seafood industry by utilizing expertise in 
seafood safety and technology and marine aquaculture.
    The above examples illustrate Sea Grant's connectivity to the 
Administration's stated priorities. As the federal government works to 
implement these priorities, we hope it will look to the National Sea 
Grant College Program--a major component of NOAA's extramural research 
arm--as a resource and as a partner.
    The SGA recognizes and appreciates the difficult funding tradeoffs 
the Subcommittee is forced to make each year. We urge you to consider 
Sea Grant as an investment in the future health and well-being of our 
coastal communities and support the program at $72 million in fiscal 
year 2008.
    Thank you for the opportunity to present these views.
                             about the sga
    The Sea Grant Association is a non-profit organization dedicated to 
furthering the Sea Grant program concept. The SGA's regular membership 
consists of the academic institutions that participate in the National 
Sea Grant College Program, located within the National Oceanic and 
Atmospheric Administration (NOAA). SGA provides the mechanism for these 
institutions to coordinate their activities, to set program priorities 
at both the regional and national level, and to provide a unified voice 
for these institutions on issues of importance to the oceans, coasts 
and Great Lakes. The SGA advocates for greater understanding, use, and 
conservation of marine, coastal and Great Lakes resources.
                                 ______
                                 
     Prepared Statement of the National Center for Victims of Crime
    The National Center for Victims of Crime submits this testimony to 
urge members of the Subcommittee on Commerce, Justice, Science, and 
Related Agencies to reject the Administration's proposed cancellation 
of the Victims of Crime Act (VOCA) Fund. This proposal would result in 
the removal of nearly $1.3 billion in funds currently designated to 
support crime victim services programs. Moreover, it would change VOCA 
from a reliable, offender-supported program to one dependent on annual 
appropriations from the General Treasury. Such an action would be 
disastrous for the state and local programs that already struggle to 
meet the needs of all crime victims. We urge Subcommittee members to 
instead raise the cap on VOCA Fund distributions by $375 million for 
the 2008 fiscal year and to provide further program stability by 
extending the time states have to spend this one-time increase in funds 
from the current four years to six years.
    As the leading national resource and advocacy organization for 
victims of crime, the National Center knows the considerable and urgent 
funding needs of those who serve crime victims. Since our founding in 
1985, we have worked with public and nonprofit agencies throughout the 
country, providing information, support, and technical assistance to 
thousands of victims, victim service providers, allied professionals, 
and advocates. Our toll-free information and referral Helpline alerts 
us to the needs of crime victims nationwide. Through our Training 
Institute and our daily interactions with both our members and the more 
than 11,000 crime victim service providers in our referral network, we 
stay informed of their work and know the impact of federal-level 
funding decisions on their ability to meet the needs of victims. In 
short, we hear from victims and service providers every day about the 
impact and importance of the VOCA Fund.
Understanding the VOCA Fund
    Congress created the VOCA Fund over twenty years ago to ensure on-
going, dedicated federal support for state and local programs for crime 
victims. The Fund receives no taxpayer dollars; it is made up of solely 
criminal fines and penalties imposed on federal offenders. Most of the 
funds are distributed each year by formula grants to the states to 
support two specific types of programs: (1) crime victim compensation 
programs; and, (2) crime victim assistance programs.
    Crime victim compensation programs directly reimburse crime victims 
or their families for many of the out-of-pocket expenses that directly 
result from the crime. These statutorily defined expenses include 
medical and counseling costs, funeral bills, crime scene cleanup, and 
lost wages. Essentially, these programs step in when victims have no 
insurance, no workman's compensation, and no other assistance available 
to help them meet expenses incurred as a result of the crime.
    In addition to compensation programs, the VOCA Fund supports more 
than 4,400 state and local victim assistance programs. Victim 
assistance programs include rape crisis centers, domestic violence 
shelters, victim assistants in law enforcement and prosecutor offices, 
and other direct service providers for victims of crime. For instance, 
the Fund supports: Child Protect, Inc., serving victims of child abuse 
in Montgomery, Alabama; the Shenandoah Women's Center, serving victims 
of domestic violence and sexual assault in Martinsburg, West Virginia; 
an advocate for elder victims of domestic violence at the Women's 
Community in Wausau, Wisconsin; Jackson Urban League, serving victims 
of homicide in Jackson, Mississippi; Advocates for Survivors of Torture 
and Trauma, serving victims of torture and war trauma in Baltimore, 
Maryland; the state MADD office in Baton Rouge, Louisiana; and the 
Virginia Network for Victims and Witnesses of Crime in Chesterfield, 
Virginia.
    VOCA assistance grant money is crucial in enabling both criminal 
justice system-based and community programs to serve victims of crime. 
As crime increases across the country, so too does the need for victim 
services. If VOCA funding remains stagnant or becomes unreliable due to 
a shift away from the current offender-supported system, states and 
their subgrantees will be unable to adequately address the needs of 
their communities. Moreover, their ability to reach more isolated and 
vulnerable populations will be diminished.
Why the VOCA Fund Currently Has a Balance
    Seven years ago, Congress acted to ensure the continuing stability 
of VOCA funding. For many years, all the money collected in a given 
year was disbursed during the following year. The nature of the funding 
stream--criminal fines and penalties imposed on federal offenders--
caused the level of available funding to vary significantly. For 
example, in some years, large fines against corporate offenders would 
cause a surge in deposits. However, in 1999, Congress chose to reserve 
a portion of the deposits from such years to offset lower collections 
in leaner years by placing a cap on the amount of disbursements from 
the Fund. The appropriations conference report noted that ``the 
conferees have taken this action . . . to ensure that a stable level of 
funding will remain available for these programs in future years.'' \1\ 
Therefore, as a result of this decision, a variable sum of money--
called the ``rainy day fund''--is routinely carried over from one 
fiscal year into the next.
---------------------------------------------------------------------------
    \1\ H.R. Rep. No. 106-479, at 239 (1999) (Conf. Rep.).
---------------------------------------------------------------------------
Reject the Proposed Cancellation and Protect the VOCA Fund Balance
    For the past two fiscal years, the Administration unsuccessfully 
sought to rescind the balance of the VOCA Fund, withdrawing the money 
from the ``rainy day fund'' and leaving the Fund with a zero balance. 
The Administration's 2008 fiscal year budget request now seeks an 
outright cancellation of the Fund, resulting in the transfer of the 
current balance of the Fund to the General Treasury. Annual tax dollars 
would be used to fund the $625 million VOCA cap, to be offset by 
federal fines collected over the course of the year. Additionally, the 
proposal would take $50 million from under the $625 million cap to be 
designated for the emergency reserve, effectively lowering the amount 
available to states.
    Due to the Fund's allocation formulas, the impact of fluctuations 
falls most heavily on victim assistance grants. A cancellation of the 
VOCA Fund would eliminate the dedicated funding stream that has enabled 
steady support for crime victim services. Each year, victim advocates 
would have to lobby for funding, competing against each other and every 
other federal budget item. Moreover, the proposed cancellation and 
system shift would undermine the Fund's principal philosophy of 
offender accountability as originally proposed by President Reagan's 
1982 President's Task Force on Victims of Crime. As Reagan 
Administration Attorney General Ed Meese testified before a Senate 
subcommittee last year, such a profound change ``would be a perversion 
of the original concept of the Crime Victims Fund and would violate its 
integrity.'' \2\
---------------------------------------------------------------------------
    \2\ Crime Victims Fund Rescission: Real Savings or Budget Gimmick?: 
Hearing Before the Subcomm. on Fed. Financial Mgmt., Gov't Info., and 
Int'l Security of the S. Comm. on Homeland Security and Governmental 
Affairs, 109th Cong. (2006) (statement of Ed Meese, Att'y Gen., Ronald 
Reagan Distinguished Fellow in Pub. Pol'y and Chairman of the Ctr. for 
Legal and Judicial Studies, The Heritage Foundation).
---------------------------------------------------------------------------
Fiscal Year 2008 VOCA Funding Should Be Raised by $375 Million; States 
        Should Have Six Years to Spend This Money
    Approximately 4,400 agencies rely on continued VOCA funding to 
serve 3.8 million crime victims a year. \3\ Even so, the recent 
increase in crime across the country has meant a heightened demand for 
victim services. Moreover, victim service programs report an urgent 
need to expand their outreach and service components in order to reach 
all victim populations. Without increased VOCA funding, programs in all 
fifty states and six additional jurisdictions will be unable to 
adequately address the needs of their communities and may have to lay 
off staff and limit, or even suspend, programs.
---------------------------------------------------------------------------
    \3\ See Office for Victims of Crime, U.S. Dept. of Justice, Victims 
of Crime Act: 2005 Victim Assistance Grant Program Nationwide 
Performance Report (2005); full text available at: http://www.ovc.gov/
fund/vocanpr_va05.html (accessed on April 11, 2007).
---------------------------------------------------------------------------
    One of the most underserved populations of crime victims is victims 
with disabilities. Victims with mental or physical disabilities are 
frequently targets for criminals, and face increased barriers in 
seeking services. For example, studies have shown that almost two-
thirds of women with disabilities report abuse and violence; 
additionally, in domestic violence situations, these women reported 
staying with their batterers almost twice as long as women without 
disabilities.\4\ However, only 35 percent of shelters recently surveyed 
have disability awareness training for their staff and only 16 percent 
have a dedicated staff person to deliver services to women with 
disabilities.\5\ Without the proper training, shelters and victim 
services programs cannot expect to adequately respond to the needs of 
victims with disabilities.
---------------------------------------------------------------------------
    \4\ M.E. Young et al., Prevalence of Abuse of Women with Physical 
Disabilities, 78 Arch. Phys. Med. & Rehabil., Special Issue (1997).
    \5\ Margaret A. Nosek, Ph.D., et al, Baylor College of Medicine, 
Violence Against Women With Disabilities--Fact Sheet #1: Findings From 
Studies 1992-2002.
---------------------------------------------------------------------------
    Similarly, dating and sexual violence is frighteningly prevalent in 
the youth population, yet there is a serious dearth of appropriate 
services and resources geared toward helping this underserved age 
group. One in three teens knows a friend or peer who has been hit, 
punched, kicked, slapped, choked, or physically hurt by a dating 
partner.\6\ Approximately 25 percent of high school girls have been the 
victims of physical abuse, sexual abuse, or date rape.\7\ 
Understandably, many service providers express a strong desire to 
expand their services to better serve teen victims of crime; however, 
they lack the funding for the staff, training, and outreach programs 
that would make this feasible.\8\
---------------------------------------------------------------------------
    \6\ See Liz Claiborne Inc., Omnibuzz Topline Findings: Teen 
Relationship Abuse Research (Feb. 2005).
    \7\ See Cathy Schoen et al., The Commonwealth Fund, the 
Commonwealth Fund Survey of the Health of Adolescent Girls (Nov. 1997).
    \8\ See National Center for Victims of Crime, Results From the 
National Center's 2006-2007 Public Policy Poll (a compilation of the 
National Center's member responses to a survey regarding legislative 
priorities, underserved victims in communities, coming legislative 
sessions, and requests for general feedback); available at: http://
www.ncvc.org/ncvc/AGP.Net/Components/documentViewer/
Download.aspxnz?DocumentID=41511 (accessed on April 13, 2007).
---------------------------------------------------------------------------
    Service providers also recognize that there are significant 
populations of immigrant victims of crime who do not have access to 
services. These victims are often culturally and linguistically 
isolated from the general society, making them vulnerable to crime but 
also unaware of the services that can help them. Victim service 
providers know that to make inroads in reaching these populations, they 
must make an investment in personnel and in the time needed to build 
trust with existing community members. Without additional funding, such 
critical expansions in services, outreach, and programs are not 
possible.
    There are many other underserved populations of victims across the 
country. In a recent National Center poll of our members, service 
providers indicated a need to reach and serve homeless victims, victims 
with mental illness, racial or ethnic minority victims, and victims who 
are members of the GLBTQ population.\9\ Respondents also mentioned that 
indigent or poor victims, incarcerated victims, and Native American 
victims remain underserved and at risk for greater victimization.
---------------------------------------------------------------------------
    \9\ Id.
---------------------------------------------------------------------------
    A one-time increase in VOCA funds, coupled with an extension of 
time for states to use that extra funding, would allow the development 
of services targeted at these vulnerable and underserved victim 
populations. Such an investment of funding would enable victim service 
providers to form partnerships with agencies already connected to and 
trusted by those communities.
    Raising the cap on VOCA Fund distributions by $375 million for the 
2008 fiscal year would allow a comfortable Fund balance of 
approximately $300 million to remain for future years to help guarantee 
reliable funding for victim services programs. Moreover, it would 
ensure that the money collected from offenders was actually used for 
the purpose for which it was originally designed and authorized by law. 
Finally, allowing six instead of four years to spend VOCA grant money 
would provide states with the flexibility necessary to address the 
specific assistance needs of their communities.
Conclusion
    In closing, we urge Congress to reject the Administration's 
proposed cancellation and to affirm the vital importance of protecting 
the VOCA Fund for years to come. Raising the VOCA Fund cap for the 2008 
fiscal year by $375 million and extending the time states have to spend 
the money to six years will permit states to reach additional victims 
while ensuring the future stability of the Fund.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    This statement focuses on two areas: National Aeronautics and Space 
Administration (NASA) and National Science Foundation (NSF).
    Mr. Chairman and Members of the Subcommittee, on behalf of the 
nation's 34 American Indian Tribal Colleges and Universities (TCUs), 
which comprise the American Indian Higher Education Consortium (AIHEC), 
thank you for the opportunity to express our views and recommendations 
for fiscal year 2008 on programs that directly affect our institutions.
                       summary of recommendations
    National Aeronautics and Space Administration (NASA).--In fiscal 
year 2001, tribal colleges established a formal cooperative agreement 
with NASA for a project designed to increase access, participation, and 
success of American Indians in high quality K-16 science, technology, 
engineering, and mathematics (STEM) programs. The agreement includes a 
modest program to support TCU STEM education and research programs, as 
well as a summer research opportunities program for TCU faculty and 
students to participate in NASA research projects at the various NASA 
centers around the country. This program and other minority-serving 
programs have demonstrated success in improving STEM education and 
research programs at TCUs and encouraging more American Indians and 
other minorities to pursue degrees and careers in the hard sciences. 
However, NASA recently reorganized its funding priorities resulting in 
severe cuts in education programs overall and the near elimination of 
this modest TCU program. We are requesting that no less than $2.5 
million of the NASA budget be made available to continue to support TCU 
STEM research and education programs.
  --Strengthen NASA's Role in Developing the American STEM Workforce.--
        The ability of NASA to help develop and train the American STEM 
        workforce has been severely undercut by NASA's current budget 
        policy. In general, we urge the Subcommittee to ensure that 
        funding for NASA education programs, particularly, those 
        targeting minority serving institutions, is restored to levels 
        necessary for a meaningful impact on the ability of Tribal 
        College and Universities and other MSIs to prepare their 
        students to enter the national science, technology, engineering 
        and mathematics workforce. We further urge the Subcommittee to 
        examine and address the disproportionate impact that NASA's 
        current budget priorities have on minority serving institutions 
        and minority students, which represent America's best hope for 
        securing a well trained STEM workforce in the future.
  --National Science Foundation (NSF): Tribal Colleges and Universities 
        Program (TCUP).--Over the past seven years, this program has 
        provided vital assistance to TCUs as they build their capacity 
        to provide strong science, technology, engineering, and 
        mathematics (STEM) teaching and learning programs for American 
        Indians. Since its inception, 29 of the 31 eligible TCUs have 
        participated in this program, along with six Alaska Native and 
        Native Hawaiian serving institutions. While the impact of the 
        TCUP program on Tribal Colleges and Alaska Native and Native 
        Hawaiian institutions has been significant, the program funding 
        level has not grown above the initial $10 million/year, and can 
        no longer sufficiently address the needs of eligible 
        institutions. We request that the Subcommittee increase the 
        amount of funding for the NSF-TCU program by $5 million, for a 
        total of $15 million.
  --TCU STEM Blue Ribbon Panel.--We request that funding be 
        appropriated to establish and support a Blue Ribbon Panel 
        comprised of national leaders in scientific research and 
        education, to be organized and convened by the National 
        Academies to (1) monitor and review developments and changing 
        policy issues related to STEM research and education at the 
        nation's Tribal Colleges and Universities; (2) examine and 
        evaluate the current state of Federal program opportunities 
        available to TCUs for developing and sustaining STEM education 
        and research programs; and (3) prepare a report recommending 
        strategies at all levels for improving STEM education and 
        research programs at TCUs. Sources of information that will be 
        reviewed by the Blue Ribbon Panel will include public symposia 
        organized by the Panel, published documents, and written 
        comments by members of the scientific research and education 
        community, and examination of past and current STEM education 
        and research programs at, and technical assistance programs 
        for, Tribal Colleges and Universities. We request that the 
        Subcommittee appropriate $500,000 for the purpose of 
        establishing this TCU STEM Blue Ribbon Panel.
                             justifications
    In 2007, the report ``Rising above the Gathering Storm--Energizing 
and Employing America for a Brighter Economic Future'' (National 
Academies Press (NAP) 2007) prepared by the Committee on Science, 
Engineering, and Public Policy, warns that America's place as the 
world's leader in science and technology is at risk. The report lists 
the growing need for a competitive and qualified workforce and 
government investment in national research and development as two 
essential ingredients of a formula for maintaining America's continued 
leadership in science and technology. This request addresses the role 
of Tribal Colleges and Universities specifically and minority serving 
institutions generally in these two critical areas.
    America's minority serving institutions--Tribal Colleges and 
Universities, Historically Black Colleges and Universities (HBCUs), and 
Hispanic Serving Institutions (HSIs)--are a primary provider of higher 
education programming for their respective populations. Although only a 
relative small percentage of colleges and universities in the country, 
MSIs serve a much greater proportion of underrepresented minority 
students, for example, HSIs are only about 6 percent of the higher 
education institutions in the country, but produce 33 percent of 
Hispanic science baccalaureates. HBCUs produce the same percentage for 
African Americans (National Science Board, 2004). Studies have shown 
the reservation-based American Indians attending mainstream 
institutions of higher education have a failure rate of 70-80 percent. 
However, these same students have a success rate of 70-80 percent at 
TCUs. Despite these successes, Native Americans, African Americans and 
Hispanics continue to be seriously underrepresented in the sciences 
even as their numbers and proportion in higher education grow (National 
Science Board (NSB), 2004). Supporting MSIs is critical for reaching 
the growing number of underrepresented minority college students, the 
next generation of scientists and engineers.
National Aeronautics and Space Administration (NASA)
    The NASA AIHEC Cooperative Agreement has served 27 Tribal Colleges 
and Universities with support for faculty and student research at NASA 
Centers, STEM course and curriculum development, research 
instrumentation, research projects, professional development for STEM 
faculty, and information infrastructure improvements supporting the 
delivery of high quality STEM education and research programs. These 
NASA-supported activities have impacted nearly 700 K-12 students and 
teachers, 2,700 Tribal College and University students, and over 150 
faculty members, significantly furthering TCU efforts at recruitment 
and retention of American Indian students, and their preparation for 
careers in science, engineering, and technology fields.
    In 2007, NASA support for Tribal Colleges and Universities under 
the NASA-AIHEC Cooperative Agreement was reduced from $1.2 million to 
approximately $400,000. This reduction has necessitated a significant 
re-scoping of the activities supported under the Cooperative Agreement, 
and thereby has significantly reduced resources available to positively 
affect the educational experience of American Indian students. In 
addition, over the past two years, other vital TCU STEM programs funded 
by NASA were eliminated entirely due to budget restructuring. For 
example, a program to train TCU faculty at multiple campuses in 
geospatial technologies, and another STEM education program involving a 
TCU partnership with other key institutions of higher education were 
both eliminated entirely. The funding for these and other programs must 
be restored to a level at which a significant impact on the TCU 
educational community can be realized.
National Science Foundation Programs
    Since 2001, NSF's Tribal Colleges and Universities Program has been 
a primary resource for Tribal Colleges and Universities and Alaska 
Native/Native Hawaiian institutions to plan and develop STEM education 
and research programs designed to respond to local and regional STEM 
workforce challenges and opportunities. To date, 29 of the 31 eligible 
TCUs have participated in the program, along with 6 Alaska Native and 
Native Hawaiian serving institutions. Participating colleges and 
universities have enhanced existing degree programs and developed 
entirely new program offerings. Funded institutions have upgraded their 
laboratory facilities, hired instructors, and introduced innovative 
strategies to recruit and retain students. While these TCUP-funded 
activities have had a significant impact on college STEM programs and 
on the students who have enrolled in them, this initiative is still too 
modest in scope to ensure that these activities can be sustained by all 
TCUP-eligible institutions for a period necessary to realize 
significant outcomes in terms of student success in STEM, particularly 
at the baccalaureate and graduate education levels. Additional funding 
is necessary to ensure that all TCUP-eligible institutions are able to 
receive sustained funding necessary to continually develop and improve 
their STEM program offerings in response to changing local and regional 
STEM workforce demands and research opportunities.
    In addition to the TCUP program, a number of other programs for 
which Tribal Colleges and Universities compete within the Education and 
Human Resources Directorate have experienced reductions. Overall, there 
has been a 19 percent cut in inflation adjusted dollars for NSF's 
Education and Human Resources budget since 2004. This is particularly 
difficult to understand given the severe challenges facing the nation 
in preparing the nation's science, technology, engineering, and 
mathematics workforce documented in the above-referenced report 
``Rising above the Gathering Storm''. The TCUP program should be 
expanded by at least $5 million annually for a total of $15 million to 
allow TCUP-eligible institutions to fully implement STEM education and 
research improvement plans that are responsive to local and national 
STEM workforce development needs, particularly given the shortfall in 
funding for other Education and Human Resources programs.
    Further, based on a motion of the AIHEC Board of Directors, which 
is comprised solely of TCU presidents, we recommend that a policy be 
put in place that stating that any grants or contracts for technical 
assistance under any NSF-TCU program shall be awarded to an Indian 
organization which: (a) the NSF Director finds is nationally based, (b) 
represents a substantial American Indian constituency, and (c) has 
expertise in the field of Tribal Colleges and Universities and American 
Indian higher education. This will help ensure that the unique needs of 
the TCUs, their students and faculties are addressed effectively and 
efficiently in a productive and responsive manner.
    Finally, given the limited pool of applicants and the tremendous 
need to sustain STEM programs for a length of time deemed sufficient to 
achieve improvement at all levels, we urge the subcommittee to direct 
NSF to:
  --Award grants under the NSF-TCU program for a period of five years, 
        with ongoing support for an additional five years (without the 
        need to re-enter a program competition), provided the programs 
        meet appropriate NSF criteria for satisfactory progress; and
  --Refrain from expanding funding priorities under the NSF-TCU program 
        into new areas (e.g. K-12 teacher education, which previously 
        had been supported by NSF under the Urban and Rural Systemic 
        Initiatives) until sufficient funding exists to meet the basic 
        STEM needs of TCUs and reliable data demonstrates a significant 
        improvement in basic STEM education participation and 
        completion rates across TCUs.
    We recognize that a tremendous need exists to address STEM 
education at all levels. However, funding is severely limited under the 
NSF-TCU program and it has not grown in seven years. Therefore, should 
NSF personnel believe additional areas should be addressed or 
additional programs established, beyond those proposed by TCUs under 
the general NSF-TCU program, then new funding should be requested or 
designated, rather than taking funds appropriated for desperately 
needed basic STEM/Technology education and research programs. This is 
particularly important when the new funding priorities imposed on 
grantees under programs such as NSF-TCUP are simply replacing programs 
that have been eliminated elsewhere within NSF.
TCU STEM Blue Ribbon Panel
    An independent Blue Ribbon Panel on TCU STEM would be empowered to 
examine, evaluate, and make recommendations regarding the design and 
delivery of STEM programs at the Tribal Colleges and Universities, as 
well as research and education funding programs operated by the federal 
agencies. Recommendations provided by such a Panel would provide 
significant impetus in moving Tribal Colleges and University programs 
toward greater effectiveness while ensuring greater accountability. The 
National Academies are the primary source of expert guidance in 
science, engineering, and medicine to academia, industry, the U.S. 
Government, and the general public and as such is the appropriate 
organization to convene and conduct activities within the intended 
scope of this request.
                               conclusion
    In light of the justifications presented in this statement, we 
respectfully request that Congress appropriate funding for NASA and NSF 
programs that directly impact the STEM programs at Tribal College and 
Universities at the levels recommended. This relatively small 
investment will go a long way toward helping to build the nation's STEM 
workforce while fostering economic self-sufficiency in Indian Country. 
Fulfillment of AIHEC's fiscal year 2008 recommendations will strengthen 
the missions of all of the TCUs and significantly enhance the strong 
positive impact that they have on their respective communities. We 
respectfully request your continued support of TCUs and full 
consideration of our fiscal year 2008 appropriations recommendations.
                                 ______
                                 
 Prepared Statement of the California Industry and Government Central 
                California Ozone Study (CCOS) Coalition
    Madam Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2008 funding request of $150,000 
from the Department of Commerce/NOAA account for CCOS. These funds are 
necessary for the State of California to address the very significant 
challenges it faces to comply with new national ambient air quality 
standards for ozone and fine particulate matter. The study design 
incorporates technical recommendations from the National Academy of 
Sciences (NAS) on how to most effectively comply with federal Clean Air 
Act requirements.
    First, we want to thank you for your past assistance in obtaining 
federal funding for the Central California Ozone Study (CCOS) and 
California Regional PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study 
(CRPAQS). Your support of these studies has been instrumental in 
improving the scientific understanding of the nature and cause of ozone 
and particulate matter air pollution in Central California and the 
nation. Information gained from these two studies is forming the basis 
for the 8-hour ozone, PM<INF>2.5</INF>, and regional haze State 
Implementation Plans (SIPs) that are due in 2007 (ozone) and 2008 
(particulate matter/haze). As with California's previous and current 
SIPs, all future SIPs will continue to be updated and refined due to 
the scientific complexity of our air pollution problem. Our request 
this year would fund the completion of CCOS to address important 
questions that won't be answered with results from previously funded 
research projects.
    To date, our understanding of air pollution and the technical basis 
for SIPs has largely been founded on pollutant-specific studies, like 
CCOS. These studies are conducted over a single season or single year 
and have relied on modeling and analysis of selected days with high 
concentrations. SIPs are now more complex than they were in the past. 
The National Academy of Sciences (NAS) now recommends a weight-of-
evidence approach that will involve utilizing more broad-based, 
integrated methods, such as data analysis in combination with seasonal 
and annual photochemical modeling, to assess compliance with federal 
Clean Air Act requirements. This will involve the analysis of a larger 
number of days and possibly an entire season. In addition, because 
ozone and particulate matter are formed from some of the same emissions 
precursors, there is a need to address both pollutants in combination, 
which CCOS will do.
    Consistent with the NAS recommendations, the CCOS study includes 
corroborative analyses with the extensive data provided by past 
studies, advances the state-of-science in air quality modeling, and 
addresses the integration of ozone and particulate pollution studies. 
In addition, the study will incorporate further refinements to emission 
inventories, address the development of observation-based analyses with 
sound theoretical bases, and includes the following four general 
components:

------------------------------------------------------------------------
                                                                 Year
------------------------------------------------------------------------
Performing SIP modeling analyses...........................    2005-2011
Conducting weight-of-evidence data analyses................    2006-2008
Making emission inventory improvements.....................    2006-2010
Performing seasonal and annual modeling....................    2008-2011
------------------------------------------------------------------------

    CCOS is directed by Policy and Technical Committees consisting of 
representatives from Federal, State, and local governments, as well as 
private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study, are landmark 
examples of collaborative environmental management. The proven methods 
and established teamwork provide a solid foundation for CCOS.
    For fiscal year 2008, our Coalition is seeking funding of $150,000 
from the Department of Commerce/NOAA account in support of CCOS. 
California has a very complex terrain that includes mountain ranges, 
flat valleys, and long coastal regions. Some meteorological models are 
known to have difficulty in simulating high-resolution airflow over 
such complex terrain. NOAA has a vast amount of experience in applying 
meteorological models in several different areas of the country and 
their scientific know-how is a valuable asset to CCOS. This request 
will be used to continue NOAA's involvement in developing 
meteorological simulations for Central California, specifically longer-
term simulations of seasonal and annual meteorology. The long-term 
record of meteorological data in the CCOS database can be used to 
improve NOAA's meteorological forecasting abilities and in the 
evaluation of U.S. western boundary conditions for weather forecasting 
models.
    As you know, NOAA is at the scientific forefront of the development 
of meteorological models including the Weather Research and Forecasting 
(WRF) model that is viewed as a replacement for the Mesoscale 
Meteorology Model, Version 5 (MM5). Thus, NOAA's involvement would 
facilitate the use of CCOS measurements in the development and 
refinement of WRF. In addition, NOAA has conducted prior research in 
the CCOS region on atmospheric airflows, sea breeze circulation 
patterns, nocturnal jets and eddies, airflow bifurcation, convergence 
and divergence zones, up-slope and down-slope flows, and up-valley and 
down-valley airflow. Thus, CCOS provides the opportunity to draw from 
or extend this research for a longer, multi-year time period. This 
research provides fundamental data needed to understand airflow over 
complex terrain, and has national applicability.
    If we receive the funds requested this year to complete this 
research project, this will be our final request.
    Thank you very much for your consideration of our request.
                        cooperative partnership
Private Sector
    Western States Petroleum Association; Pacific Gas and Electric 
Company; Electric Power Research Institute; NISEI Farmers League and 
Agriculture; Independent Oil Producers' Agency; and California Cotton 
Ginners and Growers Associations.
Local Government
    San Joaquin Valley Unified Air Pollution Control District (on 
behalf of local cities and counties); Bay Area Air Quality Management 
District; Sacramento Metro Air Quality Management District; San Luis 
Obispo County Air Pollution Control District; Mendocino County Air 
Pollution Control District; and Yolo-Solano Air Quality Management 
District.
State Government
    California Air Resources Board; and California Energy Commission.
Federal Government
    Environmental Protection Agency; Department of Agriculture; 
Department of Commerce; National Oceanic and Atmospheric 
Administration; Department of Transportation; Department of Interior; 
and Department of Energy.
                                 ______
                                 
    Prepared Statement of the Marine Conservation Biology Institute
    On behalf of the Marine Conservation Biology Institute (MCBI), I 
thank the members of the Commerce, Justice, Science, and Related 
Agencies Appropriations Subcommittee for the opportunity to submit 
written testimony on fiscal year 2008 appropriations for NOAA. MCBI is 
a national, nonprofit environmental organization interested in 
advancing the science of marine conservation biology and securing 
protection for ocean ecosystems. Our headquarters are in Bellevue, 
Washington and we also have offices in California and Washington, DC.
    MCBI is a member of the Friends of NOAA Coalition and supports the 
Coalition's recommendation for funding NOAA at $4.5 billion in fiscal 
year 2008, the same amount recommended by the Senate for fiscal year 
2006 and 2007, and the same amount currently being recommended by the 
House Oceans Caucus. In addition, we support funding augmentation for 
several important conservation programs and activities as follows: $3.2 
million for the Marine Protected Areas Initiative; $14.5 million for 
the National Undersea Research Program; $78 million for the National 
Marine Sanctuaries Program; and $7.7 million for conservation of the 
Hawaiian monk seal. Our justifications for these requests are as 
follows:
    National Marine Protected Areas Center (MPA Center) is responsible 
for the implementation of Executive Order 13158, ``Marine Protected 
Areas'' (MPAs), which President Clinton issued in May 2000. The 
objective of the executive order is to protect ``significant natural 
and cultural resources within the marine environment for present and 
future generations by strengthening and expanding the Nation's system 
of marine protected areas.'' (Exec. Order No. 13158, 65 Fed. Reg. 
34,909 (2000)). Federal agencies are directed to use their existing 
legal authorities to develop an effective national system of marine 
protected areas, including expansion of existing protected areas and 
the creation of new ones. The MPA Center is housed within NOAA's 
National Ocean Service (Office of Ocean and Coastal Resource 
Management).
    MPAs are designated to protect marine ecosystems, processes, 
habitats, and species, and contribute to the restoration and 
replenishment of resources for social, economic, and cultural 
enrichment. The MPA Center's specific goals include designing a 
framework for a national system of MPAs, developing innovative 
approaches to understanding the ecosystem effects and human dimensions 
of MPA design and management, facilitating coordination among MPA 
agencies and stakeholders, and conducting outreach and education about 
place-based ocean management. Cuts in funding have greatly impacted the 
MPA Center's activities. The Center has lost 75 percent of its staff 
since 2005. This has severely impacted the Center's ability to 
implement the President's executive order, and to facilitate national, 
state and local MPA coordination.
    MCBI recommends $3.2 million for the MPA Center in fiscal year 
2008, enabling it to get back on track with its goals and work plans. 
In addition to allowing the Center to continue the work below, this 
funding would also allow the Center to rehire the seven staff that were 
lost under previous budgets. Funding at this level would enable the 
Center to:
  --Complete its Draft Framework for a national system of MPAs. Funding 
        at the fiscal year 2006 level could delay this project another 
        1-2 years.
  --Allow for more stakeholder and advisory committee participation. 
        Funding at the fiscal year 2006 level will only allow minimal 
        external consultation with stakeholders.
  --Continue and accelerate the West Coast Pilot Project. Funding at 
        fiscal year 2006 levels would delay critical components of this 
        important project another 3-4 years, and significantly limit 
        its ultimate utility to the region as a model for the rest of 
        the national system of MPAs. Completion of the Pilot Project 
        would be extremely helpful to the Governors of California, 
        Oregon, and Washington, who jointly seek to create an ocean and 
        coastal resource action plan for the Pacific Coast.
    National Undersea Research Program (NURP) is a key vehicle in 
implementing many of the priority topics identified by the U.S. 
Commission on Ocean Policy's Ocean Research Priority Plan. These topics 
include ``Stewardship of Natural and Cultural Resources,'' ``Improving 
Ecosystem Health,'' the ``Ocean's Role in Climate,'' and ``Increasing 
Resilience to Natural Hazards.'' Through its regional science centers, 
NURP provides scientists with the advanced underwater technologies 
needed to conduct important research, such as remotely operated and 
autonomous underwater vehicles, human occupied submersibles, advanced 
technical diving, and underwater laboratories. NURP is the nation's 
only federal scientific program that specializes in providing the 
undersea technology needed to help us better manage Earth's last 
frontier.
    NURP-sponsored research has contributed to improving methods for 
assessing fish populations, locating and mapping areas of deep sea 
corals, and assessing the impacts of overfishing, climate change, and 
water pollution. Additionally, NURP activities will be an integral part 
of the Deep Sea Coral Research and Technology Program at NOAA, newly 
authorized by the Magnuson-Stevens Fishery Conservation and Management 
Act in 2006.
    In fiscal year 2008 NURP and NOAA's Ocean Exploration (OE) Program 
will be merged into a new Office of Ocean Exploration and Research 
(OER). The office will support exploration, research, and advanced 
technology development efforts.
    Cuts in funding have greatly impacted NURP's activities. In fiscal 
year 2006, funding was cut by more than 60 percent of fiscal year 2005 
levels to $4.1 million. This reduced level of funding has continued in 
fiscal year 2007. MCBI recommends $14.5 million for NURP in fiscal year 
2008. This amount would enable NURP to:
  --Complete the second year of an east coast MPA site identification 
        project, organized by the NURP University of Connecticut 
        Center. This project, at the Stellwagen Bank National Marine 
        Sanctuary, aims to identify the full range of ecosystems and 
        habitats that should be protected in an MPA network.
  --Map deep sea coral habitat in the Gulf of Maine, providing valuable 
        information to marine resource managers. Funding at fiscal year 
        2006 levels would not support this project.
  --Continue a Lake Superior project examining the impacts of PCBs on 
        fish and human health.
  --Map and characterize the new deep sea coral Habitat Areas of 
        Particular Concern (HAPCs) and shelf edge MPAs off the 
        southeast U.S. coast.
  --Obtain vital climate records from west coast deep-water corals. 
        This project was approved for funding in fiscal year 2006 and 
        fiscal year 2007 but was deferred in both cases due to budget 
        cuts, and is at risk of cancellation.
  --Undertake an ecosystem connectivity cruise off the west coast and 
        Northwestern Hawaiian Islands. This project was originally 
        planned for fiscal year 2008 but has been delayed because 
        budget uncertainties.
    The National Marine Sanctuaries Act authorizes the Secretary of 
Commerce to designate and manage areas of the marine environment for 
resource protection. Currently, the National Marine Sanctuary Program 
(NMSP) is responsible for the management and oversight of 13 national 
marine sanctuaries comprising over 18,000 square miles, and for the 
Papahanaumokuakea Marine National Monument.
    The NMSP is responsible for education, research, monitoring and 
management programs. In order to successfully carry out its objective, 
each sanctuary develops, reviews, and implements a comprehensive 
management plan. Each site also carries out local research, monitoring 
programs, cultural programs, education and outreach programs, 
enforcement, and permitting. The NMSP headquarters offers oversight, 
guidance, and support to each sanctuary site. Recent NMSP 
accomplishments include the discovery of deep sea corals in the Olympic 
Coast National Marine Sanctuary, the documented increase of marine life 
in the Florida Keys Tortugas Ecological Reserve (part of the Florida 
Keys National Marine Sanctuary), and research that led to the 
International Maritime Organization approving a shift in the shipping 
lanes in the Stellwagen Bank National Marine Sanctuary region to reduce 
whale/ship strikes to protect endangered whales.
    For the last few years the NMSP has seen its budget fall from 
approximately $68 million (including ORF and PAC accounts) in fiscal 
year 2005 to approximately $55 million in fiscal year 2006. As of April 
13, 2007, the NMSP has received approximately $35 million of its fiscal 
year 2007 budget for ORF; the PAC numbers are still unknown. In fiscal 
year 2008, the President requested approximately $50 million for the 
NMSP. However, $8 million of the allocation is specifically for the 
Papahanaumokuakea Marine National Monument. As it stands now, the NMSP 
operations budget of approximately $36 million has been unchanged for 
three consecutive years.
    Increased funds are needed to ensure that the NMSP can continue to 
meet its growing responsibilities and keep up with inflation. 
Furthermore, the NMSP will be unable to meet the management benchmarks 
that must be met before the congressional moratorium imposed on new 
sanctuary designations can be lifted. MCBI recommends that the NMSP 
receive $78 million for fiscal year 2008. This amount would restore the 
NMSP's funding to the fiscal year 2005 enacted level of $68 million, 
plus another $10 million for construction and facilities. This amount 
includes the President's $8 million request for the management of the 
Papahanaumokuakea Monument. As it stands now, the NMSP operation budget 
has been roughly the same for three consecutive years.
    The Hawaiian monk seal is one of the most endangered marine mammals 
in the world and is the only marine mammal species whose entire range 
lies within the U.S. jurisdiction. Most Hawaiian monk seals reside in 
the Papahanaumokuakea Marine National Monument in the Northwestern 
Hawaiian Islands (NWHI). Over the last 50 years, the Hawaiian monk seal 
population has declined by more than 60 percent to an estimated 1,252 
individuals, its lowest level in recorded history. A number of human 
and environmental factors have contributed to this decline, including 
overfishing; environmental cycles; entanglement in marine debris; 
predation by sharks; injuries and deaths caused by aggressive adult 
male monk seals; habitat modification and loss; and disturbance by 
humans.
    The Hawaiian monk seal is currently spiraling into extinction. What 
happens next will be crucial to the monk seal's recovery prospects. The 
National Marine Fisheries Service (NMFS) and its partner agencies must 
aggressively budget for and carry out key recommendations of the draft 
recovery plan, which include the following:
  --Implement a suite of actions to improve female survival in the 6 
        main subpopulations, including: conservation of habitats and 
        prey base; research on juvenile survival factors; interventions 
        to protect juveniles, especially females, until they are strong 
        enough to care for themselves; and protection of females from 
        male seal aggression and shark predation.
  --Continued removal of hazardous debris from monk seal habitat.
  --Maintain and expand field efforts to carry out research and 
        management actions in the NWHI.
  --Develop and implement a coordinated plan with the state, local, and 
        non-governmental organizations to encourage growth of the monk 
        seal population in the Main Hawaiian Islands (MHI) and prevent 
        harmful human interactions with the seals that reside there; 
        and consider a best-site relocation program for seals in the 
        MHI to optimize their survival prospects.
  --Determine and take reasonable steps to reduce the probability of 
        exposure of monk seals to new diseases (e.g. distemper).
    Historically, Hawaiian monk seal recovery efforts have been funded 
primarily by NMFS and have focused heavily on scientific research. Much 
more attention now needs to be paid to hands-on interventions to save 
the seals from dying. For fiscal year 2008, MCBI recommends $7.7 
million for monk seal conservation under the following programs:
  --$3 million allocated to the monk seal in the Marine Mammal and Sea 
        Turtle ESA base, under the NMFS, Office of Protected Resources. 
        These funds would support direct intervention and research 
        activities.
  --$500,000 as part of the Marine Mammal Initiative (Cetaceans and 
        Monk Seals), under NMFS, Office of Protected Resources. These 
        funds support the annual summer field camp and monk seal 
        population assessment through the Marine Mammal Initiative. 
        NOAA staff and volunteers must be supported on the six main 
        seal islands over a five-month period to observe seals, collect 
        data, and undertake urgent conservation activities.
  --$3 million is needed for marine debris removal through the Coral 
        Reef Conservation Program line item and the National Marine 
        Sanctuaries Program under the National Ocean Service. These 
        funds would ensure debris removal from all islands in the 
        Papahanaumokuakea Marine National Monument and protect seals, 
        birds, and sea turtles from entanglement death.
  --$1.2 million is needed in for the Hawaiian Monk Seal Program line 
        item. These funds support salaries, benefits, and travel costs 
        for NMFS seal program staff. Additional staff is needed to 
        carry out the required level of conservation activities.
    In summary, MCBI respectfully requests that the subcommittee 
augment funding for the ecosystem and species protection programs 
mentioned above. Thank you for the opportunity to share our views on 
appropriations for NOAA.
                                 ______
                                 
      Prepared Statement of the National Corn Growers Association
    The National Corn Growers Association (NCGA) appreciates the 
opportunity to share with the subcommittee our appropriations 
priorities for fiscal year 2008. Specifically, our top priority in the 
fiscal year 2008 Science, State, Justice and Commerce appropriations 
bill is the National Science Foundation's (NSF) Plant Genome Research 
Initiative (Initiative).
    NCGA is a national organization founded in 1957 and represents more 
than 32,000 members in 48 states, 47 affiliated state organizations and 
more than 300,000 corn farmers who contribute to state checkoff 
programs for the purpose of creating new opportunities and markets for 
corn growers.
    NCGA's top priority in the fiscal year 2008 Science, State, Justice 
and Commerce appropriations bill is increased funding to $150 million 
for the National Science Foundation (NSF) Plant Genome Research 
Initiative (initiative). The initiative is supported by the Interagency 
Working Group on Plant Genomes under the auspices of the National 
Science and Technology Council within the Office of Science and 
Technology Policy.
    In 1997, NCGA spearheaded the effort on legislation that authorized 
major plant genome research, which resulted in the Plant Genome 
Research Initiative. Obtaining genome sequence information frequently 
leads to breakthroughs in the study of a particular organism. The goal 
of the initiative is to understand the structure and function of all 
plant genes at all levels from molecules to organisms and to ecosystems 
and indeed, the initiative has led to an unprecedented increase in our 
understanding of the genomics and genetics of plants. The initiative 
also changed the way research is conducted in plant biology and helped 
to attract a new generation of scientists to the plant sciences field 
at U.S. colleges and universities.
    Bringing agriculturally important plant species into the genomic 
age is an important goal. Initial major accomplishments included the 
completion of the model laboratory plant Arabidopsis and rice genome 
sequences. Completion on those genomes demonstrated that genomic 
sequence was the most comprehensive way toward gene discovery--a first 
step toward identifying the role of each gene. Building upon lessons 
learned sequencing smaller plant genomes, sequencing the corn genome 
became feasible. Arabidopsis, a member of the brassicaceae, or mustard, 
family, has a genome of 125 million base pairs. Rice's genome, has 430 
million base pairs. Sequencing the corn genome had been considered 
difficult because of its large size and complex genetic arrangement. 
The genome has 50,000 genes scattered among the haploid genome size of 
2.3 billion nucleotides--molecules that form DNA--that make up its 10 
chromosomes.
    In 2004, valuable corn research was made available through NCGA to 
research scientists working to understand the maize genome through the 
availability of sequencing data from Ceres, DuPont and Monsanto. This 
information, combined with the corn sequence data already in the public 
domain, significantly accelerated the identification of genes within 
the entire corn genome and was a precursor to the effect that the full 
corn sequence will have on the research community.
    In 2005, NSF, the United States Department of Agriculture (USDA) 
and the Department of Energy (DOE) awarded $32 million to sequence the 
corn genome. NSF selected a consortium of four research institutions to 
sequence the maize genome: The University of Arizona, Washington 
University in St. Louis, Iowa State University in Ames and Cold Spring 
Harbor Laboratory in Cold Spring Harbor, New York. The goal of the 
Maize Genome Sequencing Project is to unravel the complete DNA sequence 
of the maize plant and to determine the number of genes and their 
position on the chromosomes--the tiny bundles of DNA that form the 
storage units of genetic information. Corn is pushing the state of the 
art of genetic research to new levels as its genome has complexities 
beyond any plant sequenced to date. The highly repetitive regions of 
DNA, formerly considered ``junk'' DNA, are extremely prevalent in corn, 
and have been shown to have a significant impact on how the genetic 
engine of life truly works. These issues have posed significant 
challenges to researchers interested in crop improvement, plant 
molecular biology, or genome evolution. Using a physical map that 
covers about 95 percent of the maize genome map, scientists generate a 
draft sequence to reveal the locations of regulatory elements within 
stretches of so-called non-coding ``junk'' DNA. Focus of the project 
does center on gene-containing regions and are sequenced in detail. 
This sequencing strategy enables the consortium to sequence the corn 
genome at a fraction of the cost that was necessary to decipher the 
human genome, which is only slightly larger than the corn genome.
    Today, genomic research technology and techniques are ready to 
complete a high quality corn genome sequence. The result will be the 
complete sequence and structural understanding of the entire corn 
genome, annotated functional sequences, and their locations on corn's 
genetic and physical map. This genome will be the most complex 
eukaryotic genome to be sequenced to date, including the human genome. 
The corn genome sequence will, in turn, help in the eventual completion 
of other major crop genome sequences, as itself benefited from 
knowledge gained through the prior completion of other genome 
sequences. It will also hold clues to improve the growth and 
development of other related grass crops, such as wheat, sorghum, 
millet and barley. Importantly, access to all of this information is 
shared through GenBank, a public repository for genome-sequence data.
    With increased funding, we will be much closer to achieving the 
goal of this initiative--understanding the structure and function of 
all plant genes. The corn industry, including the academic research 
community, grain handlers, growers, and seed companies support the corn 
genome sequencing project. A complete corn genome sequence and the 
application of its information will provide a wide range of benefits. 
Industry, both public and private, will be able to expedite their 
breeding programs and increase their knowledge of corn's important 
agronomic traits. Corn growers will be able to plant varieties of corn 
that are better suited to market and environmental needs, such as pest 
resistant traits. Quality researchers will continue to be attracted to 
the field of plant genomics and genetics.
    Consumers will also benefit from more abundant and sustainable 
food, feed and fuel supplies. Corn is not only grown for food and feed, 
it is converted to a myriad of processed food products--literally 
thousands of products in the typical supermarket contain corn. 
Improvements aim at increasing yield and nutritional value and 
optimizing the properties crucial for grain products such as flour and 
pasta. The production of corn-based products with enhanced nutritional 
value that are safer and less allergenic will directly benefit 
consumers.
    Corn is also an important material for many industrial purposes and 
products including rubber, plastics, fuel and clothing. Corn is a model 
system for studying complex genomic structure, organization and 
function, and its high quality genetic map will serve as the foundation 
for studies that may lead to improved biomass and bioenergy resources 
from corn and related plant species.
    The request for the Directorate for Biological Sciences (BIO) is 
$633 million, and increase of $25.15 million, or 4.1 percent, over the 
fiscal year 2007 request of $607.85 million. The Directorate for 
Biological Sciences supports research, infrastructure, and education in 
the biological sciences at U.S. colleges, universities, non-profit 
research institutions, and other research and education organizations.
    BIO includes a subactivity request for Plant Genome Research (PGR) 
of $101.22 million, an amount that does not contemplate an increase 
from the fiscal year 2007 request and is a slight decrease from fiscal 
year 2006 actual spending. PGR subactivity was initiated in fiscal year 
1998, as part of the initiative. In general, 36 percent of the PGR 
portfolio is available for new research grants. The remaining 64 
percent is used primarily to fund continuing grants made in previous 
years, which includes corn genome sequencing. PGR supports corn genome 
sequencing jointly with USDA and DOE. The Administration's proposal 
would contribute the third and last increment in support of the 
interagency corn sequencing project that began in fiscal year 2005.
    PGR also supports the Arabidopsis 2010 project. This project in 
fiscal year 2007 and 2008 could receive up to $25 million per year. It 
is important to note that model systems research such as this project, 
has been traditionally supported through NSF's core budget and not PGR. 
This change may result in a reduction of resources available for 
economically significant plants, such as continued work on new projects 
involving the rice genome and future new project stemming from corn 
genome work, during flat budget cycles. The Arabidopsis 2010 project 
and the NSF's PGRP complement each other and provide a broad base of 
support for the plant biology research community. It is critical that 
both activities receive enough support to achieve their goals.
    Maintaining and improving upon the resources available for crop 
systems is now more important than ever, as agriculture tries to meet 
the demands of consumers worldwide by providing a safe and secure 
supply of resources for human and animal nutrition, fiber, bioenergy, 
and industrial feeds. Continued strong governmental support of basic 
agricultural research is essential to ensure that the innovation 
pipeline remains robust. NCGA requests that this subcommittee include 
in the fiscal year 2008 Science, State, Justice and Commerce 
appropriations bill an increase in funding to $150 million for the 
National Science Foundation Plant Genome Research Initiative.
    Thank you for the support and assistance you have provided to corn 
growers over the years. Please feel free to contact Lisa Kelley at 202-
628-7001 if you need any additional information.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission
    Agency Involved: Department of Justice
    Program Involved: COPS Tribal Resources Grant Program (TRGP)
Summary of GLIFWC's Fiscal Year 2008 Testimony
    GLIFWC requests that Congress: (1) continue funding the DOJ COPS 
Tribal Resources Grant Program at $31,065,000 in fiscal year 2008 (i.e. 
the same level as requested by the Administration in fiscal year 2007 
and appropriated by both the House and Senate), and (2) specifically 
authorize eligibility for tribes' special law enforcement agencies, 
including fish and wildlife departments and game wardens, to 
participate in the COPS Tribal Resources Grant Program.\1\
---------------------------------------------------------------------------
    \1\ Unlike previous years and without notice or explanation, the 
Fiscal Year 2006 Application Guide for the TRGP provides: Special law 
enforcement agencies such as fish and wildlife departments, game 
wardens, park and recreation departments, and environmental protection 
agencies are not eligible to apply under this program at this time. The 
status of GLIFWC's fiscal year 2007 TRGP eligibility is unknown at this 
time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Ceded Territory Treaty Rights and GLIFWC's Role
    GLIFWC was established in 1984 as a ``tribal organization'' within 
the meaning of the Indian Self-Determination Act (Public Law 93-638). 
It exercises authority delegated by its member tribes to implement 
federal court orders and various interjurisdictional agreements related 
to their treaty rights. GLIFWC assists its member tribes in: securing 
and implementing treaty guaranteed rights to hunt, fish, and gather in 
Chippewa treaty ceded territories; and cooperatively managing and 
protecting ceded territory natural resources and their habitats.
    For the past 23 years, Congress and Administrations have funded 
GLIFWC through the BIA, Department of Justice and other agencies to 
meet specific federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 U.S. Supreme Court case, 
affirming the treaty rights of GLIFWC's member tribes. GLIFWC serves as 
a cost efficient agency to conserve natural resources, to effectively 
regulate harvests of natural resources shared among treaty signatory 
tribes, to develop cooperative partnerships with other government 
agencies, educational institutions, and non-governmental organizations, 
and to work with its member tribes to protect and conserve ceded 
territory natural resources.
    Under the direction of its member tribes, GLIFWC operates a ceded 
territory hunting, fishing, and gathering rights protection/
implementation program through its staff of biologists, scientists, 
technicians, conservation enforcement officers, and public information 
specialists.
Community-based Policing
    GLIFWC's officers carry out their duties through a community-based 
policing program. The underlying premise is that effective detection 
and deterrence of illegal activities, as well as education of the 
regulated constituents, are best accomplished if the officers live and 
work within tribal communities that they primarily serve. The officers 
are based in reservation communities of the following member tribes: In 
Wisconsin--Bad River, Lac Courte Oreilles, Lac du Flambeau, Red Cliff, 
Sokaogon Chippewa (Mole Lake) and St. Croix; in Minnesota--Mille Lacs; 
and in Michigan--Bay Mills, Keweenaw Bay and Lac Vieux Desert.
Interaction With Law Enforcement Agencies
    GLIFWC's officers are integral members of regional emergency 
services networks in Minnesota, Michigan and Wisconsin. They not only 
enforce the tribes' conservation codes, but are fully certified 
officers who work cooperatively with surrounding authorities when they 
detect violations of state or federal criminal and conservation laws. 
These partnerships evolved from the inter-governmental cooperation 
required to combat the violence experienced during the early 
implementation of treaty rights in Wisconsin. As time passed, GLIFWC's 
professional officers continued to provide a bridge between local law 
enforcement and many rural Indian communities. GLIFWC remains at this 
forefront, using DOJ funding to develop inter-jurisdictional legal 
training attended by GLIFWC officers, tribal police and conservation 
officers, tribal judges, tribal and county prosecutors, and state and 
federal agency law enforcement staff. DOJ funding has also enabled 
GLIFWC to certify its officers as medical emergency first responders 
trained in the use of defibrillators, and to train them in search and 
rescue, particularly in cold water rescue techniques. When a crime is 
in progress or emergencies occur, local, state, and federal law 
enforcement agencies look to GLIFWC's officers as part of the mutual 
assistance networks of the ceded territories. These networks include 
the Wisconsin Department of Natural Resources, Minnesota Department of 
Natural Resources, Michigan Department of Natural Resources, U.S. Coast 
Guard, USDA-Forest Service, State Patrol and Police, county sheriffs 
departments, municipal police forces, fire departments and emergency 
medical services.
GLIFWC Programs Funded by DOJ
    GLIFWC recognizes that adequate communications, training, and 
equipment are essential both for the safety of its officers and for the 
role that GLIFWC's officers play in the proper functioning of 
interjurisdictional emergency mutual assistance networks in the ceded 
territories. GLIFWC's COPS grants for the past six years have provided 
a critical foundation for achieving these goals. Significant 
accomplishments with Tribal Resources Grant Program funds include:
    Improved Radio Communications and Increased Officer Safety.--GLIFWC 
replaced obsolete radio equipment to improve the capacity of officers 
to provide emergency services throughout the Chippewa ceded 
territories. GLIFWC also used COPS funding to provide each officer a 
bullet-proof vest, night vision equipment, and in-car video cameras to 
increase officer safety.
    Emergency Response Equipment and Training.--Each GLIFWC officer has 
completed and maintains certification as a First Responder and in the 
use of life saving portable defibrillators. Since 2003, GLIFWC officers 
carried First Responder kits and portable defibrillators during their 
patrol of 275,257 miles throughout the ceded territories. In remote, 
rural areas the ability of GLIFWC officers to respond to emergencies 
provides critical support of mutual aid agreements with federal, state, 
and local law enforcement agencies.
    Ice Rescue Capabilities.--Each GLIFWC officer maintains 
certification in ice rescue techniques and was provided a Coast Guard 
approved ice rescue suit. In addition, each of patrol areas was 
provided a snowmobile and an ice rescue sled to participate in 
interagency ice rescue operations with county sheriffs departments and 
local fire departments.
    Wilderness Search and Rescue Capabilities.--Each GLIFWC officer 
completed Wilderness Search and Rescue training. The COPS Tribal 
Resources Grant Program also enabled GLIFWC to replace a number of 
vehicles that were purchased over a decade ago, including 10 ATV's and 
16 patrol boats and the GPS navigation system on its 31 foot Lake 
Superior Patrol Boat. These vehicles are used for field patrol, 
cooperative law enforcement activities, and emergency response in the 
1837 and 1842 ceded territories. GLIFWC officers also utilize these 
vehicles for boater, ATV, and snowmobile safety classes taught on 
Reservations as part of the Commission's Community Policing Strategy.
    Hire, Train and Equip Three Additional Officers.--Funding has been 
contracted to provide three additional officers to ensure tribes are 
able to meet obligations to both enforce off-reservation conservation 
codes and effectively participate in the myriad of mutual assistance 
networks located throughout a vast region covering 60,000 square miles.
    Consistent with numerous other federal court rulings on the 
Chippewa treaties, the United States Supreme Court re-affirmed the 
existence of the Chippewa's treaty-guaranteed usufructuary rights in 
Minnesota v. Mille Lacs Band, 526 U.S. 172 (1999). As tribes have re-
affirmed rights to harvest resources in the 1837 ceded territory of 
Minnesota, workloads have increased. But for GLIFWC's COPS grants, this 
expanded workload, combined with staff shortages would have limited 
GLIFWC's effective participation in regional emergency services 
networks in Minnesota, Michigan and Wisconsin. The effectiveness of 
these mutual assistance networks is more critical than ever given: (1) 
national homeland security concerns, (2) state and local governmental 
fiscal shortfalls, (3) staffing shortages experienced by local police, 
fire, and ambulance departments due to the call up of National Guard 
and military reserve units, and (4) the need to cooperatively combat 
the spread of methamphetamine production in rural areas patrolled by 
GLIFWC conservation officers.
    Examples of the types of assistance provided by GLIFWC officers are 
provided below:
  --as trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories) and provide sheriffs 
        departments valuable assistance with natural disasters (e.g. 
        floods in Ashland County and a tornado in Siren, Wisconsin).
  --search and rescue for lost hunters, fishermen, hikers, children, 
        and the elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        Counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        Counties in Michigan).
  --being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett, and Polk 
        Counties in Wisconsin) and responding to weapons incidents 
        (Ashland, Bayfield, Burnett, Sawyer, and Vilas Counties in 
        Wisconsin).
  --use of a thermal imaging camera (purchased through the COPS 
        program) to track an individual fleeing the scene of an 
        accident (Sawyer County, Wisconsin).
  --organize and participate in search and rescues of ice fishermen on 
        Lake Superior (Ashland and Bayfield Counties in Wisconsin), 
        Lake Superior boats (Baraga County in Michigan and with the 
        U.S. Coast Guard in other parts of western Lake Superior), and 
        kayakers (Bayfield County in Wisconsin).
    GLIFWC is proposing to utilize DOJ TRGP funding for training and 
equipment to: (1) recognize, secure and respond appropriately to 
potential methamphetamine production sites, (2) identify addicts while 
on patrol, and (3) improve community awareness through hunter safety 
classes. Simply put, supporting GLIFWC's officers will not only assist 
GLIFWC in meeting its obligations to enforce tribal off-reservation 
codes, but it will enhance intergovernmental efforts to protect public 
safety and welfare throughout the region in the states of Wisconsin, 
Minnesota, and Michigan. The COPS Tribal Resources Grant Program 
provides essential funding for equipment and training to support 
GLIFWC's cooperative conservation, law enforcement, and emergency 
response activities. We ask Congress to support increased funding for 
this program.

              [From Outdoor Life Magazine, December 2006]

                       Meth Wars in Deer Country
    As its cost in dollars and lives mounts, the fight against 
methamphetamine now involves sportsmen to a degree no one predicted a 
handful of years ago. Across the rural countryside, meth labs have 
invaded the lands where we fish and hunt.
    One December evening in 2004, Wildlife Officer Amy Snyder heard 
shots after legal shooting hours in a popular duck-hunting area in 
Madison County, Tenn. She put on hip boots and set out into the marsh. 
But when she arrived at the blind where she thought the shooting had 
occurred, she found it unoccupied.
    Then Officer Snyder noticed a chemical odor in the air. She shined 
her light around and in the grass saw a large glass mason jar filled 
with what looked like corn hominy. She kicked over the jar, saw rubber 
hoses coming out of the top and panicked.
    ``It was a meth lab, actively cooking,'' Snyder recalls. ``What I'd 
done was extremely dangerous. The stuff could have exploded, not to 
mention what might have happened if I'd surprised the cookers at 
work.''
    Snyder had reason to be unnerved. The February before in Greene 
County, Ind., Conservation Officer Mike Gregg got a report of 
suspicious activity deep inside the Hillenbrand Fish and Wildlife Area. 
Gregg went in alone to investigate on a cold winter day and caught the 
unmistakable acrid tang of anhydrous ammonia, a liquid fertilizer and 
key component in the manufacture of methamphetamine. He got closer and, 
to his surprise, noticed a man trying to hide beneath the root ball of 
a fallen tree.
    ``He took off and I chased him through the snow,'' Gregg says. 
``When I caught up to him, he pulled a 9 mm pistol on me. I had to 
shoot him in the leg to subdue him. He was typical of the methers we 
see: paranoid, armed and violent.''
    The prior March, Alabama conservation officer Jimmy Hutto learned 
just how paranoid, armed and violent meth cookers can be. While 
arresting a man for fishing without a license, he found meth and soon 
was involved in serving a search warrant on the suspected cooker. But 
the man's property was wired to detect intruders. And when Hutto broke 
down the door to the lab, the cooker was waiting and shot the 
conservation officer in the abdomen. Hutto died two weeks later.
                            a rural scourge
    These incidents are not isolated. Law enforcement and conservation 
officials we contacted across the country describe a wave of 
methamphetamine manufacturing activity that has crashed across the 
rural countryside in the last five years, causing a dramatic change in 
the way game wardens operate and in the way hunters, anglers and other 
recreationists should conduct themselves afield.
    ``The landscape is changing,'' says Keith Aller, deputy director of 
law enforcement for the U.S. Bureau of Land Management. ``Twenty years 
ago meth was an outlaw biker thing, an urban thing. But in the past 
five years we've seen cookers take their labs to the forests and rural 
areas to avoid detection and to dump the toxic by-products of their 
work. We've also seen meth addicts exploiting public lands to pay for 
their habits. I don't want to sound alarmist, but people need to 
understand what we're up against these days and what they might 
encounter when they head outdoors.''
                             meth's history
    Methamphetamine was first synthesized in Japan in 1919 and was 
widely prescribed to Allied and Axis combatants to keep them awake 
during protracted World War II battles. Marketed as Benzedrine in the 
1950s, it was the drug of choice for people who wanted to lose weight. 
A decade later, outlaw biker gangs in the United States learned the so-
called ``Birch'' or ``Nazi method'' of manufacturing the drugs from 
over-the-counter cold medicines, and created the market for speed.
    Congress made the drug illegal without a prescription in 1970, but 
by the early 1980s new recipes had made meth easier to cook and more 
potent, offering the user a 6- to 24-hour high that also damaged the 
brain.
    This super-meth took off in Hawaii and Southern California first, 
manufactured by Mexican drug cartels. But soon the drug was being 
manufactured by mom-and-pop cookers, and within 20 years it spread 
eastward through the Rocky Mountains, into the Midwest and onto the 
East Coast. An urban phenomenon at first, it turned rural as the rank 
odors associated with its production caused cookers to set up in less 
populated areas to avoid detection. That practice has placed some meth 
labs in the same woods and waterways as hunters, anglers and other 
outdoorsmen.
    Consider that in 2003 the greatest number of reported meth lab 
seizures on Department of Interior lands occurred on those managed by 
the Fish & Wildlife Service (38 laboratories), followed by the Bureau 
of Land Management (31 laboratories), National Park Service (8 
laboratories) and Bureau of Indian Affairs (6 laboratories). That same 
year, the National Forest Service discovered 56 working labs on its 
land.
                            hunters and meth
    But those numbers are believed to be only a fraction of the 
activity on federal land, not to mention state and private property. 
And anecdotal evidence of meth invading the outdoors is easy to come 
by.
    In November 2004, for example, deer hunters on state land near 
Reelsville, Ind., came upon a duffel bag containing an actively cooking 
meth lab. They wisely backed away from the potentially explosive 
situation and notified the local police, who quickly dismantled and 
removed it.
    Twelve months earlier in Ashley County, Ark., deer hunters tipped 
sheriff's investigators to the fact that methamphetamine manufacturers 
had taken over remote deer blinds and were using them as labs. 
Narcotics detectives ended up finding four cooking operations set up in 
Ashley County deer blinds. In Wright County, Minn., four years before, 
cookers decided to use ice-fishing shanties to manufacture meth on 
Waverly Lake. Game wardens notified Sheriff's Sergeant Todd Hoffman of 
the activity. When Hoffman arrived to investigate, he noticed a solvent 
smell seeping from one of the shacks.
    Some of the more dangerous ingredients found in meth labs include 
lithium battery acid, charcoal lighter fluid and paint thinner. But the 
most common component--other than cold and allergy medicines that 
contain the drug pseudoephedrine--is anhydrous ammonia. Cookers 
sometimes steal this fertilizer from storage tanks on rural farms, 
ranches and supply stores.
    Needing more evidence to justify a search, Hoffman sifted through a 
nearby trash pile. When he picked up a thermos, anhydrous ammonia gas 
erupted from the vessel.
    ``My face began to burn, and for five or ten seconds I couldn't 
breathe,'' Hoffman told the Minneapolis City Pages newspaper. ``I 
thought my face was dissolving.''
    Hoffman was lucky not to have been seriously injured: When 
anhydrous ammonia contacts skin, it forms ammonium hydroxide, a highly 
caustic liquid that burns. Exposure to low levels of some meth 
ingredients like anhydrous ammonia can cause flu-like symptoms. Higher 
levels of exposure can cause lung and eye damage, chemical burns and 
even death.
    Idaho Fish and Game officer Clint Rand was involved in a meth-
related theft in 2000. Rand pulled over to help a disabled vehicle only 
to be shot at four times by the occupants, who had recently stolen 
anhydrous ammonia from a fertilizer supply store in Farmington, Wash., 
at gunpoint.
    ``Rand was very lucky not to have been hit,'' says Idaho Fish and 
Game law enforcement bureau chief Jon Heggen. ``But they blew out his 
windshield. It affected him and his family greatly. He recently decided 
to retire. That said, we're not experiencing the level of activity seen 
in other parts of the country. We've found labs in abandoned mines and 
dumps in the forest, but it's not widespread. However, it only takes 
one to get your attention. Meth goes beyond the bad guys trying to harm 
you. The stuff they leave behind in those dumps can kill you.''
                           toxic waste dumps
    Indeed, as any law enforcement or conservation officer familiar 
with meth will tell you, one of the truly insidious aspects of the drug 
is that the waste associated with its manufacture is as dangerous as 
the drug, the labs or the users.
    According to the National Drug Intelligence Center, every pound of 
meth creates 5 to 7 pounds of toxic waste. Of the 32 chemicals required 
to make meth by the Nazi method, for example, a third of them are so 
poisonous that cleanup workers have to wear biohazard suits and 
respirators.
    The chemical residues of meth manufacture can include lye, 
phosphorous, hydrochloric acid and iodine. Dump sites can include 
contaminated coffee filters stained red from the dye in cold medicines, 
mason jars or Pyrex baking dishes, rubber and plastic hosing, plastic 
bottles, salt, industrial solvent tanks, discarded methanol or alcohol 
bottles, white gas containers and propane tanks with the brass fittings 
stained blue or green from contact with anhydrous ammonia.
    According to congressional testimony, it can take up to eight hours 
and $5,000 to $20,000 to clean up a meth lab. Depending on its size, 
the manpower and money required to clean up a meth dump site are less. 
But when the lab or the dump is outdoors, there are hidden costs, such 
as contamination of groundwater and the potential poisoning of game, 
hunting dogs or humans--all things that law enforcement officers who 
patrol the great outdoors are forced to keep in mind these days.
                      law enforcement's new burden
    ``Before 2000, we'd be hard-pressed to find a meth dump. Now it's 
not uncommon to find two or three a week,'' says Patrol Captain Dennis 
Whitehead, who oversees law enforcement in Kentucky's Daniel Boone 
National Forest. ``Drug crimes have come to the forest in a big way. 
We're not just squirrel cops anymore. Sometimes forty percent of our 
job is associated with drugs. We've had cookers use campsites. We've 
had them drive roads with the stuff cooking in their cars. We've even 
had a ring of poachers who were shooting deer and trading the meat for 
meth. In the last five years, being a forest ranger has changed one 
hundred and eighty degrees, and it's all due to that drug.''
    Indiana conservation officer Gregg agrees: ``Meth has changed my 
job. It's gotten to the point where as a conservation officer these 
days you're better off going into a situation thinking you may be 
dealing with meth rather than a game violation.''
    The state-by-state statistics back up Gregg's grim assessment. The 
Drug Enforcement Administration reports that in 1999 in Indiana, there 
were 151 methamphetamine incidents where law enforcement officials, 
including conservation officers, had to deal with labs, dump sites or 
disposal of cooking chemicals or equipment.
    The following year the incidents in Indiana more than doubled to 
353. By 2004, the latest year for which numbers are available, the 
state reported 1,074 cases in which law enforcement officials had to 
confront meth labs or dumps in the course of their work.
    The situation was even worse in Missouri, where the number of meth 
incidents jumped from 439 in 1999 to 2,885 in 2003 before falling 
slightly (to 2,788) in 2004. In those years nearly 70 percent of the 
dumps were found in the Mark Twain National Forest, one of the best 
places to hunt in the state.
                            sportsmen warned
    Iowa had the second-highest number of meth-lab incidents in 2004. 
Like several other states, including Montana, South Dakota and 
Tennessee, Iowa has taken to informing hunters and other outdoor 
enthusiasts about the threat.
    The Iowa Division of Natural Resources, for example, now posts 
warnings on its Web site and at its offices around the state, alerting 
hunters to the potential hazards they face from meth when afield.
    ``It's sad to say, but many of our best hunting and fishing areas 
are conducive to cooking and dumping meth,'' says Lowell Joslin, chief 
of law enforcement for the Iowa DNR. ``We've found as an agency that 
one of the best things we can do is put information out to sportsmen. 
We want to educate them about meth so they know for their own health 
what to do when they encounter a lab or a dump, and also to have them 
report what they find to the nearest law enforcement agency.''
    Like many rural states these days, Iowa provides its conservation 
officers with extensive training in drug enforcement and drug lab/drug 
dump recognition and management. The state also includes a 
methamphetamine awareness component in its hunter-safety courses.
    ``In every hunter-ed course I teach, I talk about meth,'' says Iowa 
conservation officer Kirby Bragg. ``It's just a smart thing to do. For 
a while there out in the field I was running across active labs or the 
remnants of labs two to five times a week. The most memorable incident 
occurred opening day of deer season in 2003. I spotted a guy in a van 
parked with his motor running on a road adjacent to one of our more 
popular hunting areas. I didn't know if he was hunting or what. When I 
tried to approach him, he took off and we ended up in a high-speed 
pursuit. Turns out he had an active lab going in the back of the van. 
Moving meth labs are essentially moving bombs. We never had to deal 
with that kind of thing ten years ago.''
    Nor did outdoor law enforcement officials have to deal with the 
kind of random paranoid violence that BLM ranger Steven Martin faced in 
California in 2003.
    ``He was driving on a remote section of BLM land and happened on 
two guys sitting in a car,'' says BLM deputy director Aller. ``When he 
approached, they immediately opened fire and then took off into the 
hills. These were young kids, eighteen to twenty, with no history of 
violence. But meth was found in the car and when they were finally 
apprehended, they told investigators they felt their best option was to 
kill the ranger when he stopped them. That's extreme, but that's what 
meth does to people.''
    Another incident Aller cites shows how far meth addicts are willing 
to go to support a habit, and how that can lead to the destruction of 
property and murder.
    ``The BLM administers two hundred and sixty million acres out west, 
and that land includes all sorts of recreational, archeological and 
paleontological resources that can be and have been stolen by addicts 
and sold to buy more meth,'' Aller says. ``In early 2005, for example, 
one of our special agents in Oregon got word that a group of meth 
addicts were dismantling a BLM bridge and selling it as scrap aluminum. 
It sounds screwy, but that's what they were doing. Anyway, our bridge 
was disappearing, so the agent began to investigate, and he identified 
the people he thought were responsible and started doing interviews. It 
turns out that the suspects believed one of their own was cooperating, 
so they killed him. Because of a bridge. Again, extreme, but that's 
what meth does.''
                             fighting back
    Thankfully, there is some good news on the prevention front: In the 
past year, many of the rural states hit hardest by the drug have passed 
strong laws limiting access to over-the-counter cold and allergy 
medicines that contain pseudoephedrine. Many are based on a law first 
passed in Oklahoma that resulted in an 80 percent reduction in meth lab 
seizures in that state since April 2004.
    The laws require products containing pseudoephedrine to be sold 
behind the pharmacy counter. They also limit the purchase of 
pseudoephedrine products to 250 thirty-milligram pills a month and 
require buyers to present I.D. and sign for the medicine at the time of 
sale.
    Iowa, one of the hardest-hit states, has gone several steps 
further, requiring a prescription for pseudoephedrine medicines. And 
some Iowa counties have started distributing locks that prevent 
anhydrous ammonia from being stolen from retailers.
    ``It's helped,'' says Iowa conservation officer Kirby Bragg. ``I 
haven't run across as many labs or dumps this year as I did just two 
years ago.''
    Indiana conservation officer Mike Gregg has seen a similar drop but 
cautions all outdoor enthusiasts to be careful in the woods and on 
lakes.
    ``It has slowed a little,'' Gregg says. ``The new laws are good and 
so are ideas like locking up anhydrous tanks. But meth cookers are 
clever. We've already seen them shifting from using anhydrous ammonia 
to using red phosphorous in their labs. We're also hearing about them 
experimenting with cold alcohol as a component. When it comes right 
down to it, meth is highly addictive and highly lucrative, and it isn't 
going away anytime soon. People who live or recreate in rural areas 
need to be aware of its dangers.''
                 what to do if you encounter a meth lab
    Okay, so you come across what looks like a high school chemistry 
experiment that stinks or a pile of trash dumped somewhere in your 
hunting woods or streamside of your favorite trout river. What do you 
do?
    First, err on the side of caution. Meth labs and meth dumps are 
dangerous places. If actively cooking, meth labs are highly volatile 
and can explode. And meth dumps are filled with toxins. So get back. If 
you're hunting with dogs, get your dogs back, too. If you've got a 
binocular, use it to confirm what you're looking at.
    With an active lab or a dump, you'll see a combination of these 
items: glass jars, rubber tubing, thermometers, aluminum foil, 
blenders, cheesecloth, coffee filters, funnels, gas cans, hot plates, 
paper towels, propane, Pyrex dishes, rubber gloves, strainers, duct 
tape and clamps.
    The chemicals involved are harder to identify unless they're 
labeled. But expect that any lab or dump might contain the following: 
acetone; isopropyl or rubbing alcohol; cold pills containing ephedrine 
or pseudoephedrine; drain cleaner (sulfuric acid); engine starter 
(ether); iodine; HEET gasoline additive; lithium batteries; matches for 
red phosphorous; muriatic acid, anhydrous ammonia; Red Devil lye; salt; 
or trichloroethane, which ironically is a common gun-cleaning solvent.
    If, based on what you can see from a distance, you believe you've 
stumbled onto a lab or a dump, back completely out of the area and 
contact the closest law enforcement department, including rangers and 
conservation officers. They'll get hazardous-materials experts to 
dismantle and clean up the mess.
    ``We don't want hunters or anglers to get hurt, but if they locate 
some of the meth activities and report them, it's a big help to us,'' 
says Lowell Joselin, chief of law enforcement for the Iowa Division of 
Natural Resources.
                                 ______
                                 
 Prepared Statement of The Trust for Public Land, Land Trust Alliance, 
 The Nature Conservancy, The Conservation Fund, The Ocean Conservancy, 
    Association of National Estuary Programs, and Restore America's 
                               Estuaries
    On behalf of The Trust for Public Land, Land Trust Alliance, The 
Nature Conservancy, The Conservation Fund, The Ocean Conservancy, 
Association of National Estuary Programs, and Restore America's 
Estuaries, we would like to thank you for your strong support of our 
nation's Coastal Zone Management Program, and coastal land 
conservation. We are writing today in support of the Coastal and 
Estuarine Land Conservation Program (CELCP).
    Created by Congress in 2002, CELCP protects ``those coastal and 
estuarine areas with significant conservation, recreation, ecological, 
historical or aesthetic values, or that are threatened by conversion 
from their natural or recreational states to other uses.'' Thus far, 
this program has invested over $177 million towards 119 conservation 
projects in 25 of the nation's 35 coastal states, and has helped 
preserve some of America's greatest coastal treasures. All federal 
funding has been leveraged by at least an equal amount of state, local 
and private funds. NOAA has a proud 200-year tradition of sound 
management of our nation's coastal resources, and the CELCP program 
further builds upon that achievement. We hope to continue this federal-
state partnership and encourage you to fund CELCP at $80 million for 
fiscal year 2008.
    Our nation's coastal zone is under significant pressures from 
unplanned development. In fact, it is estimated that by 2025, nearly 75 
percent of the nation's population will live within 50 miles of the 
coast, in addition to millions more who enjoy America's storied 
coastlines. Across the nation, beaches and waterfronts have always been 
the destination of choice for Americans. Billions of dollars of the 
country's GDP are generated by coast-based economic activities, 
inexorably linking our coastal zone with the economic health of the 
nation.
    As a result of this economic boom, rapid, unplanned development has 
marred once-pristine viewsheds and substantially reduced public access 
to the coast. The resulting increase in impervious surfaces has 
correspondingly increased non-point source pollution and seriously 
degraded coastal and estuarine waters. The loss of coastal wetlands has 
drastically impaired estuaries, some of the most productive habitat on 
earth. The U.S. Commission on Ocean Policy has also stressed the 
importance of land conservation as part of its broader recommendations 
to Congress and the Nation.
    Increased funding for CELCP will complete a substantial number of 
important coastal conservation projects around the country, many of 
which still hang in the balance from the yet-undecided fiscal year 2007 
allocation. While we are optimistic at the first-time inclusion of 
CELCP in the President's fiscal year 2008 proposed budget, the proposed 
funding level is vastly lower than what is needed on the ground and 
well below what your subcommittee has historically proposed. While this 
signal of the Administration's growing support for the program is an 
important and welcome milestone in the evolution of the federal-state 
CELCP partnership, the strong support of Congress is paramount. Again, 
we urge you to sustain that partnership this year by using your 
discretion to fund CELCP at $80 million in fiscal year 2008. We look 
forward to working with you as this process moves forward.
                                 ______
                                 
 Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa, 
   Nisqually Tribe of Washington, Puyallup Tribe of Washington, and 
         Shoshone-Paiute Tribes of the Duck Valley Reservation
    Chairwoman Mikulski, Ranking Member Shelby and members of the 
Subcommittee, we respectfully submit the following written testimony 
regarding funding for tribal law enforcement and justice programs 
within the Department of Justice budget. In fiscal year 2008, as in 
past years, the President has proposed significant cuts to several 
grant programs that provide critical funding to tribal law enforcement 
agencies and justice systems. If enacted, these cuts will cripple 
tribal justice systems. We respectfully request that you reject these 
proposed cuts. We would also like to endorse the recommendations made 
by the Senate Committee on Indian Affairs in its ``views and 
estimates'' letter.
                              introduction
    The need for law enforcement resources across Indian country is 
severe. Today, there are 1.3 law enforcement officers per 1,000 
citizens in Indian county, compared to 2.9 law enforcement officers per 
1,000 citizens in non-Indian communities. It is estimated that more 
than 2,000 additional officers are required across Indian country just 
to meet minimum safety standards. Police officers working on 
reservations frequently have to patrol alone because of personnel 
shortages. Understandably, newly-trained and veteran officers often 
leave to take jobs that require less of a risk to their personal 
safety, exacerbating officer shortages. Equipment needs are also great. 
Tribal law enforcement agencies need stable funding to address these 
core shortages. This need has become even more severe in recent years 
because of increased methamphetamine use, production and trafficking on 
reservations. It is a vicious cycle--lack of funding for even the most 
basic elements of a law enforcement program is part of what contributes 
to the perception that reservations are ``lawless.'' This perception is 
what makes our communities attractive to drug dealers, which in turn 
increases the need for resources.
    Of course, effective crime prevention takes more than just police 
officers. Tribes also operate court systems, detention facilities, drug 
treatment services and other alternatives to detention. Many tribes 
have also invested in preventative programs, such as youth centers, 
youth activity programs and drug education. As governments, we 
recognize our responsibility for fostering positive change and 
rehabilitation, even in our jails. More often than not, the inmates are 
people from our community who will be returning to the community when 
they are released, so we have a particular incentive to help them 
pursue positive changes. Without all of these services, though, we are 
stuck in a cycle of arresting and locking up our own people.
                                requests
    Office of Justice Programs, State and Local Law Enforcement 
Assistance.--For fiscal year 2008, the Department of Justice has 
requested $550 million for state and local law enforcement assistance 
within the Office of Justice Programs. Instead of breaking the funding 
request down into specific grant programs--as in past years, the 
Administration instead requests $312 million for flexible public safety 
grants under the Byrne Public Safety and Protection program and $180 
million for a violent crime reduction partnership initiative. However, 
this reorganization of the OJP budget camouflages an overall decrease 
of $900 million for all the programs included in this category. While 
such flexible funding initiatives can often be useful to tribes, the 
Administration's proposal would (1) significantly reduce the overall 
funding amount and (2) eliminate any specific set-aside for tribes. We 
are greatly concerned that, without this set-aside, tribal programs 
will lose funding because they are forced to compete with all other 
programs. We request that Subcommittee reject any decrease in the 
programs and, specifically, we ask that the following tribal justice 
programs be funded at least at fiscal year 2007 levels:
  --Tribal courts--No less than $8 million.
  --Indian Country Grant program--No less than $5 million.
  --Correctional Facilities on Tribal Lands--No less than $20 million 
        to address the facility needs documented by the Office of the 
        Inspector General.
  --Bureau of Justice Assistance, Indian Alcohol and Substance Abuse 
        Demonstration Program--No less than $5 million.
    Tribal Youth Program.--The Administration again proposes an overall 
decrease of $100 million for child safety and juvenile justice 
programs. As with state and local law enforcement assistance, the 
proposal would consolidate several programs into the new Child Safety 
and Juvenile Justice Initiative, a single, flexible, competitive grant 
program. This would encompass funding for Juvenile Justice and 
Delinquency Prevention, Juvenile Delinquency Block Grants, Internet 
Crimes Against Children, and several other grant programs. By combining 
these programs, however, the Administration tries to hide its overall 
reduction and also eliminates the set-aside for tribes typically 
provided by the Tribal Youth Program earmark. We ask that the 
Subcommittee provide at least as much funding for these programs as was 
provided last year. Most importantly, we ask that the Subcommittee 
restore the $10 million earmark for the Tribal Youth Program.
    Indian Country COPS.--The Administration proposes to completely 
eliminate funding for the Indian Country COPS program. The 
justification provided is that tribes can apply for competitive grants 
under other OJP programs, but--as described above--the Administration 
is in fact decreasing funding for those programs. Since its 
establishment in fiscal year 1999, the COPS program has provided 
essential public safety services in Indian County and has assisted 
tribes in increasing the number of law enforcement officers. We simply 
cannot afford to lose these officers, which is what will occur if COPS 
funding is cut. We ask the Subcommittee to restore funding for the COPS 
program at $33.2 million, the fiscal year 2007 amount.
    Office of Violence Against Women.--The Office of Violence Against 
Women administers the programs authorized by the Violence Against Women 
Act (VAWA). The most recent VAWA reauthorization provided for a range 
of important intervention, support and enforcement programs. 
Importantly, that law also provides that 10 percent of all appropriated 
funds be set aside for Indian tribes. These programs are of critical 
importance in Indian country, where the rates of domestic violence are 
extremely high. As Congress found, Indian women are battered at a rate 
of 23.2 per 1,000 (compared with 8 per 1,000 among Caucasian women). 
From 1979 through 1992, homicide was the third leading cause of death 
of Indian females aged 15 to 34, and 75 percent were killed by family 
members or acquaintances. Rape is also far too common--1 out of every 3 
American Indian and Alaska Native women are raped in their lifetimes. 
Indian women experience 7 sexual assaults per 1,000 (compared with 4 
per 1,000 among Black Americans, 3 per 1,000 among Caucasians, 2 per 
1,000 among Hispanic women, and 1 per 1,000 among Asian women). 
Unfortunately, these programs have never been funded up to authorized 
levels. For fiscal year 2008, the Administration proposes yet another 
decrease. We ask the Subcommittee to restore funding for VAWA programs 
to at least $387 million, the amount provided in fiscal year 2006.
    Office of the United States Attorney.--We would like to see funding 
increased for local Assistant U.S. Attorneys with responsibilities for 
Indian country law enforcement sufficient to support at least one full-
time position. Currently, the part-time hours of many Indian country 
AUSAs make effective law enforcement on our Reservations difficult.
                                context
    We would like to give the Committee a picture of the law 
enforcement systems in our communities and some of the specific needs 
we face.
    Nisqually Tribe.--The Nisqually Reservation is located in 
Washington State. Our Reservation is approximately 5,000 acres. We 
serve approximately 6,000 Indian people in our service area, about 600 
of whom are enrolled tribal members living on the Reservation, and the 
rest of whom live in surrounding areas. We have a land-based police 
force with nine officers, which is solely responsible for enforcing 
tribal law and also works closely with local police on other matters. 
Our police also have extensive marine water enforcement duties. We 
employ two water patrol officers to patrol over 100 square miles of 
Puget Sound for both the treaty salmon fishery and treaty shellfish 
harvesting. We also provide hunting enforcement for over 50,000 acres 
of land in the Tribe's usual and accustomed area within the Nisqually 
River watershed. Besides our police department, we have a tribal court 
with two full-time judges, and we employ ten detention officers at our 
45-bed detention facility (built in 2002). Like many other tribes, we 
are struggling to cope with escalating methamphetamine use and 
associated increases in gang activity and property crime related to 
dealing and manufacturing.
    Shoshone-Paiute Tribes.--The 463-square mile Duck Valley 
Reservation straddles the border of Nevada and Idaho. We have 
approximately 1,700 tribal members, about 900 of whom live on the 
Reservation. Our population is very young--nearly 70 percent of our 
people are under the age of 34. Much of our law enforcement is handled 
by the Bureau of Indian Affairs. However, the DOJ has been an important 
source of funding for us--for example, we have received grants in the 
past to construct a juvenile detention facility and to encourage 
enforcement of protection orders. At this time, our greatest need is 
more help from federal law enforcement officials, such as regional 
AUSA.
    Puyallup Tribe.--The Puyallup Reservation is located in the 
urbanized Seattle-Tacoma area of the State of Washington. The 18,061-
acre reservation and related urban service area contains 17,000 plus 
Indian people from over 435 Tribes and Alaska Villages. The Puyallup 
Nation Law Enforcement Division currently has 26 commissioned officers 
to cover 40 square miles of reservation in addition to the usual and 
accustomed areas. We currently operate with limited equipment, patrol 
vehicles requiring constant repair and insufficient staff levels. With 
the continuing increase in population, increase in gang related 
activities on the Puyallup Reservation and the impact of the increase 
in manufacturing of methamphetamines in the region, the services of the 
Puyallup Nation Law Enforcement Division are exceeding maximum levels.
    The demand on law enforcement services will increase as tribal 
governments continue to enhance civil and criminal justice 
administration and as tribal governments play an integral role in 
securing America's borders, citizens and physical infrastructure. This 
demand is further impacted by the existing and growing ``gang problem'' 
within the boundaries of the Puyallup Reservation. These gangs are 
different than other reservations due to our urban setting (Puget Sound 
region of the State of Washington), five other city boundaries next to 
our exterior boundaries, six separate local jurisdictions and 
Interstate 5 traversing through the reservation. In an effort to combat 
these gang activities, the Puyallup Tribal council created a Gang Task 
Force from the Tribal Police Department, representatives from various 
Tribal Services Divisions and community members. The Gang Task Force 
developed a gang policy that includes a four-prong approach to gang 
related activities: (1) enforcement, (2) intelligence, (3) education, 
and (4) and physical-mental health. We have begun to implement this 
strategy, but such a major law enforcement undertaking will require 
more officers, additional and continued training, specialized 
equipment, and adequate detention facilities for adults and juveniles.
    A major area of concern is the status of the Tribe's Regional 
Detention Facility. Due to damages from the February 2001 Nisqually 
earthquake, we have had to relocate to modular/temporary facilities. As 
a regional detention facility, the relocation to the modular facility 
not only impacts the Tribe's ability to house detainee's but also the 
approximately 173 native inmates that were incarcerated at the Puyallup 
Incarceration facility during the period of 2001-2002. Relocation to 
the modular facility has also impacted the Tribes ability to house 
juvenile detainees. With no juvenile facilities, our youth are sent to 
non-Native facilities. Both the Department of the Interior and the 
Department of Justice have essentially stopped providing construction 
funding since 1998. Yet the need for new and replacement facilities is 
still great.
    Fond du Lac Band of Lake Superior Chippewa.--The Fond du Lac Band's 
law enforcement program grew out of the Band's responsibilities for 
enforcing conservation laws that protect natural resources and regulate 
Band members who hunt, fish and gather those resources both within and 
outside the Reservation pursuant to rights reserved under Treaties with 
the United States in 1837 and 1854. The Band's rights to hunt, fish and 
gather on lands ceded under these treaties have been recognized and 
upheld by the federal courts and the United States Supreme Court. Under 
established Band conservation law, the Band is responsible for 
enforcing regulations over approximately 8,000,000 acres in northern 
and central Minnesota. It is also essential that the Band continue to 
manage its on-reservation resources in order to meet the demands of an 
increasing population. The on-reservation resources are vitally 
important to Band members as they provide the foundation for our 
culture, subsistence, employment and recreation.
    Following a Minnesota Supreme Court decision in 1997 holding that 
the State did not have jurisdiction to enforce traffic laws on roads 
within Indian reservations, the Band needed to establish a Tribal law 
enforcement department to address on-reservation law enforcement needs. 
The Band has done this, using a combination of tribal funds and federal 
funds (made available through the Community Oriented Policing Services 
(COPS) program and the Bureau of Indian Affairs), and by entering into 
cooperative agreements with local law enforcement agencies. Due in 
large part to that decision, the Band responds to a few thousand calls 
every year including traffic stops, domestic assaults, disturbance, 
theft and drug and alcohol related incidences, to name just a few. The 
Band has also experienced an increase in law enforcement 
responsibilities as a result of the insurgence of methamphetamine and 
prescription drug use on our Reservation. Drug-related deaths and crime 
are dramatically increasing on our Reservation which in turn 
drastically increases our law enforcement responsibilities.
    With these increased responsibilities, the Band has begun to plan 
and develop strategies to address our law enforcement needs, including 
staffing, training, equipment, and educating our youth to prevent crime 
and drug use. The Band currently operates its law enforcement program 
with ten officers but would be able to better address the growing law 
enforcement needs if the Band had 15-20 officers, which would require 
additional funding for staffing, training, recruitment and retention. 
Further, the current budget does not allow the Band to offer 
competitive salaries needed to recruit and retain officers. Additional 
tribal officers would also enable the Band to ensure that a School 
Resource Officer be permanently located at the Ojibwe School and would 
allow the Band to implement programs aimed at educating youth about a 
career in tribal law enforcement. The Band is also developing a tribal 
process for issuing and enforcing orders for protection, which will 
compliment our existing family support services programs. In regards to 
equipment, the Band would be more efficient if it had its own 
intoxilizer instead of having to transport arrestees an hour away to 
the St. Louis County Jail for DWI processing. Lastly, and of 
significant importance, the Band anticipates that additional funding 
will be necessary to address support costs associated with upgrading to 
the advanced dispatching system already in use by St. Louis and Carlton 
Counties.
                               conclusion
    The need for law enforcement resources in each of our communities 
is great. We ask that the Subcommittee recognize the important role 
that the Department of Justice plays in providing law enforcement 
resources to tribes. At a minimum, we ask you to reject the 
Administration's proposal to eliminate specific tribal programs under 
its jurisdiction. If we can provide any additional information, please 
do not hesitate to contact our counsel, Mary J. Pavel or Addie C. 
Rolnick at Sonosky, Chambers, Sachse, Endreson & Perry, LLP, 1425 K 
Street NW, Ste. 600, Washington D.C. 20005; 202-682-0240 (tel); 202-
682-0249 (fax); <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b263b2a3d2e270b3824252438203265282426">[email&#160;protected]</a>; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e485968b888a8d878fa4978b8a8b978f9dca878b89ca">[email&#160;protected]</a>
                                 ______
                                 
          Prepared Statement of the UNH Cooperative Extension
    Madam Chairwoman and Honorable members of the Subcommittee, I 
appreciate the opportunity to provide testimony in support of an 
appropriation of $1,300,000 from NOAA's Coastal and Estuarine Land 
Conservation Program to protect the 288-acre Isinglass River 
Conservation Corridor in New Hampshire.
    In addition, I would like to urge your support for a substantial 
increase in overall funding for the Coastal and Estuarine Land 
Conservation Program in fiscal year 2008 to enable the protection of 
significantly more coastal resources than in previous years. While we 
are pleased that the program has been recommended in the President's 
budget for $15 million, this level, while a good first step, is 
inadequate when compared to the needs from across the country, and what 
Congress has historically provided for this program.
    I work with UNH Cooperative Extension as an Educator in Land and 
Water Conservation in 62 communities within Rockingham County and north 
to the extent of the Great Bay watershed. My involvement with 
conservation over the past three years has resulted in the successful 
completion of more than 130 projects covering in excess of 6,000 acres. 
The Isinglass River Conservation Corridor is one of the most exciting 
that I have been involved with during this period. My role from the 
outset has been to bring the landowner, the community, a regional land 
trust Bear-Paw Regional Greenways and the Trust for Public Lands 
together to try to find a way to conserve the keystone property in this 
important river corridor.
    Of New Hampshire's many waterways, only 14 rivers have the 
distinction of being officially recognized by the state's Rivers 
Management Protection Program for outstanding natural and cultural 
resources. The Isinglass River, which flows freely for its entire 18-
mile course through the southeastern portion of the state, is one of 
these select few. Winding its way through one of the most rapidly 
developing portions of the state, the scenic and ecological conditions 
which make the Isinglass so unique are increasingly in jeopardy. As 
expanding development is frequently accompanied by habitat loss, 
degradation of water quality, and loss of recreational opportunities, 
programs such as the Coastal and Estuarine Land Conservation Program 
(CELCP) have been established to help protect and preserve landscapes 
vital to the healthy functioning of ecosystem processes.
    The Isinglass River property is 288 forested acres bounded to the 
west, northwest, and northeast by the Isinglass River. It is surrounded 
by 1,500 acres of contiguous forest, and has 7,800 feet of river 
frontage. The Isinglass River property is the top priority for the 
State of New Hampshire for CELCP funding in fiscal year 2008 and is 
located in a section of the river that is identified as a Conservation 
Focus Area in the New Hampshire Coastal Management Plan. In 2005, the 
New Hampshire State Wildlife Action Plan categorized the river corridor 
as Tier I habitat, the highest quality designation in the State. The 
current landowner has already submitted a subdivision plan for 72 
housing lots, which would forever fragment this large, undeveloped 
block of land along the Isinglass River.
    The length of the Isinglass River provides home to a variety of 
wildlife, including mink, otter, raccoon, deer, moose, black bear and 
bobcat, all of which would be threatened if development were to 
proceed. A wildlife inventory of the Isinglass corridor has confirmed 
the presence of several species classified at the federal and state 
level as threatened, endangered, or of special concern, which include 
the American bald eagle, common loon, osprey, Cooper's hawk, wood 
turtle, Blanding's turtle and spotted turtle. There is also the 
presence of a seven-acre beaver impoundment. The Isinglass River itself 
is considered an important fishery. Naturally occurring warm-water game 
fish include small and largemouth bass in the lower portion of the 
river. The New Hampshire Department of Fish and Game annually stocks 
more than 3,000 rainbow trout and 2,500 brook trout in the headwaters. 
In addition, over 73,000 Atlantic salmon fry are being stocked as part 
of an ongoing anadromous fish restoration effort. Several species of 
concern also are known to live in the Isinglass River, including the 
American eel, banded sunfish, bridle shiner, and the blacknose shiner, 
a fish located in only one other waterway in the state.
    The Isinglass River property will offer recreational benefits as 
well as habitat protection. A trail network already exists on the 
property, which makes hiking a main activity. Pig Lane, the road that 
provides access to the Isinglass River property, is used extensively 
for mountain biking. Hunting and fishing have long been historic uses 
of the property, and access for these activities will continue. The 
Isinglass River itself has been used extensively for fishing, boating, 
and other recreational uses. The river is considered to be an important 
seacoast trout stream and is heavily utilized by local anglers. Due to 
the free-flowing nature of the Isinglass River it provides both 
challenging whitewater and relaxing flatwater boating opportunities for 
canoeists and kayakers. Because of the importance of Isinglass River, 
as a fishery and recreational boating destination, New Hampshire Fish 
and Game would be interested in constructing and maintaining a car-top 
boat launch with access through Pig Lane.
    A fiscal year 2008 Coastal and Estuarine Land Conservation Program 
(CELCP) appropriation of $1.3 million, directed to the Town of 
Strafford, is needed to acquire and conserve this property. This 
appropriation will be matched with funds from the New Hampshire Land 
and Community Heritage Investment Program, New Hampshire Fish and Game, 
and private donations, and the value of match properties. The Town of 
Strafford has already committed up to $200,000 towards acquisition of 
this property.
    Thank you, Madam Chairwoman, for the opportunity to provide this 
testimony.
                                 ______
                                 
   Prepared Statement of the Clear Creek Nature and Cultural Tourism 
                                Council
    Madam Chairwoman and Honorable members of the Subcommittee, I 
appreciate the opportunity to present this testimony in support of an 
appropriation of $705,000 from NOAA's Coastal and Estuarine Land 
Conservation Program to acquire potential parkland along Clear Creek in 
Webster, Texas.
                        note about organization
    Identified for acquisition with fiscal year 2008 funds are 
approximately 90 acres in several ownerships within the proposed Clear 
Creek Park boundaries. Once acquired, the City of Webster will own and 
maintain the land as a public park and conservation area. Purchase of 
these properties is critical to the protection of habitat and 
recreational open space along Clear Creek, one of the few remaining 
unchannelized stream and river corridors in the Houston metropolitan 
area. Development is currently the largest threat to habitat in the 
Galveston Bay estuary, and some parcels within the park area have 
already been sold. If additional tracts in the proposed Clear Creek 
Park area are developed, the creek's floodway would be degraded by loss 
of wetlands and increase in runoff pollutants.
    The Clear Creek corridor offers the potential for significant 
recreational opportunities for residents and visitors. Several parks 
operated by local governments extend along the creek, including Harris 
County's Challenger Seven Memorial Park, Galveston County's Walker Hall 
Park, and League City's Erikson Tract and Clear Creek Nature Park. In 
order to enlarge and further link this important corridor of parks and 
reserves, the City of Webster has proposed the acquisition of 
approximately 200 acres along the northern banks of the creek for a new 
Clear Creek Park. Within the planned park area, the City of Webster 
envisions building a trail along Clear Creek for hiking and biking. The 
trail will also feature access to launch sites on the creek for 
canoeing and kayaking, small piers for fishing, observation points and 
decks for bird watching, and picnic areas for families. The multiple 
opportunities along the trail are expected to accommodate and 
contribute to outdoors and environmental education. The opening of a 
trail would also advance the Galveston Bay Estuary Program's goal of 
increasing public access to Galveston Bay and its tributaries.
    Galveston Bay was recognized in 1988 as an estuary of national 
importance in the EPA's National Estuary Program, one of 28 such 
estuaries in the nation. The comprehensive management plan of the 
Galveston Bay Estuary Program identified wetlands habitat loss and 
degradation as a priority problem in the estuarine system. Webster lies 
at the lower end of the Clear Creek watershed and is home to diverse 
communities of ecologically important coastal habitats and systems. 
Riparian forests of willow oaks, water oaks, and cedar elms provide 
habitat for amphibians, owls, hawks, neotropical migrant birds, and the 
reddish egret, a state-listed threatened bird species. Along the creek 
banks are several areas of coastal prairie. Near Clear Lake and the 
entrance to Galveston Bay, marshes, wetlands, and embayments support 
fish, waterfowl, and migrant birds.
    An appropriation of $705,000 from the Coastal and Estuarine Land 
Conservation Program (CELCP) is needed in fiscal year 2008. Clear Creek 
Park will protect critical coastal land and provide multiple 
recreational possibilities to residents of Webster and other nearby 
communities.
    In addition to specifically funding Clear Creek, I urge your 
support for a substantial increase in overall funding for the Coastal 
and Estuarine Land Conservation Program in fiscal year 2008 to enable 
the protection of significantly more coastal resources than in previous 
years. While I am pleased that the program has finally been recommended 
in the President's budget for $15 million, this level, while a good 
first step, is inadequate when compared to the needs from across the 
country, and what Congress has historically provided for this program.
    Thank you, Madam Chairwoman, for the opportunity to present this 
testimony in support of the Clear Creek project and the CELCP program.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Thank you for the opportunity to offer the recommendations of The 
Nature Conservancy on the fiscal year 2008 budget for the National 
Oceanic and Atmospheric Administration (NOAA).
    In general, we are concerned that funding for oceans in general and 
NOAA specifically is declining. The Conservancy urges the Committee to 
provide appropriations for NOAA at or approaching $4.5 billion, as 
recommended by the Joint Oceans Commission Initiative and the Friends 
of NOAA Coalition. This funding level for NOAA would allow enhancements 
in the development of an integrated ocean and atmospheric observing 
system; increased research and education activities, expanded ocean 
conservation and management programs; and provide critical improvements 
in infrastructure (satellites, ships, high performance computers, 
facilities), and data management. Such an increase would represent 
significant progress toward addressing recommendations contained in the 
reports of the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission.
    The Conservancy works to identify priorities for coastal and marine 
conservation through marine ecoregional plans. We identify present and 
likely future threats to marine biological diversity before attempting 
to identify appropriate strategies for conservation. At more than one 
hundred marine sites around the world, the Nature Conservancy has used 
a variety of strategies for marine conservation including habitat 
restoration of important nursery and spawning areas, removal of 
invasive species, coastal land acquisition, private conservation of 
submerged lands, elimination of destructive practices, establishment of 
protected areas, management of extractive marine resources activities, 
and reduction of nutrient and toxic inputs to coastal systems. No 
single strategy works everywhere and at every site, multiple 
conservation approaches are needed. The selection of appropriate 
approaches depends on the biological, socioeconomic, and political 
circumstances at each site.
    The National Oceanic and Atmospheric Administration (NOAA) is an 
important partner to the Conservancy in many aspects of our 
conservation work:
  --We rely upon NOAA's data, research, and monitoring of coastal and 
        marine systems, and have several shared priorities on which we 
        collaborate. For example, NOAA's Coastal Services Center 
        maintains a strong customer-service, partnership-oriented 
        approach to providing needed information and technical 
        assistance to states, local governments, other federal 
        agencies, and the private sector to inform decision-making.
  --We rely on NOAA's programs that support site-based conservation--
        those that fund conservation and restoration activities, and 
        those that provide for management of coastal and marine 
        systems. NOAA's ability to meet its requirements under various 
        resource management statutes could be significantly improved by 
        enhancing the agency's ability to fund on-the-ground 
        conservation needs. Programs such as Coastal and Estuarine Land 
        Conservation, Community-based Restoration, Open Rivers 
        Initiative are excellent examples of NOAA taking a practical, 
        community-oriented approach to conservation and management of 
        coastal and marine resources. These programs should be 
        expanded.
  --NOAA's contributions to state and local implementation and 
        educational programs help to ensure that the human capacity 
        exists to address environmental management issues at the 
        necessary scale. We are concerned that NOAA's support for human 
        capacity to implement programs within the agency and at the 
        state and local levels is often the first to go in tight budget 
        environments. The Committee should provide funding for staff 
        capacity to provide technical assistance, efficiently manage 
        grants and programs, and help to measure effectiveness.
    Finally, we would like to offer the Committee our recommendations 
regarding funding levels and guidance regarding implementation of a 
number of key NOAA programs.
NOAA Habitat Restoration
    The Nature Conservancy requests increased funding for habitat 
conservation and restoration to support fisheries management 
objectives, protected species recovery, and other coastal and marine 
management requirements. Through existing programs, NOAA has clearly 
demonstrated their capability to achieve results by advancing 
constructive, on-the-ground and in-the-water habitat conservation. 
Habitat losses have a substantial impact on the health and productivity 
of marine ecosystems, yet NOAA's ability to work closely with 
communities around the country to stem or reverse these losses is 
constrained by the relatively small amount of funding they receive.
    We would urge you to consider increasing funding for the following 
programs in NMFS Office of Habitat and in the Office of Protected 
Resources:
            National Marine Fisheries Service--Office of Habitat, 
                    Fisheries Habitat Restoration
    Penobscot River Restoration ($10 million in fiscal year 2008).--In 
a 2004 study, the National Research Council \1\ identified removal of 
dams as a top priority near term action required to recover Atlantic 
salmon in Maine. Removal of the Veazie and Howland dams and 
modifications proposed at Howland dam on the mainstem of the Penobscot 
River--Maine's largest river system--present a remarkable opportunity 
to recover a species. This project will improve access to almost 1,000 
miles of habitat for Atlantic salmon, thousands of miles of habitat for 
American eel, and hundreds of miles for alewives. Atlantic sturgeon, 
shortnose sturgeon (both federally listed), tomcod, and smelt will 
recover lost access to their historic habitat ranges. Additionally, 
this project will provide benefits to the Penobscot Indian nation, will 
provide new recreational opportunities, and will come with no net loss 
of power production from the river, maintaining a clean and secure 
energy source for Maine's residents.
---------------------------------------------------------------------------
    \1\ National Research Council. Atlantic Salmon in Maine. National 
Academies Press. 275 pp. 2004.
---------------------------------------------------------------------------
    Community-based Restoration Program ($20 million in fiscal year 
2008).--Currently this program, with its exceptional 10-year track 
record, is able to fund only about 15 percent of the proposals it 
receives. Additional funds would be well-spent.
    Open Rivers Initiative ($10 million in fiscal year 2008).--In 
addition to the large barriers on rivers like the Penobscot, there are 
hundreds of thousands of small degraded barriers on rivers and streams 
across the United States. This Initiative is part of a multi-agency 
commitment to address this problem. We urge you to ensure that this new 
program is additive to NOAA's habitat restoration capacity, and doesn't 
reduce funding available for existing programs.
            National Marine Fisheries Service--Office of Protected 
                    Resources
    Cooperation with the States ($5 million in fiscal year 2008).--
Through this program, authorized under Section 6 of the Endangered 
Species Act, NMFS may provide grants to support conservation actions 
that contribute to recovery, including management, outreach, research, 
and monitoring projects that have direct conservation benefits for 
listed species, recently de-listed species, and candidate species that 
reside within that State. A comparable program for cooperation with 
states on ESA activities exists in U.S. Fish and Wildlife Service has 
been very successful in catalyzing and funding activities that 
contribution to the recovery of listed species.
    With the exception of jointly managed species (Atlantic salmon) 
activities related to NMFS jurisdiction species are not eligible for 
funding under the FWS program. NMFS has management responsibility for 
56 listed marine species in the United States. While substantial 
federal funding is directed to Pacific salmon species under their 
jurisdiction, there are few resources available to support proactive 
conservation efforts geared toward recovery of the other 30 species for 
which they have sole or joint management responsibility.
    With increased funding under this program, states would have a 
strong incentive to enter into cooperative agreements with NMFS under 
Section 6 and NMFS would have tools and resources to support more on 
the ground conservation efforts to abate threats to listed species 
(most grants to date have been for research or monitoring activities).
    This program has received $990,000 each year since fiscal year 
2003. On average, approximately 80 percent of appropriated funds have 
been granted each year with a minimum 25 percent non-federal cost 
share. Remaining funds are used for program management.
Coastal and Estuarine Land Conservation Program (CELCP)
    The Nature Conservancy supports funding CELCP at $80 to $100 
million for fiscal year 2008 and looks forward to working with the 
Committee to guide selection of high priority projects. We recognize 
that this is a substantial increase of prior year funding levels, but 
feel that it is warranted given the extraordinary circumstances 
surrounding the fiscal year 2007 budget and the pent-up demand left 
over from what we expect to be comparatively low funding levels in 
fiscal year 2007. We believe that the list of projects developed in 
fiscal year 2007 by NOAA to identify important, eligible and ready 
projects was a significant improvement to the program and hope that a 
similar list will be made available soon to offer guidance for the 
fiscal year 2008 process. We hope that it will be useful to the 
Committee as you make decisions regarding the future direction of this 
important program.
    We are concerned that NOAA continues to impose a $3 million per 
project cap in the guidance for the call for proposals. We are 
concerned that this cap may be either unnecessarily constraining or may 
lead to inflated project proposals. States should be encouraged to 
request what is needed to complete a given project within an 
appropriate timeframe, and should work with NOAA and the Congress to 
ensure adequate funding is available within budget constraints.
    Finally, we are increasingly concerned about the lack of dedicated 
staff capacity for CELCP at NOAA. Current practice is to assess a 
percentage of the project appropriation to cover NOAA staff costs. The 
problem is that up to a point, the costs of running a program are 
fixed. NOAA needs a dedicated line of funding to support program 
administration and management, and should be prohibited from assessing 
a percentage of project allocations to cover administrative costs.
Coral Reef Conservation Program and Coral Reef Watch
    The Conservancy has developed a strong partnership with NOAA's 
Coral Reef program, and we are delighted with their enthusiastic desire 
to work together on improving resilience of coral reefs, developing 
approaches for sustainable financing for coral conservation activities 
at the local level, and other creative approaches to reducing threats 
to corals. We would urge you provide $30.5 million for the program in 
fiscal year 2008, an increase over the Administration request of 
$25.797 million. The $30.5 million requested would include $1.5 million 
to support ``Local Action Strategies,'' a unique partnership between 
NOAA and states and territories to address threats to coral reefs at 
the local level.
    However, we are concerned with the decision made in the fiscal year 
2006 conference to cut funding for NESDIS coral monitoring in fiscal 
year 2006. Funding for Coral Reef Watch was included in bills produced 
by both chambers and the President requested $737,000 for this modest 
but effective program known as ``Coral Reef Watch.'' The program has 
received full funding in fiscal year 2007. In 2005, not only did NESDIS 
scientists in this program predict a major coral bleaching event in the 
Caribbean, but these scientists were able to reach out to NMFS, NOS and 
partners in the region to use the attention generated by the event to 
help local managers take action to help reefs recover from the 
devastating effects of bleaching.
Gulf of Mexico Governor's Alliance
    The Administration's budget included a request for $5 million to 
help implement the Gulf of Mexico Governors' Action Plan. The 
Conservancy urges the Committee to provide at least this amount to 
leverage action on the commitments made by the Gulf Coast Governors. 
The Alliance identified five priority issues that are regionally 
significant and can be effectively addressed through increased 
collaboration at state, local, and federal levels:
  --Improvement in Gulf water quality, with an emphasis on healthy 
        beaches and shellfish beds;
  --Restoration and conservation of coastal wetlands;
  --Environmental education;
  --Identification and characterization of Gulf habitats to inform 
        management decisions; and
  --Reductions in nutrient loading.
Pacific Coast Salmon Recovery Fund
    The Pacific Coast Salmon Recovery Fund (PCSRF) has funded hundreds 
of successful on the ground salmon conservation efforts, and we are 
pleased that NOAA and the states receiving these funds have greatly 
improved tracking the process of restoration and management under this 
important program.
    This program is a critical complement to federal salmon recovery 
and management efforts. It enables the state to initiate restoration of 
salmon habitat and manage fisheries in areas beyond the reach of the 
federal government, e.g. on private lands. The PCSRF enables the states 
to leverage significant amounts of state funding to address the needs 
of private landowners in complying with the Endangered Species Act, 
maintaining the economic viability of these lands, while greatly 
contributing to economic recovery.
    We are concerned about the decline in funding for the program, from 
$89 million in fiscal year 2004 and fiscal year 2005 to $67 million in 
fiscal year 2006, and $66.8 million in the President's fiscal year 2008 
request. The Conservancy strongly supports $100 million for this 
program. We are also concerned how the funds are allocated across the 
five states involved in the program. We feel that the conservation 
activities oriented towards recovery and protection of salmon should be 
the primary purpose of this program, and therefore urge the committee 
to consider including report language in this year's appropriation that 
more explicitly links expenditures of PCSRF funds to recovery actions 
identified in federal and state salmon recovery and management plans, 
where applicable.
    Thank you for this opportunity to share with the Committee the 
Conservancy's priorities in NOAA's fiscal year 2008 budget. We would be 
pleased to provide the Committee with additional information on any of 
the Conservancy's activities described here or elsewhere. You may 
contact Erika Feller at 703-841-5374 or via email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9df8fbf8f1f1f8efdde9f3feb3f2effa">[email&#160;protected]</a>, 
if you have questions on which we might be of assistance.
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground and in-the-water conservation work 
is carried out in all 50 states and in 27 foreign countries and is 
supported by approximately one million individual members. We have 
helped conserve nearly 15 million acres of land in the United States 
and Canada and more than 102 million acres with local partner 
organizations globally.
    The Conservancy owns and manages approximately 1,400 preserves 
throughout the United States--the largest private system of nature 
sanctuaries in the world. We recognize, however, that our mission 
cannot be achieved by core protected areas alone. Therefore, our 
projects increasingly seek to accommodate compatible human uses to 
address sustained human well-being.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
